<html>
<title> - DRUGS IN SPORTS: COMPROMISING THE HEALTH OF ATHLETES AND UNDERMINING THE INTEGRITY OF COMPETITION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 DRUGS IN SPORTS: COMPROMISING THE HEALTH OF ATHLETES AND UNDERMINING 
                      THE INTEGRITY OF COMPETITION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2008

                               __________

                           Serial No. 110-93


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
49-522 PDF                WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                    COMMITTEE ON ENERGY AND COMMERCE

                   JOHN D. DINGELL, Michigan,Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                  Dennis B. Fitzgibbons,Chief of Staff

                   Gregg A. Rothschild,Chief Counsel

                       Sharon E. Davis,Chief Clerk

                David L. Cavicke,Minority Staff Director

                                  (ii)


        Subcommittee on Commerce, Trade, and Consumer Protection

                    BOBBY L. RUSH, Illinois,Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida,
    Vice Chairman                         Ranking Member
G.K. BUTTERFIELD, North Carolina     J. DENNIS HASTERT, Illinois
JOHN BARROW, Georgia                 ED WHITFIELD, Kentucky
BARON P. HILL, Indiana               CHARLES W. ``CHIP'' PICKERING, 
EDWARD J. MARKEY, Massachusetts          Mississippi
RICK BOUCHER, Virginia               VITO FOSSELLA, New York
EDOLPHUS TOWNS, New York             GEORGE RADANOVICH, California
DIANA DeGETTE, Colorado              JOSEPH R. PITTS, Pennsylvania
CHARLES A. GONZALEZ, Texas           MARY BONO, California
MIKE ROSS, Arkansas                  LEE TERRY, Nebraska
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          MICHAEL C. BURGESS, Texas
JIM MATHESON, Utah                   MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana          JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)





                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     3
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     6
Hon. Edward J. Markey, a Representative in Congress from the 
  State of Massachusetts, opening statement......................     7
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     8
Hon. Anthony D. Weiner, a Representative in Congress from the 
  State of New York, opening statement...........................    10
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    11
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................    12
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    13
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................   180

                               Witnesses

Hon. George J. Mitchell, a United States Senator from the State 
  of Maine, prepared statement...................................    14
Allan H. ``Bud'' Selig, commissioner, The Office of the 
  Commissioner of Baseball.......................................    18
    Prepared statement...........................................    20
Donald Fehr, executive director, Major League Baseball Players 
  Association....................................................    21
    Prepared statement...........................................    24
David Stern, commissioner, National Basketball Association.......    37
    Prepared statement...........................................    37
G. William Hunter, executive director, National Basketball 
  Players Association............................................    40
    Prepared statement...........................................    42
Roger Goodell, commissioner, National Football League............    44
    Prepared statement...........................................    48
Gene Upshaw, executive director, National Football League Players 
  Association....................................................    46
    Prepared statement...........................................    48
Gary Bettman, commissioner, National Hockey League...............    90
    Prepared statement...........................................    92
Paul Kelly, executive director, National Hockey League Players 
  Association....................................................    98
    Prepared statement...........................................   100
Jim Scherr, chief executive officer, U.S. Olympic Committee, 
  Colorado Springs, Colorado.....................................   145
    Prepared statement...........................................   148
Travis T. Tygart, chief executive officer, U.S. Anti-Doping 
  Agency, Colorado Springs, Colorado.............................   149
    Prepared statement...........................................   151
Myles Brand, president, National Collegiate Athletics 
  Association, Indianapolis, Indiana.............................   154
    Prepared statement...........................................   156
Robert Kanaby, executive director, National Federation of State 
  High School Associations, Indianapolis, Indiana................   161
    Prepared statement...........................................   163
Alexander M. Waldrop, chief executive officer, National 
  Thoroughbred Racing Assocation, Lexington, Kentucky............   165
    Prepared statement...........................................   167

                           Submitted Material

National Football League Policy on Anabolic Steroids and Related 
  Substances 2007, June 21, 2007.................................    62
E-mails from horse racing owners and breeders, submitted by Mr. 
  Whitfield......................................................   108

 
 DRUGS IN SPORTS: COMPROMISING THE HEALTH OF ATHLETES AND UNDERMINING 
                      THE INTEGRITY OF COMPETITION

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

            House of Representatives,      
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:40 a.m., in 
room 2123, Rayburn House Office Building, Hon. Bobby L. Rush 
[chairman of the subcommittee] presiding.
    Present: Representatives Rush, Schakowsky, Barrow, Markey, 
Towns, Weiner, Matheson, Whitfield, Stearns, Pickering, 
Fossella, Pitts, Terry, Burgess, Blackburn, and Barton (ex 
officio).
    Staff Present: Christian Fjeld, Consuela Washington, 
Valerie Baron, Brian McCullough, Shannon Weinberg, William 
Carty, and Chad Grant.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. This subcommittee will come to order. In the 
109th Congress this subcommittee led the congressional efforts 
to produce legislation cracking down on the illegal use of 
steroids and other drugs in sports. Then subcommittee Chairman 
Stearns introduced H.R. 3084, the Drug Free Sports Act of 2005. 
And with his competent leadership we have reported the bill out 
of subcommittee, then out of full committee to the floor of the 
House of Representatives. Subsequent to those committee 
efforts, no further action was taken as the professional sports 
leagues made progress towards implementing and enforcing new 
testing policies for their athletes.
    The purpose of today's hearing is to restart and perhaps 
finish the legislative process that we started in the 109th 
Congress. The use of performance-enhancing drugs in sports is 
not a trivial matter. This is a serious public health problem 
that is worthy of congressional scrutiny. The detrimental side 
effects of steroid use are well documented and their effects on 
young people are particularly pernicious. Steroid use has been 
linked to impotence, clotting disorders, liver damage, heart 
attacks, strokes and violent mood swings known as roid rage. 
HGH, the human growth hormone, which is increasingly replacing 
steroids as a drug of choice among athletes has been documented 
to have equally negative side effects, including swelling, 
diabetes, hardened arteries, high blood pressure and abnormal 
growth of bones and organs. Some medical experts assert that 
HGH increases the risk of cancer.
    So given the severity of the problem, I fully intend to 
have our hearing be deliberative and perspective. While it is 
important to hold people accountable for past actions, I for 
one am not interested in rehashing the past. The purpose of 
this hearing is to deliberate on a number of public policy 
issues that are either new or unresolved from our deliberations 
in the 109th Congress.
    First, I am interested in the recommendations of the 
Mitchell Report and how the sports leagues will or will not 
implement those recommendations and the provisions of the World 
Anti-Doping Agency Code, or the WADA Code.
    Second, I want to address the increasing prevalence of 
marketing and use of HGH. The fact that professional and most 
amateur sports associations do not or cannot test for HGH is a 
major hole in the current system.
    Third, I want this hearing to explore the idea of saving 
player samples and retroactively testing them when new drugs 
are discovered. The designer steroid THG was only discovered as 
a result of the BALCO Federal investigation and those athletes 
that tested positive for the drug were implemented by old 
samples that were stored at laboratories and retested.
    Eradicating sports performance-enhancing drugs at the 
highest level of competition is not just a matter of preserving 
the integrity of the competition. It is about sending a clear 
resounding message to young people that these dangerous drugs 
are not attributed to success and achievement. We have to get 
it into our kids's heads that taking steroids and other drugs 
will lead you nowhere but pain and ill health and certainly not 
well-earned wealth. It is vital that we treat steroid use and 
abuse as an urgent matter and then eradicate it not only from 
the locker rooms of millionaire athletes but from the lockers 
rooms filled with young impressionable students. Whether HGH 
use among NFL or college football players exists, whether it is 
amphetamines use among baseball players, THG's prevalence with 
Olympic athletes or whether it is illegal painkillers injected 
to Third World resources, these performance-enhancing drugs are 
a deliberate attempt to cheat and to spoil honest competition 
with devastating long-term effects on athletes.
    If Congress can play a vital role in shaping public policy 
to eradicate all sports and every level of these substances, 
then the subcommittee is prepared to act. Let me just say, I do 
resent the elitists, the cynics and the culture critics who 
dismiss this issue as a populous spectacle. I believe that we 
can move forward in a measured, deliberative and bipartisan 
manner with legislation that seriously tackles drugs in sports. 
And as chairman, that is precisely how I intend to conduct the 
business of this subcommittee on this particular matter.
    With that, I yield back the balance of my time. I now 
recognize the ranking member of the subcommittee, Mr. 
Whitfield, for 5 minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Chairman Rush, I want to thank you very much 
for having this hearing. I want to thank Cliff Stearns and the 
both of you for the leadership that you have provided on this 
important issue that is of great interest to people throughout 
America. And I can assure you that our side of the aisle looks 
forward to working with you to proceed in a nonpartisan manner 
to improve the integrity of all sports.
    I might say that I believe that football, baseball, 
basketball, and other sports have been quite effective in 
addressing this issue and showing their sincerity and trying to 
deal with it. But this morning briefly I want to shine the 
spotlight on another sport that has not been as successful in 
addressing this serious issue, and that is the horse racing 
industry.
    Last month in an interview, Hall of Fame horseman and 
trainer Jack Vanberg, who has won more races than any living 
trainer, said he had seen enough. He said drugs ranging from 
medications like steroids and clenbuterol to prohibited 
substances like EPO are slowly destroying horse racing in 
America. Trainers and vets make the decisions and the horse 
cannot say no. England, France, all of Europe, Japan, South 
Africa, Dubai, Australia, all the major racing jurisdictions 
have banned the use of drugs still commonplace in America. 
England, for example, banned steroids in racing over 30 years 
ago. And throughout the world the U.S. is viewed as a place 
where racing is about drugs. As many people in the industry 
say, it is no longer my horse is better than yours. It is my 
vet is better than yours.
    In 1981, U.S. Senator Matt Mathias of Maryland gave a 
speech to the Jockey Club Roundtable in Saratoga, New York, to 
speak about legislation entitled the Corrupt Practices in Horse 
Racing Act. That bill had been introduced by Senator Pryor of 
Arkansas and others and it would have banned all drugs, 
including Bute and lacix, putting the U.S. in line with other 
major racing jurisdictions around the world but, more 
important, establishing for the first time a clear and uniform 
rule for the United States. It also would have prohibited 
numbing, nerving, and freezing of all horses prior to racing. 
If the horse is not healthy to run, if the horse is not healthy 
enough to run, then it shouldn't be running.
    State racing commissioners descended on Senator Mathias' 
office after that speech, and they assured him 21 years ago 
that they were going to address the problem, that they were 
going to crack down on the use of these drugs in racing. Here 
we are 27 years later and not much has changed. Many racing 
jurisdictions have adopted some version of the model rule. But 
although the racing commission in Louisiana, after adopting 
this rule just last month, 2 months ago, yesterday the Senate 
in Louisiana reversed that decision. So some 27 years later 
there is not a uniform national drug policy rule for horse 
racing in America.
    Now, through the years the horsemen's groups who claimed 
that they represent every trainer and every horse owner have 
been in the forefront to stop the adoption of more stringent 
drug rules, and they have been and continue to be successful to 
the detriment of the sport. Recently the Racing Medication and 
Testing Consortium recommended that four steroids be classified 
as Class III drugs, which in effect would ban steroids from 
racing in the U.S.
    Now Dr. Steven Barker, state chemist for the Louisiana 
Racing Commission and an ally of the Horsemen's Benevolent and 
Protective Association, said the group that put this together 
should be taken out and beaten.
    Now steroids have been banned in all professional sports 
except horse racing for a reason. They are dangerous, and they 
contribute to clotting disorders, liver damage, heart attacks, 
strokes and weakened tendons. In horse racing they also 
contribute to breakdowns on the tracks, endangering the lives 
of jockeys, exercise riders, as well as horses. The industry 
does not provide transparency about accidents and fatalities on 
the track. But from the bits and pieces of information that 
have become available, it is estimated that between 2,500 and 
3,000 horses die on the track each year in America.
    Now as D.G. VanClief said, who is the former CEO of the 
National Thoroughbred Racing Authority, we have endeavored to 
adopt uniform rules governing the use of medication for years 
without success despite the clear need to do so. So I would ask 
this morning as we have this hearing the rhetorical question 
that Senator Mathias asked 27 years ago. Is it time to call the 
Federal cavalry and send it chasing into your stables with guns 
blazing to clean up the sport of horse racing?
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair now recognizes the vice chairman of the 
full subcommittee, my friend from the great State of Illinois, 
Ms. Schakowsky, for 5 minutes.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. Frankly, I wish we 
didn't have to hold this hearing at all, but after years of 
stories of professional athletes testing positive for 
performance-enhancing drugs, I am afraid that this committee 
and this Congress is left with little choice. Professional 
athletes should be positive role models who demonstrate the 
importance of fitness, of teamwork and of striving to be the 
best you can. However, I am deeply concerned that for kids 
across America they are instead examples of unfettered ambition 
and they are conveying the message that it is okay to cheat to 
get ahead at any price. And I am afraid that this is the 
message that is reaching our children.
    Performance-enhancing drugs are being used by more and more 
high school students across the country. I have heard about 
junior high students as well. Studies show that more than 1 
million children in the United States have used steroids at 
least once in their lifetime. The CDC estimates that between 3 
and 6 percent of high school athletes, hundreds of thousands of 
young athletes, currently use some kind of steroid. The risk to 
teenagers of using these substances are well-documented. The 
side effects of these substances to adults are serious, but 
because of the hormonal changes that they are going through 
children can experience additional side effects which can have 
harmful, permanent physical and emotional damage to their 
development.
    On January 14, Illinois enacted a random drug testing 
program for students participating in State finals 
competitions, joining New Jersey and Texas and Florida to 
become the fourth State to test for performance-enhancing drugs 
used by high school athletes. Unfortunately, studies have shown 
that random drug testing programs don't seem to serve as a 
deterrent. That is how powerful and alluring these drugs are 
for young athletes. But I am hopeful that my home State has 
more success in combating the proliferation of these substances 
than other programs have had in the past.
    Still I am concerned that this trend is going to be very 
difficult to combat. The sad truth is that performance-
enhancing drugs are all too easy to obtain. Type steroids into 
Google or Yahoo! shopping and you will find almost 20,000 sites 
where you can easily obtain them. Type in HGH, human growth 
hormone, and you can find almost 10,000 sites. Some of these 
pills sell for as low as $5 a bottle, a price that an average 
teenager can easily afford. Here is the name of some of these 
Web sites, houseofmuscle.com legalsteroids.com, let's see, 
roid--www.roidstore.com.
    It is becoming more and more clear to me that Congress 
needs to once again consider legislation to address this issue, 
legislation that will eliminate the use of these substances in 
professional sports that will make clear that HGH is banned, 
hazardous, and that will crack down on the proliferation of 
these drugs on the Internet.
    In the Congress I was proud to work with Congressman 
Stearns last session to craft the Drug Free Sports Act, 
legislation that required professional sports associations to 
conduct random testing of athletes for the use of performance-
enhancing substances. It required testing five times each year 
at random intervals during both the season of play and the off-
season and without advanced notification. The penalty for a 
positive test result is suspension without pay for one-half of 
the season for the first violation, for one full season for the 
second violation and permanently for the third violation. I am 
curious to hear why this commonsense approach to finally 
ridding drugs from professional sports in a uniform transparent 
manner wouldn't work.
    Barry Bonds, Roger Clemens, Derek Jeter, these are idols to 
millions of kids across the country who collect their baseball 
cards and wear their jerseys. These athletes should be national 
treasures. I simply don't know what I am supposed to say to my 
grandkids when the stories break of yet another athlete caught 
cheating. I would be very interested to hear from our witnesses 
here today what they say to their children and grandchildren.
    Thank you again, Mr. Chairman. I welcome and look forward 
to hearing from our witnesses today, and yield back the balance 
of my time.
    Mr. Rush. The Chair wants to thank the gentlelady. The 
Chair now recognizes the former chairman of the subcommittee, 
the author of the H.R. 3084, the Drug Free Sports Act of 2005. 
The Chair recognizes Congressman Stearns of Florida for 5 
minutes of opening statements.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning and thank you, Mr. Chairman, for 
holding this hearing. This now is the third hearing on steroids 
by this committee. I also want to congratulate my colleague 
from Kentucky, Mr. Whitfield, for his new position as the 
ranking member and hopefully some day soon he will be the 
chairman. My colleagues, in March of 2005 as chairman of this 
Committee, along with my distinguished colleague Jan 
Schakowsky, we held hearings to investigate steroid use in 
professional baseball and I believe that those hearings have 
directly led to the creation of a steroid testing policy, 
particularly with emphasis in Major League Baseball and to the 
Mitchell investigation. I believe Commissioner Selig took 
action as a result of these hearings. And when pressed, he had 
Senator Mitchell investigate.
    Mr. Chairman, he is to be commended for this investigation 
and appointing Senator Mitchell to do this. But, my colleagues, 
the Mitchell Report is a report card on how he and the Players 
Union Association handled the steroid epidemic in Major League 
Baseball over the past 16 years. In short, they failed. And I 
am already on record calling for the resignation of 
Commissioner Selig. However, I respect the owner's decision to 
renew his contract and there is good news that progress has 
been made, and I hope this progress will warrant a passing 
grade in the future. As the results of the committee's action, 
Major League Baseball has recognized they have a problem with 
widespread steroid use and have recently instituted a steroid 
testing policy. Yet the testimony of James Scherr, the Chief 
Executive Officer of the United States Anti-Doping Agency 
states that the U.S. ADA's stringent testing system is viewed 
as the world leader in Olympics anti-doping and is universally 
acknowledged as one of the most rigorous anti-doping programs 
in the world. Question, shouldn't professional sports be using 
this system in its entirety? It has a proven record. While each 
professional sport now maintains their own steroid testing 
policy, are there any reasons why each of our country's 
professional sports associations could not adopt the world-
class standards created by the United States Olympic Committee?
    In 2005, as I mentioned, I introduced the Drug Free Sports 
Act, a bill that would direct the Secretary of Commerce to 
require professional sports associations to adopt and enforce 
strict steroid testing policies. What I would like to see done, 
Mr. Chairman, is for all professional sports associations to 
come together voluntarily and develop a consistent, transparent 
and independent anti-doping policy like the USADA. I would even 
like to see professional wrestling added into that coalition. 
If the sports associations are not inclined to adopt these 
standards, we in Congress may need to create a Federal standard 
to compel their compliance. At this time obviously I would 
rather not have the Federal legislation developed, or it be 
mandated to involve the Federal government in testing 
professional athletes. However, Mr. Chairman, I strongly 
believe that Congress and this committee should continue to 
monitor professional sports to ensure that the willful neglect 
that occurred in the past does not occur again.
    So I call today for all professional sports to come 
together, all of your associations, to develop a plan like the 
anti-doping agency, like the plan that has been developed for 
the Olympics so that the Congress does not have to act. The 
integrity of professional sports, their athletes and our young 
people who want to grab that brass ring on the merry-go-round 
of glory deserve no less.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman from Florida. And 
I want to just add, I don't agree with your ambitions. I think 
you have been--I have tried to be very gracious towards you and 
then you want me to lose my job. So I have to let you know I 
don't agree with that.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Markey, for 5 minutes of opening statements.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much. I want to 
thank you for holding this very important hearing. Today we 
have a white hot spotlight shining on the issue of drug use in 
sports. Whether we are talking blood, doping, anabolic steroid 
use, human growth hormone, ephedra, amphetamines, enabling or 
tolerating drug use in sports undermines the positive and 
productive goals that are part of athletic competition. It also 
endangers the health of the young aspiring athletes of this 
country and the world.
    The news is spread across the sports pages, Olympic Track 
and Field stars, Tour de France champions, NFL middle 
linebackers and Major League pitchers, it really doesn't 
matter. We are inundated with the success stories of 
professional and amateur athletes who tarnish the good name of 
competition through the use of performance-enhancing drugs.
    However, what is it that is of most concern to me is the 
example that superstar athletes are setting for the next 
generation of young people in high schools and junior high 
schools across the country. We are now seeing what I believe is 
only the proverbial tip of the iceberg with regards to 
performance-enhancing drug use in high school populations. In 
2005, of 10,000 adolescents, 4.7 percent of the males and 1.6 
percent of females age 12 to 18 admitted to using anabolic 
steroids, DHEA, HGH or a host of other performance-enhancing 
drugs at least once a week. I want to emphasize that point. We 
are not talking about trying a drug once and then stopping. We 
are talking about repeated, regular use. We are also talking 
about those who admitted to drug use. You can bet that the 
actual percentage for use of banned substances are close to if 
not greater than 10 percent. Whatever the real percentage is, 
the fact remains that we are seeing unprecedented numbers of 
high school and junior high school athletes who are choosing to 
use roids, gear, juice, sauce, vitamins, whatever you want to 
call it, all for the sake of an edge in competition.
    There are some who ask, why is Congress having a hearing on 
this issue in the first place? To those statements I reply the 
price that will be ultimately paid for the widespread use of 
performance-enhancing drugs is high. Time will only tell how 
high. We know the issue of HGH can cause diabetes, joint pain, 
and other problems. In the adolescent population, HGH use while 
bones are still growing can actually result in abnormally 
accelerated bone growth known as gigantism. Steroid use can 
cause more serious problems, including liver and kidney damage, 
in addition to heart attacks. And this is only the short-term 
damage. We are merely guessing if we suggest we know what long-
term harms will result from steroid and HGH use.
    Over the past years, it has appeared that some Major League 
Baseball players believed that HGH stands for helps generate 
homeruns, when it really stands for health gets harmed. And 
sadly at some point in the not too distant future today's 
stars, both amateur and professional, may deeply regret the 
price they paid in terms of their own health for their ill-
gained athletic success. The potential health crisis and 
possible lifetime damage to players is truly tragic, but 
especially dangerous because it sets a bad example for junior 
high school and high school athletes.
    The first step in dealing with this problem is addressing 
our own apparent ambivalence to this as fans, as coaches and as 
a society. We cannot continue to stand by and watch Major 
League and players associations talk from both sides of their 
mouths publicly condemning the use of performance-enhancing 
drugs while turning a blind eye to their use in club and 
fieldhouses across the country. That is why I hope at the end 
of this important discussion we have laid the groundwork for 
more stringent and rigorous testing standards for all athletes, 
professional and amateur alike.
    I would like to congratulate the actions that have been 
taken by the leagues thus far. It is a big step over what has 
existed in the past. But I think this hearing can play a very 
constructive role, Mr. Chairman, in helping to ensure that we 
have some sense of uniformity which is put in place that young 
people can depend upon as the message that is coming from their 
heroes in the sports world.
    I thank you for taking me out of turn at this time.
    Mr. Rush. The Chair thanks my friend from Massachusetts. 
And the Chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn, for 5 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs.Blackburn. Thank you, Mr. Chairman. I do feel like we 
are picking up on an important conversation that we started a 
couple of years ago, as you have heard from other members. And 
I appreciate, Mr. Chairman, that you have called the hearing 
and that you are giving the attention to the Mitchell Report 
that it has certainly generated and we see it deserves our 
attention. And the significant health and competitive issues 
that it raised in the public consciousness with respect to 
professional sports necessitate our attention to the issue.
    However, I will tell you I wish that we were on the floor 
of the House right now, working on renewing and extending the 
Protect America Act and making certain that our intelligence 
community has the ability they need to keep our country safe. 
Sometimes I think we get our priorities out of order.
    Fortunately, much has changed since our subcommittee first 
met on this issue in 2005. Major League Baseball now has a 
respectable and mandatory drug testing policy in place and the 
world of pro sports is on notice. The notice sent is the 
American people will no longer accept a see no evil, hear no 
evil and speak no evil attitude towards drugs in sports. Yet as 
the Mitchell Report reveals, all is far from well. Professional 
athletes continue to seek out performance-enhancing drugs, be 
they anabolic steroids or human growth hormone, and many 
questions raised by the Mitchell Report are still unanswered, 
primarily several recommendations from the Mitchell Report have 
yet to be implemented by Major League Baseball.
    This does not mean that Major League Baseball has failed to 
act. In fact, Commissioner Selig and his team at MLB are to be 
commended for acting quickly to adopt all provisions from the 
Mitchell Report that could be unilaterally adopted. What we 
don't know, however, is how quickly the league will be able to 
implement the remaining recommendations which will require 
direct negotiations with the players association. It is my hope 
that the two sides will move expeditiously to reopen 
negotiations and work out an agreement. After all we know the 
current collective bargaining agreement negotiated in 2006 is 
in effect until 2011. Yet it is in both sides' interest to go 
back to the table, reopen negotiations and work to implement 
the remaining recommendations of the report.
    And I am quite interested to hear from both sides on this 
matter today. After all, the matter at hand reaches far beyond 
the playing field of pro sports. We are even more concerned, as 
you have heard from other colleagues this morning, about the 
effect this has on our student athletes at the college and high 
school level. Seven million student athletes are going to be on 
the field, the mat, the court, the track in 2008. Between 2 and 
6 percent of these young people will take steroids. The debate 
is about how they, how they are going to perceive your 
attitudes toward performance-enhancing drugs and how you, each 
of you at the panel today, react may determine the future of 
the issue.
    And my question is, how do you square this with your 
children and grandchildren and the message that you are sending 
to them, the message that you are giving by your lack of 
initiative in taking this issue into your own hands and 
addressing this issue. I would love to hear from you on that. 
What do you say to your own children about how you act about 
this issue? If the professional sporting world, including but 
not limited to the representatives that are before us today, 
remain committed to permanently eradicating anabolic steroids, 
HGH and whatever comes next, we could possibly win this battle. 
We are not going to do it if we continue to have hesitation, if 
we don't see a willingness. We know we can't do it all alone.
    We look forward to hearing from you. We thank you for the 
strides that you have made. We look forward to your doing a 
better job. And we thank you for the time of being here with us 
today, and I yield back the balance of my time.
    Mr. Rush. The Chair thanks the gentlelady. The Chair now 
recognizes for 5 minutes of opening statements the gentleman 
from New York, Mr. Weiner.

 OPENING STATEMENT OF HON. ANTHONY D. WEINER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Weiner. Thank you, Mr. Chairman. There almost should be 
stipulated that this issue has impacted the integrity of your 
product and that the value of the product has been sullied and 
that the athletes that are involved in it have been impacted by 
implication, in many cases by participation in what was I guess 
cheating. But I think that I speak for many Members of Congress 
and frankly many Americans in wondering whether this is the 
forum that we should be solving these problems in. You know we 
in Congress frequently are interested in getting information 
about issues of the day. But the matrix between legislative 
activity and what you all do is tenuous at best.
    I know that it has been argued that in various levels 
baseball has an antitrust exemption to some degree, all of you 
operate as kind of national trusts. We are interested in the 
integrity of the game, we are interested in young athletes, as 
my colleague has mentioned. But I think at the end of the day 
what is really going to impact the change in behavior on the 
part of the people who sit before this panel is that your 
business is going to be impacted, that fans are going to 
express an unwillingness to buy into the idea that competition 
is fair, they are going to cease to enter into this 
relationship, this one that we have with athletes where we kind 
of admire and idolize them and seek to emulate them and that, 
at the end of the day, is going to impact the bottom line of 
what are basically very successful businesses. I think 
ultimately it is the marketplace that is going to say, you guys 
have to work out something that makes this--make the sports 
back to what they were or you risk tipping into that area of 
entertainment where it becomes professional wrestling that 
everyone kind of agrees that it is not on the up and up. 
Everyone filters the results through that lense and at the end 
of the day your product will cease to have the same value.
    This is something that I think that everyone realizes is in 
the interest of the athletes to get sorted out and in the 
interests of ownership to get sorted out. We in Congress 
obviously are interested in it. We are fans, we are 
legislators. But at the end of the day I don't believe that 
this--that ultimately this is going to be resolved by Members 
of Congress or by the legislature. We have important issues. 
And I am not saying that we shouldn't have hearings like this. 
But it does beg the question of whether or not the real outcome 
of this should be resolved by fans who start to vote with their 
feet and start to say you know, I don't like athletes who do 
this, I am not going to buy jerseys with their number on them. 
Or I am not going to support teams that don't really crack down 
or I am going to start looking for other sports where maybe I 
can find more nourishing entertainment or I am going to go 
start watching college sports and the like. I think ultimately 
that is what is going to wind up happening because that is the 
erosion that is taking place in the public consciousness. By no 
means is the worst thing that happens to these leagues that 
there are photographs of the commissioners taking an oath in 
front of Congress. The worst thing that is happening to these 
leagues is that fans are simply losing their faith that 
everything is on the up and up.
    So I think that we are perhaps providing an informative 
light on these issues. But frankly, there is no absence of that 
light coming from the media, there is no absence of reflection 
going on within these leagues, and perhaps that is the best 
place the best forum for these things to be continued in the 
future.
    I yield back the balance of my time.
    Mr. Rush. The Chair now recognizes the gentleman from 
Nebraska, Mr. Terry, for 5 minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman. Thank you for holding 
this hearing and especially I appreciate the gentleman sitting 
in front of us, this first panel. Your time is important to us. 
So we appreciate that you took the time to be here.
    Listening to sports talk, I think there is two major issues 
here. According to people who call into sports talk radio 
shows, they are the sports purists, they are upset about 
steroids and human growth hormones in the sense that they are 
cheaters. There are people who are skewing the system to 
themselves and the selfishness of it, and that perhaps those 
cheaters should not be allowed into the record books and such. 
And I think that debate is perfectly fine in that realm of 
sports talk radio or perhaps even in your own boardrooms.
    But the reason why we are here today and we have invited 
you is because there is other implications to society as a 
whole. There is health issues at stake here, as most of my 
colleagues have discussed. And that is that the steroids, human 
growth hormones, whatever is being used at the professional 
level to gain that advantage trickles down, it trickles into 
college, it trickles into high school. And we are worried about 
how widespread this may be. And we have heard various 
statistics in opening statements today. And while the 
statistics may be slightly different, what we know is real is 
that it exists in the high school level. And I think there is 
two thought processes of why it trickles down. One is just as 
the gentleman from Massachusetts said, it is just a hero 
worship. If my favorite player can do this, I would like to be 
like my favorite player. I am going to use them, too. The other 
part of it is the competition. And this was brought out by a 
gentleman from my hometown of Omaha who was a professional 
pitcher named in the Mitchell Report who said as a rookie he 
understood that if you wanted to be able to compete--this is 
him talking on Omaha Sports Talk--that he knew that he had to 
use it, that he felt that he didn't really have a choice in the 
matter. Now that is just his way of defending. But I think 
there is a lot of truth to that, that if the folks he has to 
compete with to get onto the roster are using them then you 
have got to use them. Then you look at the college ranks. Well, 
if I am going to get to the top level where I am going to be 
compared to those folks at the pro level and they are on 
steroids, then I have got to start taking them now. And it 
trickles down then into the high school levels.
    So we have to deal with both of those, hero worship and the 
very fact that if they want to compete at the highest levels, 
there is a thought process that you have to use these anabolic 
steroids or human growth or whatever is going to be next. And 
it is important to society as a whole that our professional 
sports eliminate this drug from their respective sports.
    And so I want to know what the highest level of prevention 
can be, what do the rules have to do? Do we have to go to blood 
testing, random blood testing? What does it need to do? How can 
the sports work together? Do we need to have a universal 
standard for each sport, whether it be hockey or football or 
baseball? Is it the Olympic standard? What would that be? But I 
think we need to elevate this to what is the best practice to 
eliminate any of these type of cheating drugs from our sports 
not because it gives one player the advantage over the other 
per se in a cheating manner, but how it trickles down and 
affects society as a whole.
    So I want to hear what efforts, especially baseball, since 
that has been the sports that has been picked on because there 
has been reports all the way back to John Rocker in early 2000 
that said that team physicians were advising on how to use 
this. So it looks like there has been a pattern in baseball and 
that is why they have been chosen as the poster boy. The 
reality is it affects every sport. So I want to hear from you 
and what you are going to do, and I yield back my time.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentleman from Texas, Mr. Burgess, for 5 
minutes.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Chairman Rush. I know we have got a 
lot of stuff to get through this morning so I do want to try to 
be very brief. I will thank the witnesses for giving of their 
time to be with us today. A lot of people have asked the 
question about the wisdom of holding yet another hearing. Mr. 
Chairman, I think I feel obligated to point out that if 
Congress has a role in this matter, this is the appropriate 
committee. This is the appropriate subcommittee, the 
Subcommittee on Commerce, Trade, and Consumer Protection. This 
is the appropriate place to be holding these hearings because 
we are the subcommittee with the legislative authority. We are 
the subcommittee with in fact the legislative duty to craft 
legislation, craft laws that deal with this matter. So I am 
proud of my chairman and ranking member who have chosen to 
conduct this hearing. And I am also proud that they have 
elected to hold this focused on the future, not so much of 
revisiting what has happened in the past. But where do we go 
from here, how do we go forward?
    So thank you, Chairman Rush, and Ranking Member Whitfield, 
thank you for your commitment to integrity, not just the 
integrity of the subcommittee and the committee but the 
integrity of competition in the broader scale.
    We do need to focus on the future because after all, in my 
opinion, where we really should be concentrating is on what is 
happening to our children who aspire to be student athletes and 
go on to a career, a career in athleticism. And it is after all 
in our young people where the particularly pernicious practice 
of using performance-enhancing drugs, that is really where it 
takes center stage.
    My whole State of Texas--and everyone knows Texas. We love 
our high school football in Texas. Don't ever do a political 
event on a Friday night because you are going to get in 
trouble. But my home State of Texas took a very tough stance on 
steroid usage and enacted legislation that grants the 
university interscholastically the authority to establish rules 
and penalties for the use of performance-enhancing drugs among 
student athletes. For a State athlete in Texas to be eligible 
to participate in a university interscholastic league sporting 
event, he or she must agree first off not to use performance-
enhancing medications but also agree to be subject to random 
testing and to complete an educational and training program on 
athlete anabolic steroid use. According to the Dallas Morning 
News, this will be the largest student drug testing program in 
the Nation. And we will require that an estimated 22,000 
student athletes submit to this random testing. And certainly 
there are people who are going to question the validity, the 
constitutional validity of this. But I think the Texas 
legislature made some strong steps in the right direction, and 
I certainly applaud their commitment to the future of the 
children in Texas, and I hope that perhaps their legislation 
can be a model that is incorporated nationally.
    Again, Mr. Chairman, thank you for keeping us focused on 
the real issue of this debate, and I will yield back the 
balance of my time.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentleman from Pennsylvania, Mr. Pitts, for 5 
minutes for an opening statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman, for holding this 
hearing to examine issues relating to drugs in sports and the 
importance of upholding the integrity of hard work and 
competition. While the majority hearing is focused on the use 
of cheating and steroids in humans, I commend you for also 
examining the issue of cheating and steroid abuse in 
racehorses. We will hear about that in our second panel.
    Humans who use steroids have a choice about whether or not 
to use those substances and subsequently whether or not to 
damage their health. In horse racing, horses never have a say 
when they are injected with any type of performance-enhancing 
drug and they are helpless against the abuse. Unfortunately, 
horses do have to suffer through the negative health effects of 
any forcible steroid injections they receive. Randy Moss, an 
ESPN horse analyst on the national thoroughbred racing blog, 
wrote on December 19, 2007, quote, thoroughbred racing should 
have reacted at the first hint of widespread steroid abuse in 
other sports. After all, the same types of anabolic steroids 
are commonly used on racehorses and some prominent trainers 
even insist the sport will suffer if steroid use is prohibited. 
The message needs to be loud and clear, horses should not be 
allowed to run with anabolic steroids in their systems. Long-
term health issues associated with steroids are even more toxic 
for racing, since horses don't have a say in what goes into 
their bodies, end quote.
    One academic expert on pharmacology indicated at the New 
Bolton Center at the University of Pennsylvania, which is in my 
congressional district, that they did spot checks of racehorses 
and discovered that 60 percent of those horses tested positive 
for steroids. Proactive protection by racing commissions and 
various horse associations against abuse of horses should help 
address this reportedly widespread problem.
    According to one report, Bennett Liebman, racing expert and 
instructor at Albany law school, believes that, quote, steroid 
use in racing is rampant and has been for years, end quote.
    It is important that the appropriate organizations examine 
the scope of steroid use and abuse of horses so the issue can 
be properly addressed. I commend the Pennsylvania Horse Racing 
Commission for their new program, which is scheduled to begin 
on April 1, 2008, to test horses for steroid use in order to 
stop this practice and provide a more level, more fair 
competition for competitors, let alone more healthy and safe 
environment for horses. And I look forward to hearing from our 
distinguished witnesses today, particularly regarding the 
positive, proactive steps their associations will be taking to 
help end the use of drugs in sports.
    As far as the racehorse industry is concerned, I hope the 
second panel will answer the question to what extent the 
Federal Government's oversight role should be in monitoring the 
abuse of horses. Athletes and racehorses deserve to be 
recognized for winning well through hard work, skill and 
determination, not through drug abuse. And I yield back.
    Mr. Rush. The Chair thanks the gentleman. This concludes 
the opening statements of the members of the subcommittee. We 
will now proceed to the opening statements of the first panel. 
But before I introduce the first panel, I would like to say a 
few words on two invited panelists who are not here this 
morning.
    First, Senator George Mitchell wanted to testify at today's 
hearing and discuss the recommendation of his report. 
Unfortunately, the Senator is receiving radiation treatment for 
cancer in New York and is unable to attend this morning's 
proceedings. Fortunately, it is my understanding that Senator 
Mitchell is expected to make a full recovery and his long-term 
prognosis is quite good. I know that many people in this room 
share my deepest respect and admiration for Senator Mitchell 
and his long-term work. Our thoughts and our prayers to go to 
him and we wish him and his family the best in his recovery.
    Senator Mitchell has submitted a written statement and I 
would like to ask for unanimous consent to have his statement 
entered into the record. Without objection, so ordered.
    [The prepared statement of Mr. Mitchell follows:]

                  Statement of Hon. George J. Mitchell

    Mr. Chairman, Congressman Whitfield, Members of the 
Subcommittee, thank you for inviting me to appear before you 
this morning.
    In March 2006 I was asked by the Commissioner of Baseball 
to conduct an Independent Investigation into the Illegal Use of 
Steroids and Other Performance Enhancing Substances in Major 
League Baseball. When he asked me to accept this 
responsibility, the Commissioner promised that I would have 
total independence and his full support. He kept that promise.
    In December I completed and made public my report. In this 
statement I will provide a brief summary of our conclusions. I 
will then focus on the report's broader findings and 
recommendations.
    The illegal use of steroids, human growth hormone, and 
other performance enhancing substances by well known athletes 
may cause serious harm to the user. In addition, their use 
encourages young people to use them. Because adolescents are 
already subject to significant hormonal changes, the abuse of 
steroids and other such substances can have more serious 
adverse effects on them than on adults. Many young Americans 
are placing themselves at serious risk. Some estimates appear 
to show a recent decline in steroid use by high school 
students. That's heartening. But the most recent range of 
estimates is from about 2 to 6 percent. Even the lower figure 
means that hundreds of thousands of high school-aged young 
people are illegally using steroids. It's important to deal 
with well known athletes who are illegal users. But it's at 
least as important, perhaps even more so, to be concerned about 
the reality that hundreds of thousands of our children are 
using these substances. Every American, not just baseball fans, 
ought to be shocked by that disturbing truth.
    During the period discussed in my report, the use of 
steroids in Major League Baseball was widespread, in violation 
of federal law and baseball policy. Club officials routinely 
discussed the possibility of substance use when evaluating 
players. The response by baseball was slow to develop and was 
initially ineffective. The Players Association had for many 
years opposed a mandatory random drug testing program, but they 
agreed to the adoption of such a program in 2002, after which 
the response gained momentum.
    Since then, the major league clubs and the Players 
Association have agreed to a number of improvements to the 
program, including stronger penalties, that have increased its 
effectiveness. The current program has been effective in that 
detectable steroid use appears to have declined. However, many 
players have shifted to human growth hormone, which is not 
detectable in any currently available urine test. The minority 
of players who used these substances were wrong. They violated 
federal law and baseball policy, and they distorted the 
fairness of competition by trying to gain an unfair advantage 
over the majority of players who followed the law and the 
rules. They - the players who follow the law and the rules - 
are faced with the painful choice of either being placed at a 
competitive disadvantage or becoming illegal users themselves. 
No one should have to make that choice.
    Obviously, the players who illegally used performance 
enhancing substances are responsible for their actions. But 
they did not act in a vacuum. Everyone involved in baseball 
over the past two decades - Commissioners, club officials, the 
Players Association, and players - shares to some extent in the 
responsibility for the steroids era. There was a collective 
failure to recognize the problem as it emerged and to deal with 
it early on. As a result, an environment developed in which 
illegal use became widespread.
    Knowledge and understanding of the past are essential if 
the problem is to be dealt with effectively in the future. But 
being chained to the past is not helpful. Baseball does not 
need and cannot afford to engage in a never-ending search for 
the name of every player who ever used performance enhancing 
substances.
    In my report I acknowledged and even emphasized the 
obvious: there is much about the illegal use of performance 
enhancing substances in baseball that I did not learn. There 
were and are other suppliers and users. And it is clear that a 
number of players have obtained these substances through so-
called rejuvenation centers, using prescriptions of doubtful 
validity. Other investigations will no doubt turn up more names 
and fill in more details, but that is unlikely to significantly 
alter the description of baseball's steroids era, as set forth 
in my report.
    The Commissioner was right to ask for this investigation 
and report. It would have been impossible to get closure on 
this issue without it, or something like it. But it is now time 
to look to the future, to get on with the important and 
difficult task that lies ahead. I urge everyone involved in 
Major League Baseball to join in a well-planned, well-executed, 
and sustained effort to bring the era of steroids and human 
growth hormone to an end and to prevent its recurrence in some 
other form in the future. That's the only way this cloud will 
be removed from the game.
    The adoption of the recommendations set forth in my report 
will be a first step in that direction, and I will now 
summarize them. While some can be and have been implemented by 
the Commissioner unilaterally, others are subject to collective 
bargaining and therefore will require the agreement of the 
Players Association. The recommendations focus on three areas.
    First, there must be an enhanced capacity to conduct 
investigations based on non-testing evidence. Some illegal 
substances are difficult or virtually impossible to detect. 
Indeed, one leading expert has argued that ``testing only 
scratches the surface.'' The ability to investigate vigorously 
allegations of violations is an essential part of any 
meaningful drug prevention program.
    The Commissioner has accepted my recommendation to create a 
Department of Investigations, led by a senior executive, to 
respond promptly and aggressively to allegations of the illegal 
use or possession of performance enhancing substances. To do 
its job effectively, this department must establish credibility 
and cooperate closely with law enforcement agencies. I 
recommended that the Commissioner strengthen pre-existing 
efforts to keep illegal substances out of major league 
clubhouses by logging and tracking packages shipped to players 
at major league ballparks, conducting background checks and 
random drug tests on clubhouse employees, and adopting policies 
to ensure that allegations of a player's possession or use of 
performance enhancing substances are reported promptly to the 
Department of Investigations.
    I also recommended that club personnel with responsibility 
affecting baseball operations be required to sign annual 
certifications that they have no unreported knowledge of any 
possible violation of Major League Baseball's Drug Prevention 
Policy.
    The Commissioner has implemented all of these 
recommendations.
    Second, improved educational programs about the dangers of 
substance use are critical to any effort to deter use. Over the 
last several years, the Commissioner's Office and the Players 
Association have made an increased effort to provide players 
and club personnel with educational materials on performance 
enhancing substances. Several suggestions for improvement in 
this effort are set forth in my report.
    Third, although it is clear that even the best drug testing 
program is, by itself, not sufficient, drug testing remains an 
important element of a comprehensive approach to combat illegal 
use. The current program was agreed to in 2006 and will remain 
in effect until 2011. Any changes to the program therefore must 
be negotiated and agreed to by the clubs and the Players 
Association. In my report, I set forth the principles that 
presently characterize a state-of-the-art drug testing program, 
and I urged the clubs and the Players Association to 
incorporate them into baseball's program when they next deal 
with this issue.
    The program should be administered by a truly independent 
authority that holds exclusive authority over its structure and 
administration. It should be transparent to the public, 
allowing for periodic audits of its operations and providing 
regular reports of aggregate data on testing and test results. 
It should include adequate year-round unannounced testing, and 
employ best practices as they develop. To ensure that the 
independent administrator can accomplish these objectives, the 
program should receive sufficient funding. And it should 
continue to respect the legitimate privacy and due process 
rights of the players.
    My report demonstrates that I'm not an apologist for either 
the Commissioner or the Players Association. But in fairness, I 
think we should recognize what they have done to address this 
problem. As noted in my report, prior to the 2002 negotiations, 
the Commissioner took several key steps to lay the foundation 
for an agreement on a mandatory random drug testing program, 
including: In early 2001, he convened a meeting of several 
respected team physicians, during which they shared their own 
experiences and concerns about the use of steroids by major 
league players. That year he unilaterally imposed a drug 
testing program for minor league players, which he could do 
because minor league players are not represented by the Players 
Association. In 2002, after detailed negotiations, the Players 
Association agreed to the Commissioner's proposal for a 
mandatory random testing program in the major leagues. To their 
credit, this was a significant step by the Players Association 
because, as I noted earlier, they had for many years opposed 
such a program.
    The drug testing programs in all sports, including the 
Olympics, have evolved over time through a process of trial and 
error, as the programs were modified to address emerging 
problems and concerns. In that respect, baseball's program has 
been like all the others. As described in my report, since 2002 
the Commissioner and the Players Association have agreed to 
several improvements in the program to deal with issues as they 
arose.
    Mr. Chairman, members of the Subcommittee, I was asked to 
conduct an inquiry and to report what I found as accurately, as 
fairly, and as thoroughly as I could. I've done so, to the best 
of my ability, and my work has been completed. Now it's up to 
the Commissioner, the clubs, and the players, to decide how 
they will proceed. Their actions over the past six years have 
demonstrated that they can address this problem through the 
collective bargaining process. I hope they will do so again.
                              ----------                              

    Mr. Rush. Second, Mr. Vince McMahon, the Chairman of the 
Board for World Wrestling Entertainment, was also invited to 
testify at today's hearing. Mr. McMahon was the only witness, 
the only one to decline our invitation, and I am extremely and 
exceptionally disappointed with his decision. I received a 
letter on January 28 from the attorney representing Mr. McMahon 
indicating that he, the lawyer, could not be in Washington on 
the hearing date. I fully understand their scheduling issues, 
and circumstances arise that make attending a congressional 
hearing in Washington, D.C. difficult. However, today's hearing 
is not a trivial matter. And all, each and every one of today's 
witnesses made the necessary accommodation to be here this 
morning. And I am going to take a moment to thank you all for 
making that very, very hard and difficult effort to be here 
this morning.
    I for one am not convinced that Mr. McMahon's reasons for 
not attending are any more compelling than are the difficulties 
and inconveniences faced by you, the other witnesses. Steroid 
abuse in professional wrestling is probably worse than in any 
professional sports or amateur sport. And while I recognize 
that professional wrestling is not actually, quote, a sport, 
end quote, it certainly requires a great deal of athletic 
talent, it is immensely popular with young people, including 
children, and many of their high profile athlete entertainers 
have fatally abused steroids and other drugs. The number of 
deaths in professional wrestling ranks is startling, to say the 
least. And the tragedy of Chris Benoit has been well 
documented.
    I want to ensure Mr. McMahon that this committee, this 
subcommittee fully intends to deal with the illegal steroid 
abuse in professional wrestling, and we hope he will be a part 
of the solution and not part of the problem. We intend to 
proceed deliberatively on this particular matter. We have 
options. Mr. McMahon should and must be willing to cooperate 
with the undertakings of this subcommittee and we expect no 
less.
    With that, I am pleased to introduce the witnesses on the 
first panel. Starting at my far right, Allan H. ``Bud'' Selig, 
who is the Commissioner of Major League Baseball; Donald Fehr, 
the Executive Director of the Major League Baseball Players 
Association; David Stern, Commissioner of the National 
Basketball Association; G. William ``Billy'' Hunter, Executive 
Director of the National Basketball Players Association; Roger 
Goodell, Commissioner of the National Football League; Gene 
Upshaw, Executive Director of the National Football League 
Players Association; Gary Bettman, the Commissioner of the 
National Hockey League; Paul Kelly, the Executive Director of 
the National Hockey League Players Association.
    We want to thank you for taking the time out again for 
being present before this subcommittee, and we will recognize 
Mr. Selig. Please limit your remarks to 5 minutes. Mr. Selig, 
you are recognized for opening statements.

 STATEMENT OF ALLAN H. ``BUD'' SELIG, COMMISSIONER, THE OFFICE 
                OF THE COMMISSIONER OF BASEBALL

    Mr. Selig. Thank you. Good morning, Chairman Rush, Ranking 
Member Whitfield, and other members of the committee. I thank 
you for the opportunity to testify this morning. As the 
Commissioner of Baseball, I have confronted many difficult 
problems. At the outset I want to acknowledge the constructive 
role that the committee, including its former chairman, 
Congressman Stearns, and Chairman Rush, has played in helping 
baseball come to grips with the magnitude of the problem of 
performance-enhancing substances.
    As I have said previously, I accept responsibility for the 
fact that baseball was slow to react to this problem. Today, 
the most important thing is that we continue to work together 
in the fight against performance-enhancing substances. When I 
became Acting Commissioner in 1992, baseball's economic system 
was so ineffective and outdated that it was undermining the 
core competitive character of our game and compromising the 
integrity of our sport. Moreover, our labor relations were so 
dysfunctional that the game had endured an unbroken string of 
work stoppages that threatened to alienate even our most loyal 
fans. We confronted these problems, and as a result, today, the 
great game of baseball is more popular than ever with fans 
across America.
    As difficult and complex as these problems were, none was 
more difficult than the issue of performance-enhancing 
substances. The use of steroids and human growth hormone is 
difficult to detect because it involves clandestine behavior by 
users and the science of cheating constantly changes. It is 
divisive because it pits players who use such substances 
against those who do not. It is corrosive to the integrity of 
our game because it creates an unfair advantage on the field, 
and it is dangerous both to the players who use these 
substances and the other people who emulate these players.
    Major League Baseball has acted aggressively to combat the 
use of performance-enhancing substances by our players. In 
1994, we made a thorough and detailed proposal to the union on 
drug testing and it was rejected. In 2001, I implemented the 
first industrywide drug testing program in our Minor League 
system where I was free to act unilaterally. I have continually 
improved that program by adding more banned substances and 
imposing tougher discipline. I have also expanded the program 
to cover players in the Dominican and Venezuelan summer 
leagues. In the initial year of the Minor League program, we 
had a positive rate of 9 percent. By 2007, that rate had 
declined to less than half of 1 percent.
    In 2002, we overcame the Players aAssociation's historic 
opposition to drug testing of any type and negotiated the 
first-ever Major League drug testing program. Since that time 
we, along with the Players Association, have taken the 
unprecedented step of twice reopening our collective bargaining 
agreement to toughen our joint policy.
    Our current policy, complete with disciplinary provisions 
of 50 games, 100 games, and life, is the strongest in 
professional sports. Senator Mitchell's recent report found 
that the program has been effective in deterring the use of 
detectable steroids. In fact, we had nearly 100 positive tests 
in the 2003 survey test and just two steroid positives in 2006 
and three in 2007. Moreover, on our own initiative, we banned 
amphetamines and other stimulants in 2006. We test for these 
stimulants on game days, both before and after the game.
    I understand that new challenges like human growth hormone 
will continue to emerge. As a result, Major League Baseball has 
been active in research and education. We have provided the 
initial funding for Dr. Don Catlin's effort to develop a urine 
test for human growth hormone, a project subsequently joined by 
the NFL. We are a founding member, along with the USOC and the 
NFL, of the Partnership for Clean Competition, an ongoing 
multisport sport research program that will also include HGH 
testing research. Major League Baseball has also funded and 
worked closely with the Partnership for a Drug-Free America and 
the Taylor Hooton Foundation on educational efforts directed at 
preventing steroid use by young people.
    Most recently, I unilaterally took the unusual but 
important step of commissioning the Mitchell investigation. I 
knew that looking into the past would be difficult and 
disturbing, but I was determined to learn the truth about what 
went wrong. I never wanted it to be said that I personally, or 
baseball as an institution, had something to hide.
    I believe that the Mitchell Report will be a roadmap for 
our future efforts to deal with performance-enhancing 
substances. I am encouraged that Senator Mitchell found our 
program to be effective in dealing with steroids and that I 
recognize that HGH remains a problem for baseball and all 
sports. To the extent that the Report is critical of baseball, 
I first accept that responsibility. Equally important, I am 
committed to adopting Senator Mitchell's recommendations and 
continuing the fight against performance-enhancing substances.
    I have already adopted all of the Mitchell recommendations 
that can be accomplished without collective bargaining. 
Baseball has created a new Department of Investigations to 
pursue non-analytical positives. Key department personnel have 
met with senior law enforcement officials to open and improve 
lines of communication. Background checks and drug testing of 
clubhouse personnel will be required in the 2008 season. Our 
policies requiring club personnel to disclose information on 
performance-enhancing drug use have been strengthened, and we 
have established a confidential hotline and Web site to 
encourage such disclosures.
    Mr. Selig. Other recommendations made by Senator Mitchell 
require bargaining with the Players Association. We have 
already reached agreement to eliminate the overnight advance 
notice of urine collections previously provided to clubs. 
Moreover, I have met personally with Don Fehr and a group of 
players about the Mitchell recommendations. My staff is 
involved in ongoing, detailed discussions. Unfortunately, we 
have not yet concluded that negotiation. Consistent with the 
Senator's report, I am committed to achieving a more 
independent, a more transparent and a more flexible program 
that will have adequate year-round, unannounced testing to 
deter the use of illegal substances.
    Mr. Rush. Please conclude.
    Mr. Selig. Okay. I am almost done.
    Moving forward, I can assure you that Major League Baseball 
will remain vigilant and proactive in dealing with the issue of 
performance-enhancing drugs. But performance-enhancing drugs 
are a societal problem. Senator Mitchell's report identified 
the difficulties inherent in any attempt, whether by baseball, 
by other professional sports or by the Olympics, to stop by 
itself the use of illegal performance-enhancing substances. We 
welcome your participation in attacking the problem at its 
source. There are a number of bills that have been introduced 
that we wholly support, including Representative Lynch's bill, 
Senator Schumer's bill, Senator Grassley's bill and Senator 
Biden's bill to crack down on the sale of controlled substances 
over the Internet.
    Thank you for providing me the opportunity to be here.
    [The prepared statement of Mr. Selig follows:]

                      Statement of Allan H. Selig

    Good morning Chairman Rush, Ranking Member Whitfield and 
other members of the Committee. Thank you for the opportunity 
to testify this morning.
    As the Commissioner of Baseball, I have confronted many 
difficult problems. When I became acting Commissioner in 1992, 
Baseball's economic system was so ineffective and outdated that 
it was undermining the core competitive character of our game 
and compromising the integrity of our sport. Moreover, our 
labor relations were so dysfunctional that the game had endured 
an unbroken string of work stoppages that threatened to 
alienate even our most loyal fans. We confronted these problems 
and, as a result, the great game of Baseball is more popular 
than ever with fans across America.
    As difficult and complex as these problems were, none was 
more difficult than the issue of performance enhancing 
substances. The use of steroids and human growth hormone is 
difficult to detect because it involves clandestine behavior by 
users and the science of cheating constantly changes; it is 
divisive because it pits players who use such substances 
against those who do not; it is corrosive to the integrity of 
our game because it creates an unfair advantage on the field; 
and it is dangerous both to the players who use these 
substances and the young people who emulate those players.
    Major League Baseball has acted aggressively to combat the 
use of performance enhancing substances by our players. In 
1994, we made a thorough and detailed proposal to the union on 
drug testing and it was rejected. In 2001, I implemented the 
first industry-wide drug testing program in our minor league 
system where I was free to act unilaterally. I have continually 
improved that program by adding more banned substances and 
imposing tougher discipline. I have also expanded the program 
to cover players in the Dominican and Venezuelan Summer 
Leagues. In the initial year of minor league testing, we had a 
positive rate of 9 percent. By 2007, that rate had declined to 
less than one half of one percent.
    In 2002, we overcame the Players Association's historic 
opposition to drug testing of any type and negotiated the 
first-ever Major League drug testing program. Since that time, 
we, along with the Players Association, have taken the 
unprecedented step of twice reopening our collective bargaining 
agreement to toughen our joint policy. Our current policy, 
complete with a disciplinary provision of 50 games, 100 games 
and life, is the strongest in professional sports. Senator 
Mitchell's recent report found that the program has been 
effective in deterring the use of detectable steroids. In fact, 
we had nearly 100 positive tests in the 2003 survey test and 
just two steroid positives in 2006 and three in 2007. Moreover, 
on our own initiative, we banned amphetamines and other 
stimulants in 2005. We test for stimulants on game days, both 
before and after the game.
    I understand that new challenges like Human Growth Hormone 
will continue to emerge. As a result, Major League Baseball has 
been active in research and education. We provided the initial 
funding for Dr. Don Catlin's effort to develop a urine test for 
Human Growth Hormone, a project subsequently joined by the NFL. 
We were a founding member, along with the USOC and the NFL, of 
the Partnership for Clean Competition, an on-going multi-sport 
research program that will also be involved with HGH-testing 
research. Major League Baseball has funded and worked closely 
with the Partnership for a Drug Free America and the Taylor 
Hooton Foundation on educational efforts directed at preventing 
steroid use by young people.
    Most recently, I unilaterally took the unusual, but 
important, step of commissioning the Mitchell Investigation. I 
knew that looking into the past would be difficult and 
disturbing, but I was determined to learn the truth about what 
went wrong. I never wanted it to be said that I personally or 
Baseball as an institution had something to hide.
    I believe that the subsequent Mitchell Report will be a 
road map for our future efforts to deal with performance 
enhancing substances. I am encouraged that Senator Mitchell 
found our program to be effective in dealing with steroids and 
I recognize that HGH remains a problem for Baseball and all 
sports. To the extent that the report is critical of Major 
League Baseball, I accept responsibility. Equally important, I 
am committed to adopting Senator Mitchell's recommendations and 
continuing the fight against performance enhancing substances.
    I have adopted all of the Mitchell recommendations that can 
be accomplished without collective bargaining. Baseball has 
created a new department of investigations to pursue ``non-
analytical positives.'' Key department personnel have met with 
senior law enforcement officials to open and improve lines of 
communication. Background checks and drug testing of Clubhouse 
personnel will be required in the 2008 season. Our policies 
requiring Club personnel to disclose information on performance 
enhancing drug use have been strengthened and we have 
established a confidential hot line and web site to encourage 
such disclosures.
    Other recommendations made by Senator Mitchell require 
bargaining with the Players Association. We have already 
reached agreement to eliminate the overnight advance notice of 
urine collections previously provided to Clubs. Moreover, I 
have met personally with Don Fehr and with a group of players 
about the Mitchell recommendations. My staff is involved in on-
going, detailed discussions. Unfortunately, we have not yet 
concluded that negotiation. Consistent with the Senator's 
report, I am committed to achieving a more independent, a more 
transparent and a more flexible program that will have adequate 
year-round, unannounced testing to deter the use of illegal 
substances.
    Moving forward, I can assure you that Major League Baseball 
will remain vigilant and proactive in dealing with the issue of 
performance enhancing drugs. But performance enhancing drugs 
are a societal problem. Senator Mitchell's report identified 
the difficulties inherent in any attempt, whether by Baseball, 
by other professional sports, or by the Olympics, to stop by 
itself the use of illegal performance enhancing substances. We 
welcome your participation in attacking the problem at its 
source. There are a number of bills that have been introduced 
that we wholly support, including Representative Lynch's bill 
(HR 4911) and Senator Schumer's bill (Senate Bill 877) to make 
HGH a Schedule III Controlled Substance, Senator Grassley's 
bill (Senate Bill 2470) to prohibit the sale of DHEA to minors, 
and Senator Biden's bill (Senate Bill 2237) to crackdown on the 
sale of controlled substances over the Internet.
    Thank you for providing me the opportunity to be here.
                              ----------                              

    Mr. Rush. Mr. Fehr, please be reminded--and the other 
witnesses--that your statements have been read and are a part 
of the record. Please summarize your statements in 5 minutes, 
if you will.

  STATEMENT OF DONALD FEHR, EXECUTIVE DIRECTOR, MAJOR LEAGUE 
                  BASEBALL PLAYERS ASSOCIATION

    Mr. Fehr. Thank you, Mr. Chairman, Mr. Ranking Member and 
other members of the subcommittee.
    As you know, I serve as the Executive Director of the Major 
League Baseball Players Association, and I appreciate the 
opportunity to be here this morning.
    As I previously testified, playing Major League Baseball 
requires talent, drive, intelligence, and determination. 
Unlawful performance-enhancing substances have no place in the 
game. We can't change the past. We can learn from it.
    As I testified a month ago--or a little more than that--
before Government Oversight, the problem was larger than we 
realized and certainly than I did. And to the extent 
responsibility should be taken we do, and in particular I do. 
But, as I think the Mitchell Report demonstrated, since we 
began with our first agreement in 2002, we have worked 
vigorously to rid the game of these substances and have made I 
think very great progress. I reaffirm our commitment to 
continue that effort.
    Today, we have a program which we believe is both effective 
and fair. It was widely praised by Members of Congress in both 
Houses when it was implemented in 2005. It is independently 
administered, state of the art, random unannounced testing year 
round, tests mostly on game days, uses appropriate WADA-
certified labs, has stiff penalties, and it has been subject to 
regular discussion and improvement.
    Human growth hormone is a difficult and perhaps unique 
challenge. That is because there are no commercially available 
blood or urine tests which can yet be used. That was the case 
when I testified before this subcommittee 3 years ago. It 
remains the case today.
    So what have we done? We banned HGH. We agreed to test for 
it as soon as a scientifically valid urine test exists. We have 
agreed to procedures which allow players to be suspended for 
evidence other than a positive test for HGH use, and they have 
been. And should a scientifically valid, accurate, commercially 
available blood test be available to us, we will consider it in 
good faith. But, as Senator Mitchell noted, even the blood 
tests now under consideration may be of limited practical 
utility.
    I therefore have a specific suggestion. That would be that 
perhaps the Congress could consider requiring that in 
prescription HGH some sort of a chemical marker be added to the 
drug so that it would be detectable in urine tests.
    We can't do this alone. As has been reflected in some of 
the opening statements, this is a problem much broader than 
professional sports. When we went on Google yesterday and typed 
in ``where can I buy HGH'', we got two million options in less 
than a quarter of a second. Ads for HGH, or what is reputed to 
be HGH, are available nationwide.
    I agree that the bills introduced by Representative Lynch, 
Senator Schumer, Senator Grassley and others may help. But the 
Congress we think can do more. Consideration could be given to 
taking action against the unlawful online sales and marketing 
of HGH and in particular to examining why so much of this 
product seems to be so freely available. And, as I have 
previously suggested, perhapves the Congress should do an 
examination as to whether the Dietary Supplement, Health and 
Education Act is being adequately enforced.
    Senator Mitchell was hired to do a report. He did his job 
well. We represented our members well, as we are required to do 
by Federal law in that process. We don't apologize for that.
    But I would just ask everyone to remember that what Senator 
Mitchell found was very specific, that after the current 
program was implemented we are detecting the steroids capable 
of being detected. As the Commissioner testified, in more than 
6,000 tests over the last two seasons we had only five steroid 
positives.
    Now we have been asked once again to reopen our collective 
bargaining agreement. No union and no management lightly takes 
the suggestion that it ought to be reopened. The contract is 
the lifeblood of every union. However, you have my commitment, 
as I testified a month ago, that we will discuss all of Senator 
Mitchell's recommendations.
    And those discussions are in progress. I will begin meeting 
with players on individual teams tomorrow in spring training, 
which was impossible to do over the winter, to discuss these 
various issues, among other things.
    There are some things that we want to talk about, too, in 
those discussions. Among those would be that allegations 
against players ought not to be publicly aired until there is 
an opportunity for some due process procedure by which they can 
be tested. But the players will engage in these discussions in 
good faith.
    Last, as the Congress has repeatedly noted over the years, 
collective bargaining is the appropriate forum in which to deal 
with matters affecting terms and conditions of employment, even 
matters as sensitive and controversial as suspicionless drug 
testing. We believe that the evidence reflects that we can deal 
with the problem when the technology is available, and we 
believe that's where it should remain.
    Thank you.
    Mr. Rush. I want to thank you.
    [The prepared statement of Mr. Fehr follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Rush. The next witness is Mr. Stern, Mr. David Stern, 
the Commissioner of the National Basketball Association.

  STATEMENT OF DAVID STERN, COMMISSIONER, NATIONAL BASKETBALL 
                          ASSOCIATION

    Mr. Stern. Chairman Rush, Congressman Whitfield, and 
members of the subcommittee, I, on behalf of the National 
Basketball Association, agree with the sentiment underlying the 
opening statements.
    I have appeared before this committee and others on this 
subject; and what I would say is that we cannot ignore the fact 
that young people, especially young athletes, look up to and 
attempt to emulate professional athletes. We cannot avoid the 
fact that illegal drugs, steroids in particular, go right to 
the heart of the integrity of our competition; and, third, 
theypose grave threats to the health of the players that ingest 
them.
    That is why, since our last appearance here in 2005, we 
have, with the cooperation of the National Basketball Players 
Association, implemented a testing program that provides for 
four random tests a year between the beginning of training camp 
and the end of the postseason. That is why we have elected to 
use an independent agency to do that and to decide when those 
tests should occur, which players should be tested. That is why 
we use WADA-approved drugs; and that is why, together with our 
Players Association and our teams, we work diligently on 
educational campaigns both for our players and for the youth 
that are affiliated with our League and our teams.
    As Chairman Rush pointed out, we have filed detailed 
statements that list those programs; and I will refer you to 
that if you need more information. And I thank you.
    Mr. Rush. I want to thank you, Mr. Stern.
    [The prepared statement of Mr. Stern follows:]

                      Statement of David J. Stern

    Chairman Rush, Congressman Whitfield and Members of the 
Subcommittee:
    The use by athletes of steroids and other performance-
enhancing substances is an issue implicating the fundamental 
integrity of all athletic competition. The NBA, as a result, 
has a strong and continuing interest in ensuring that these 
drugs are not used by our players and that our games are 
conducted on a fair and legitimate basis. Steroids and 
performance-enhancing drugs also pose serious risks to the 
health of our players, which provides a separate and compelling 
rationale for preventing their use in the NBA. Finally, we 
cannot ignore the fact that young people - especially young 
athletes - look up to and attempt to emulate professional 
athletes. It is therefore incumbent on the NBA and its players 
to keep performance-enhancing substances out of our game in 
order to send the message to all our young fans that these 
substances have no legitimate place in athletic competition.

                      THE NBA'S ANTI-DRUG PROGRAM

    Through the process of collective bargaining, the NBA and 
the Players Association adopted our first anti-drug program in 
1983, with a focus on drugs of abuse - in particular, cocaine 
and heroin. In 1999, the NBA and the Players Association agreed 
to include steroids and performance-enhancing substances in 
that program, and from 1999 to 2004, through agreement with the 
Players Association, we added additional performance-enhancing 
substances to our list of banned drugs and expanded our on-
going program to educate players about the dangers of these 
substances.
    I should point out that the NBA, during this time, had no 
evidence of even minimal use of steroids or performance-
enhancing drugs by NBA players. Nor are we aware of any such 
evidence today. But we believed then - and still believe today 
- that a strong and effective anti-drug policy is the best way 
to ensure that these substances never enter the culture of the 
NBA, and to demonstrate to our fans the collective commitment 
of NBA teams and players to fair and legitimate competition.
    In May of 2005, I appeared before this Committee and 
separately before the House Committee on Oversight and 
Government Reform, both of which had questions and concerns 
about performance-enhancing substances. Later that year, the 
NBA also provided information about our anti-drug program to 
the House Judiciary Committee. Not long after these events, the 
NBA and the Players Association entered into a new labor 
agreement, effective with the start of the 2005-06 NBA season, 
that included important modifications to our drug program.
    Under our current collective bargaining agreement, all NBA 
players are tested four times between October 1 and June 30 of 
each season on a random, unannounced basis. Testing is 
conducted during the pre-season, regular season, and post-
season, and players whose teams do not make the playoffs or are 
eliminated from the playoffs are subject to testing throughout 
the entire post-season.
    The penalties for violators have also been increased. A 
first-time offender of the steroids and performance-enhancing 
drugs policy is suspended from his team for 10 games; a second 
offense results in a suspension of 25 games; a third offense 
results in a suspension of one (1) year; and the fourth offense 
results in the player's dismissal and disqualification from the 
NBA. Because the average player salary is now $5.35 million, 
these suspensions have substantial financial consequences, and, 
because suspensions are publicly announced, they can also 
affect the player's off-the-court income and standing.
    The foregoing penalties, we submit, are strict enough to 
punish violators appropriately, deter the use of steroids and 
performance-enhancing drugs in the NBA, and provide fair 
opportunities for players to conform their conduct 
appropriately. Indeed, since these drugs were first added to 
our Program in 1999, we have never had a player commit a second 
violation.
    The NBA utilizes several independent entities and 
individuals to oversee and administer the Program. Dr. Stephen 
M. Taylor, who was educated at Harvard and Howard Universities 
and honed his skills as an addiction medicine specialist at New 
York University, is our Medical Director. In this capacity, Dr. 
Taylor serves as the medical review officer for all positive 
tests, confirms all positive tests, develops and implements 
treatment programs for players who need counseling or other 
medical intervention, and leads our efforts to educate players 
about the dangers of prohibited substances.
    All urine specimens collected under the Program are 
analyzed by the Doping Control Laboratory at the INRS-Institut 
Armand-Frappier in Montreal, which is one of only three WADA-
accredited laboratories in North America. The Director of the 
Laboratory, Dr. Christiane Ayotte, has been extensively 
involved with the anti-doping efforts of both the IOC and WADA 
for more than a decade, including her recent membership on 
WADA's Health, Research and Science Committee.
    The scheduling and collection of specimens is performed by 
The National Center for Drug Free Sport (DFS), an independent 
company that also performs collections for the NCAA and other 
sports organizations. The NBA and the Players Association have 
no involvement whatsoever in DFS's scheduling of random drug 
tests or its selection of players for testing, and are provided 
no advance notice by DFS of when teams or specific players are 
scheduled to be tested. Random tests, which involve no advance 
notice to NBA players, are conducted on both non-game days and 
game days (both at shoot-arounds and pre-game).
    The NBA also utilizes a Prohibited Substances Committee to 
review the Program's list of banned substances and address 
other anti-doping issues, such as advances in drug testing 
science and technology, on a regular basis. The Committee is 
comprised of three drug testing experts, as well as one 
representative from both the NBA and the Players Association. 
Those experts include Dr. Barry Sample, who served as the 
Director of the Anti-Doping Laboratory for the 1996 Summer 
Olympics in Atlanta, and Dr. Doug Rollins, who served as the 
Medical Director of the Doping Control Program for the 2002 
Winter Olympics in Salt Lake City.
    The NBA's list of banned substances has also been expanded 
to include more than 120 substances, including all of the 
steroids made illegal by the Anabolic Steroids Control Act of 
2004 and additional steroids, stimulants and other substances 
banned by WADA. In addition, the initial threshold for a 
possible positive testosterone result was lowered to 4:1 (from 
6:1), following a change that was made by WADA.
    Human Growth Hormone (HGH), a substance whose use seems to 
be increasing among athletes as well as among the population as 
a whole, was one of the substances added to our banned 
substances list in 2005. Since that time, the Prohibited 
Substances Committee has been monitoring the development of a 
legitimate and valid urine test for HGH. Currently, such a test 
is not available. While we understand that a blood-based HGH 
test will be available later this year in certain WADA-
accredited laboratories, our current agreement with the Players 
Association does not provide for the collection of blood 
samples from players.
    The Anti-Drug Program also includes several additional 
components that are worthy of mention here. For example, the 
Program provides for ``reasonable cause'' testing when evidence 
comes to light that a player has used or possessed a banned 
substance. This evidence is submitted to an Independent Expert, 
who determines whether there is ``reasonable cause'' for an 
authorization for testing for the player in question. If an 
authorization for testing is issued, the player is then tested 
randomly four times over the next six-week period, and these 
tests are supplemental to the requirement that the player be 
tested randomly four times each season.
    The Program also includes a mechanism to discipline players 
for so-called ``non-analytical positives'' - i.e., a finding 
that a player has used or possessed a prohibited substance that 
is not based on a positive drug testing result. Such findings 
are made by an independent arbitrator under our labor 
agreement, who is also the person who hears and resolves any 
appeals filed by players who are disciplined under the Program.
    Finally, players are automatically penalized for a criminal 
conviction involving the use or possession of a banned 
substance.

                     THE NBA'S EDUCATIONAL EFFORTS

    The NBA's Anti-Drug Program contains a substantial 
education and counseling component. A brochure describing the 
Program is distributed to each NBA player during training camp, 
and a poster-sized list of the NBA's banned substances is 
displayed in each team locker room. During the season, each NBA 
player is required to attend a ``team awareness'' meeting, at 
which the Program and substance abuse issues are addressed by 
the Medical Director and other members of the Program's 
professional staff. In addition, prior to entry into the NBA, 
rookie players must attend a week-long ``Rookie Transition 
Program,'' during which the dangers of drug and steroids use - 
among other topics - are addressed in full. And an anti-drug 
presentation is made at the NBA's Pre-Draft Camp in June of 
each year, where prospective NBA draftees are gathered.
    The NBA and the Players Association have also emphasized 
the dangers of dietary supplements, which are not currently 
subject to regulation by the federal government. A special 
notice regarding dietary supplements is distributed to players 
at the start of each season and is displayed as a poster in 
each team locker room. The warning states in part:
``Use of supplements has been associated with high blood 
pressure, heart attack, stroke, seizure, and sudden death. 
These events have occurred in young adults, including elite 
athletes, in otherwise good health. . . . Because supplements 
are not regulated, their quality and potency may vary 
significantly from product to product. In fact, supplements may 
be contaminated with ingredients not listed on the label. Some 
of these ingredients may be harmful; others may be banned by 
the NBA/NBPA Anti-Drug Program, and could lead to a positive 
drug test.''
    We recognize that one of the Committee's concerns is the 
extent to which young people, both athletes and non-athletes, 
are using steroids and other performance-enhancing substances 
today. The NBA is fully supportive of efforts to better educate 
our young fans about the dangers of these substances, as well 
as the dangers of drugs of abuse such as marijuana and cocaine. 
Indeed, the NBA, its teams, and its players have made numerous 
contributions to organizations and initiatives that counsel 
against substance abuse.
    The NBA has a long-standing relationship with the 
Partnership for Drug-Free America, and has generously supported 
their anti-drug programs throughout the years -- including 
through the regular airing of public service announcements 
involving NBA players. The NBA has also worked with the 
Partnership in developing its ``Training With Integrity'' 
materials for members of the Jr. NBA and Jr. WNBA, a nationwide 
support program for youth basketball leagues that reaches 
approximately 2 million children annually. The ``Training With 
Integrity'' materials, which discuss the dangers of both 
recreational and performance-enhancing drugs, and encourage 
good health and proper training, are distributed to 
participating children, parents, and coaches.
    Together with the National Federation of High Schools, the 
NBA, through its ``NBA Cares'' initiative, has contributed to 
the development and creation of a DVD focusing on the dangers 
of steroid abuse. This DVD has been made available to the more 
than 16,000 high schools nationwide that are Federation 
affiliates.
    NBA teams are also involved in educating the public, 
particularly young people, about the dangers of drug use. For 
example, for more than 15 years, the San Antonio Spurs have 
sponsored the Drug-Free Youth Basketball League, an eight-week 
basketball league which offers over 20,000 at-risk youth the 
opportunity to play basketball and learn the importance of team 
work, sportsmanship, and discipline in a drug-free and safe 
environment. The Spurs also run Spurs Night Hoops, a basketball 
league for teenagers, in which volunteer coaches provide 
education to the players about the dangers of, among other 
substances, performance-enhancing drugs. The Miami Heat have 
hosted the Heat Steroids Seminar for middle and high school 
students and physical education instructors from the Miami-Dade 
County public schools. Heat personnel, including players, 
participate in this seminar, which provides an anti-drug 
message and focuses on healthy training alternatives. The 
Indiana Pacers have recently developed a Be Drug Free grant 
fund that is open to all organizations whose mission is to help 
young people remain drug-free.
    Since 2005, in addition to these educational efforts, the 
NBA has become involved in other initiatives intended to 
prevent and combat the use of steroids and performance-
enhancing drugs. Last year, for example, we joined with the 
other major sports leagues in initiating a dialogue with 
several agencies of the federal government, including the Drug 
Enforcement Agency and the Department of Justice, designed to 
foster additional communication and cooperation about 
performance-enhancing drugs. Two meetings were held in 2007, 
and the parties intend to continue to work together to foster 
stronger relationships and to educate the public about the 
dangers associated with the use of these substances.
    The NBA has also joined The Partnership for Clean 
Competition, the recently-launched collaboration between the 
United States Olympic Committee and certain professional and 
amateur sports organizations, by pledging an initial 
contribution of $500,000. The collaboration's mission is to 
support independent scientific research on the scientific 
implications of sports doping and the development of the most 
effective tests to detect the use of banned substances. 
Specifically, the Partnership will fund research concerning the 
detection of HGH, the analysis and examination of genetic 
technologies in doping, and the development of tests that can 
be made available to colleges, high schools, and youth sports 
organizations on a cost-effective basis.

                   COMMENTS ON POTENTIAL LEGISLATION

    I believe that the NBA's current anti-drug program is 
strong, effective, and appropriate for our sport, and remain 
committed to ensuring that it remains state-of-the-art. I am 
confident that any necessary modifications to our program can 
be made through the collective bargaining process with the 
Players Association, as we have successfully done in the past. 
Indeed, a drug program that is the product of agreement between 
management and labor will always be superior to one that is 
imposed from the outside, as the parties to the agreement will 
be invested, as we are, in its success.
    For this reason, federal legislation in this area is not 
necessary for the NBA. Nor do I believe that a uniform, 
federally-mandated approach to drug testing for all sports 
leagues would be appropriate. For example, while we believe it 
is important to prohibit a broad list of performance-enhancing 
substances, as we do in our Program, we do not believe that the 
entire WADA list of prohibited substances is right for the NBA. 
Similarly, while stiff penalties are necessary for the 
legitimacy of any anti-drug program, we believe that the 
penalties contained in our labor contract - and not the 
excessive penalties that were previously proposed by Congress - 
are fair and appropriate for our sport. And finally, we do not 
believe that the involvement of an entity like WADA will 
improve our Program in any respect. As discussed above, the 
NBA's Program is already managed by independent entities and 
individuals with substantial expertise and integrity. Moreover, 
because the NBA and the Players Association jointly created our 
Program, NBA players have confidence in its legitimacy and 
impartiality, and that trust is critical to making the Program 
run smoothly.
    I thank the Committee for the opportunity to present the 
NBA's views on this matter.
                              ----------                              

    Mr. Rush. The next witness is Mr. Hunter, the Basketball 
Players--NBA Players Association.

 STATEMENT OF G. WILLIAM HUNTER, EXECUTIVE DIRECTOR, NATIONAL 
                 BASKETBALL PLAYERS ASSOCIATION

    Mr. Hunter. Thank you, Chairman.
    Chairman Rush, Congressman Whitfield and members of the 
committee, I am pleased to be here and to represent the 450 men 
and 200-plus women of the NBA and WNBA.
    I appreciate the subcommittee's concern about the use of 
steroids by professional athletes and others, particularly 
young adults and children. As a former State prosecutor and 
United States Attorney for the Northern District of California, 
I participated in the prosecution of many drug cases and have a 
keen sensitivity towards issues involving dug use and abuse. 
Based on my experiences in the 12 years I have served on behalf 
of NBA players, I firmly believe that the use of steroid and 
other performance-enhancing drugs is virtually nonexistent, and 
I quote, nonexistent in the NBA. Nevertheless, the players and 
I are committed to ensuring that the use of such drugs does not 
ever become an issue of concern.
    Towards that end, we have put in place a comprehensive drug 
program and policy that provides the education, testing, and 
discipline with regard to the use of steroids, performance-
enhancing drugs, and masking agents. We were glad to get out in 
front of this issue when we put the policy in place in 1999, 
long before it generated the national interest that exists 
today; and we remain content that our policy, strengthened 
significantly in 2005, following my last appearance here, sends 
an appropriate message to the world that there is no place for 
steroids in professional basketball.
    In our 2005 agreement, the players agreed to more frequent 
testing, harsher penalties for steroid use and performance-
enhancing drugs, even though the results of our testing over 
the prior 6 years did not mandate that such changes be made. I 
am pleased to report that the test results since the inception 
of our 2005 agreement confirm our belief that steroid use is 
not an issue in the NBA.
    We have succeeded for a variety of reasons. As soon as a 
player enters the League as a rookie, he is immediately taught 
about the dangers of steroid use at our week-long rookie 
transition program. When he joins his team he must attend 
mandatory meetings with trained drug counselors, which include 
retired NBA players and a well-qualified medical director as 
part of our team awareness programs. Hopefully, the players 
will become involved with the union; and, if so, will attend 
our summer and winter union meetings, during which we often 
give presentations on recent developments and further educate 
players with these issues. Finally, the medical director 
maintains a nationwide network of medical providers, at least 
one in each NBA city, who are available to assist players with 
counseling and treatment.
    Though we hope to accomplish our objectives through 
education and counseling, we have undoubtedly put in place firm 
deterrence and a comprehensive testing scheme that effectively 
end the issue. All NBA players may be tested up to four times 
per season in random, unannounced tests, selected and performed 
by an independent agency that is beyond reproach. The test 
results are analyzed by an independent lab that is also beyond 
reproach.
    In addition to the random tests, players can also be tested 
if an independent expert determines there is probable cause to 
believe the player has used prohibited substances. Our 
prohibited substance list is extremely comprehensive and 
current, including all steroids made illegal by Congress, plus 
other steroids, stimulants, and supplements banned by WADA. The 
list is updated regularly by our Prohibited Substances 
Committee, comprised of three independent experts and a 
representative from both the League and the union.
    If a player tests positive or is otherwise adjudged to have 
used a prohibited substance, he suffers significant penalties. 
The first-time offender will be suspended for 10 games, with 
penalties escalating to 25 games for a second offense, 1 year 
for a third, and finally dismissal and disqualification for a 
fourth use.
    Even a first-time offender suffers greatly. An average NBA 
player would lose a half million dollars in salary alone if 
caught just once using steroids. And perhaps more importantly, 
since the player's identity and the substance used are 
disclosed publicly, the impact on the player is devastating, 
costing millions in endorsements and other revenues.
    In sum, we believe our program strikes the appropriate 
balance with regard to issues of testing and discipline, and we 
certainly have not seen signs that a steroid issue exists in 
the NBA. Whether we attribute it to the concern with the health 
risk and side effects or the deterrent effect put in place by 
our policy or, as I believe is most prominent, the widespread 
belief among our membership that steroid use would diminish and 
not enhance their skills as a professional basketball player, 
it has become clear to me that players in the NBA simply have 
no desire to use steroids. The players know and through our 
policy have demonstrated to everyone, especially our young 
fans, that the only way to succeed as a professional basketball 
player is by cultivating and nurturing your talent, 
determination and desire, and by working harder than everyone 
else.
    I am grateful that the committee has allowed us to send 
this message through the vehicle of our collective bargaining 
policy. Thank you for this opportunity.
    Mr. Rush. The Chair thanks the witness.
    [The prepared statement of Mr. Hunter follows:]

                     Statement of G. William Hunter

    Mr. Chairman and Members of the Subcommittee:
    My name is G. William Hunter and I am the Executive 
Director of the National Basketball Players Association, the 
labor union that represents all NBA players in collective 
bargaining.
    I appreciate the Subcommittee's concern about the use of 
steroids by professional athletes and others, particularly 
young adults and children. As a former state prosecutor and 
United States Attorney, I have participated in the prosecution 
of many drug cases and have a keen sensitivity toward issues 
involving drug use and abuse. Based on my experiences in the 
nearly 12 years I have served the NBA players, I firmly believe 
that the use of steroids and other performance enhancing drugs 
is virtually non-existent in the NBA. Nonetheless, the players 
and I are committed to ensuring that the use of such drugs does 
not ever become an issue of concern.
    To that end, in our most recent collective bargaining 
agreement executed in 2005 shortly after my last appearance 
here, we greatly strengthened the testing protocol for 
steroids, masking agents and performance enhancing drugs that 
was established in our 1999 Agreement. Our Agreement today 
provides for random testing for all players of up to four (4) 
times during the NBA season. This testing protocol is a 
significant change from the prior policy, which provided for 
random testing of veteran players once during the training camp 
period.
    Additionally, all players remain subject to reasonable 
cause testing at any time. If an independent expert finds 
reasonable cause to believe that a player is using steroids the 
player may be tested up to four (4) times during the following 
six week period. The testing during this period may be 
administered at any time, without any prior notice to the 
player. All drug testing is conducted by an independent 
company, with no advance notice given to the players, and all 
specimens are analyzed by one of only three WADA-accredited 
laboratories in North America.
    Our list of banned substances is extremely comprehensive 
and current. The list includes all steroids made illegal by 
Congress plus other steroids, stimulants and supplements banned 
by WADA. The list is updated regularly by our Prohibited 
Substances Committee, comprised of three independent drug 
testing experts and a representative from both the NBPA and NBA
    While our Anti-Drug Program has always had a strong 
emphasis on education and treatment rather than punishment, 
with a standard of progressive discipline for violators, the 
Program does provide for substantial penalties, which were 
significantly increased in our current agreement, for those who 
are caught using steroids and other performance enhancing 
drugs. A first time offender is automatically suspended for ten 
(10) games and is required to enter an education, treatment and 
counseling program established by the Program's Medical 
Director. This suspension alone would cost the average NBA 
player half a million dollars in salary. For a second 
violation, the player is suspended for twenty-five (25) games 
and required to re-enter the education, treatment and 
counseling program. For a third violation, the player is 
suspended for one (1) year from the date of the offense and is 
again required to enter the education, treatment and counseling 
program. If there is a fourth violation, the player is 
immediately dismissed and disqualified from the NBA. Also, any 
player who is disciplined for conduct involving steroids, 
performance enhancing drugs or masking agents, will have his 
identity, the particular drug used, and the penalty publicly 
disclosed. Especially in the current environment, the impact of 
being identified as a steroid user could be devastating to a 
player, costing him millions in endorsements and other 
revenues, and certainly serves as a significant deterrent.
    In addition to severe penalties and increased frequency of 
testing, our Anti-Drug Program is focused on education, 
treatment and counseling. Players attend mandatory meetings 
when they first enter the league and then during each NBA 
season where the dangers of steroid and performance enhancing 
drug use are discussed with drug counselors. At our regular 
union meetings, we take the opportunity to further educate the 
players on these issues. The program's Medical Director 
supervises a national network of medical professionals, located 
in every NBA city, available to provide counseling and 
treatment to players.
    Recognizing the increased scrutiny that steroid and other 
performance enhancing drug use has received in society, and 
particularly in professional sports, we feel that we have sent 
a strong and unequivocal message to society in general and our 
young fans in particular that we do not condone, support or 
accept the use of steroids and performance enhancing drugs in 
our sport. Our willingness to significantly increase the 
frequency of testing that our players undergo, and increase the 
penalties imposed upon violators evidences the utmost concern 
that we have for this societal problem. Indeed, our players 
have been active in various events and programs run by their 
teams to help spread the word to their communities about the 
dangers of steroids.
    We continue to believe that collective bargaining is the 
most appropriate forum for the resolution of these issues and 
are confident that our program addresses in a meaningful way 
the concerns of the Committee. Congress has long given 
deference to parties operating under collective bargaining 
agreements to develop their own solutions to problems, properly 
recognizing that the parties bound by a collective bargaining 
agreement have a longstanding relationship with unique problems 
and problem solving methods that are often difficult to 
comprehend by those outside the relationship. We fully believe 
in and support the Committees' and Congress' goal of 
eliminating the use of steroids and performance enhancing drugs 
in sports, and we believe this goal is best accomplished by the 
leagues and players working together to accomplish this 
universal objective. We think that the players, supported by 
the leagues, are best able to demonstrate to everyone, 
especially our young fans, that the only way to become a 
professional athlete is by cultivating and nurturing their 
talent, determination, and desire, and by working harder than 
everyone else.
    I want to thank the Committee for the opportunity to appear 
before you today.
                              ----------                              

    Mr. Rush. The next witness is the Commissioner of the 
National Football League, Mr. Roger Goodell.

  STATEMENT OF ROGER GOODELL, COMMISSIONER, NATIONAL FOOTBALL 
                             LEAGUE

    Mr. Goodell. Chairman Rush, Ranking Member Whitfield, and 
the members of the subcommittee, my name is Roger Goodell. I am 
Commissioner of the National Football League, a position I have 
held for 18 months. I am pleased to testify today and am 
grateful to you, Mr. Chairman, for moving the date of the 
hearing so that I could be here today.
    We have just completed an outstanding 2007 season, capped 
by the New York Giants' thrilling Super Bowl win over the New 
England Patriots, a game viewed by nearly 150 million people in 
this country. The NFL's popularity did not just happen, and I 
don't take it for granted. As Commissioner, my most important 
responsibility is to safeguard the integrity of the game and 
preserve public confidence in the NFL, particularly for the 
next generation of fans. That includes having comprehensive and 
effective programs to keep our game free of steroids and other 
performance-enhancing drugs.
    For the past 15 years, Gene Upshaw and the NFLPA have been 
our partners in our fight against drugs. We believe that we 
have been leaders in this effort, and we remain fully committed 
to continuing our progress.
    Our program is founded on a number of key principles, 
including the following:
    Year-round, random, unannounced testing both in season and 
out. We conduct more than 12,000 tests each year for steroids 
and other performance-enhancing drugs.
    Two, strict liability. Players are responsible for what is 
in their bodies. The lack of intent or accidental use of a 
tainted supplement is no excuse.
    Comprehensive ban list. We prohibit nearly 90 substances, 
including steroids, hormones, masking agents and stimulants. 
The list is regularly updated; and we have often banned 
substances, such as THG, ephedra and andro before the 
government or other sports organizations.
    Administrative independence. Nobody connected with the NFL, 
any NFL club or the Players Association has any prior knowledge 
or ability to influence who is tested and when the tests are 
given or how the results are reported.
    Adherence to the highest analytical standards. All 
specimens are collected by independent, specially trained 
collectors, who follow a strict chain of custody and 
documentation guidelines, and are then analyzed using the best 
available technology at one of two U.S. labs certified by the 
World Anti-Doping Agency.
    Respect for players' rights. Our appeals system provides 
due process and confidentiality for players, while resolving 
appeals in a timely manner.
    Mandatory penalties. Any player who violates the program is 
suspended a minimum of four games, 25 percent of our regular 
season, without pay and subject to an enhanced testing, up to 
24 unannounced times per year, for the balance of his NFL 
career.
    We regularly review our program to identify ways to improve 
it; and in just the last 2 years we reduced the threshold for 
positive tests for testosterone greatly, increased our use of 
highly sensitive carbon isotope ratio testing, increased in-
season random testing by 40 percent, increased the penalty for 
repeat violators, added many new substances to our prohibited 
list, and tripled the number of times a player may be tested in 
the off-season.
    While the vast majority of the key recommendations of 
Senator Mitchell's report have long been part of our current 
program, our annual review will include exploring ways to 
incorporate additional elements of his findings into our 
program.
    In conjunction with the United States Anti-Doping Agency, 
we have created a new research and testing lab at the 
University of Utah, only the second certified testing lab in 
this country; and we have funded a wide range of research, most 
recently committing $3 million to a research consortium led by 
the U.S. Olympic Committee.
    I know the subcommittee shares our concern about human 
growth hormone, which is now widely and unlawfully available 
through a variety of sources, including Internet-based 
pharmacies and so-called anti-aging clinics. It is by no means 
restricted to athletes. To the contrary, it is used by movie 
stars, students, and many others.
    No urine test has been developed for growth hormone, 
although the NFL is supporting a variety of research to develop 
improved testing both by blood and urine. A blood test has been 
developed, but it has been used in very limited ways.
    As Senator Mitchell's report stated, the limitations of the 
current blood test are such that its, quote, practical utility, 
is doubtful. There are many reasons for this, including that 
the existing test is available only in extremely limited 
quantities, that no lab in the United States is presently 
certified to perform the test, and because the window of 
detection is quite limited. This may explain why, to my 
knowledge, no athlete has ever tested positive for growth 
hormone in the Olympics or any professional sports league. 
However, where other information has established the use of 
growth hormones, the NFL has taken action and suspended players 
and others for using this substance.
    We believe that our collective bargaining program does not 
reflect a failure to address the issue of performance-enhancing 
drugs but should instead be recognized as a comprehensive and 
effective program that has effectively detected and deterred 
use of these substances in the NFL and kept pace with new 
developments. We believe the government actions should support 
and respect collective bargaining solutions that are consistent 
with public policy and should not displace those solutions. We 
would be pleased to work with the subcommittee on ways to 
accomplish this as it continues its examination on the subject.
    Once again, thank you for allowing me to appear today; and 
I look forward to responding to your questions.
    Ms. Schakowsky [presiding.] Thank you.
    Before I call on Mr. Upshaw, let me just say that the 
reason people are cycling in and out is that there is a vote 
right now, and the chairman made a decision, rather than to 
recess, because I know all of you have valuable time, that we 
would just continue. But be sure that your testimony has been 
read, and I appreciate your continuance.
    So, Mr. Upshaw, proceed.

STATEMENT OF GENE UPSHAW, EXECUTIVE DIRECTOR, NATIONAL FOOTBALL 
                   LEAGUE PLAYERS ASSOCIATION

    Mr. Upshaw. Thank you, Madam Chair.
    My name is Gene Upshaw. I am the Executive Director of the 
National Football League Players Association, and we are a 
labor union that represents all NFL players in collective 
bargaining. The issues before this subcommittee are very 
important to us, and we are glad that you are holding these 
hearings.
    When Commissioner Tagliabue and I appeared before the 
subcommittee in the last Congress, our testimony reflected a 
joint commitment to keep steroids and performance-enhancing 
substances out of football and all sports. Today, Roger 
Goodell, the new Commissioner, and I share the same commitment, 
and our joint statement reflects that.
    The Commissioner touched on a lot of issues, but I want to 
just sum up just a few that I think are important.
    Our commitment comes from a number of concerns. First, the 
use of substances that threaten the fairness of the game and 
the integrity of the game is very important. That is why we 
have taken the position that we have taken, and we started that 
in 1987. Second, we have a responsibility to protect our 
players from the adverse health effects of performance-
enhancing drugs and steroids. Third, we are serious about our 
role as role models, and we understand that educating the youth 
is very important to all of us.
    The key provisions of our program, the annual tests for all 
players, plus unannounced tests, we test 10 players per team 
per week during the season. Players have to take or are 
eligible to take at least six random tests during the off-
season. So we have both in-season testing and out-of-season 
testing.
    We have a comprehensive list of banned substances, and our 
League and the Players Association meet on a quarterly basis to 
consider and update any changes that we might have or should 
discuss in the operation of our program. We are now in the 
process of rewriting the new policy for 2008. We will provide 
that revision to the committee when it is completed.
    As far as penalties, we have penalties of a four-game 
suspension for the first offense, an eight-game suspension for 
the second offense, and up to a year for a third offense. And 
you also are not cleared--you have to be cleared to come back 
medically, and you have to remain drug free to return.
    As an added provision, you are not eligible to be paid any 
bonus payments that you might have earned while you were on 
performance-enhancing drugs. You are not eligible for the Pro 
Bowl. You are not eligible for any NFL or NFLPA awards.
    We have a strict liability for players. There is no excuse 
for any player that says he was not aware of a banned substance 
in what he was taking. That is his responsibility. He is 
responsible for what goes into his body.
    We have education of both our players and our teams through 
programs, literature. We have a toll-free hotline. We have 
mandatory meetings.
    With respect to human growth hormones, we know that there 
is no reliable urine test available, but the NFL is financially 
supporting research in trying to develop such a test. As we go 
forward, we will continue to be vigilant and support research. 
And the NFL spends a tremendous amount of money each year on 
the research and development of new tests.
    We are proud of our programs and what it has accomplished. 
Is it perfect? Does it catch everyone? No. But the players 
overwhelmingly support the program, recognize its value, and 
believe it applies to all players, fair and evenhanded.
    In that respect, our drug testing program has not been 
imposed on us. It is something that we decided we needed to do, 
as I said, back as early as 1987. The players and teams 
recognized the problem, and reached a consensus that certain 
substances had to be out of the game.
    I believe that the true test of what and how the players 
support our program is that to date there has never been one 
player to defend or come to the defense of any player that has 
tested positive for the use of banned substances. There is no 
room for cheaters in the game, and our players have continually 
supported that, and we will continue to monitor and improve our 
program as we go forward.
    I don't believe that Federal legislation is needed. We are 
trying to address this issue and have addressed this issue 
through collective bargaining. We will continue to do that. And 
I think that we have made a strong statement in the past and 
will continue to do that in the future, because we really 
believe that there is no room for cheaters in the National 
Football League or in any sport, and we all ought to address 
that in our own forums.
    I thank you for this opportunity to appear, and I will 
welcome your questions at the end. Thank you.
    Ms. Schakowsky. Thank you, Mr. Upshaw.
    [The prepared statement of Messrs. Goodell and Upshaw 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Schakowsky. Gary Bettman.

STATEMENT OF GARY BETTMAN, COMMISSIONER, NATIONAL HOCKEY LEAGUE

    Mr. Bettman. Madam Chair, members of the subcommittee, 
thank you for inviting us here today.
    The prevention and detection of the use of performance-
enhancing drugs is a matter that the National Hockey League and 
the National Hockey League Players Association take quite 
seriously. Indeed, while our historical experience indicates 
that performance-enhancing drugs are not a problem in the NHL, 
we nevertheless believe that the public at large and our fans 
in particular are entitled to have confidence that our games 
are being played in an environment free of performance-
enhancing substances.
    Accordingly, the NHL and the NHLPA implemented a modernized 
drug testing and performance-enhancing substances control 
policy that is specifically directed to prevent the use of 
performance-enhancing drugs in our game. Consistent with the 
principles attributed to any comprehensive policy against 
doping, our program places significant emphasis on education 
and awareness regarding the use of performance-enhancing 
substances.
    Since the inception of the program, the NHL and the NHLPA 
have monitored the operation of the program and have, when 
appropriate, modified it from time to time to ensure that it is 
functioning effectively in discouraging and eliminating the 
use, however negligible, of performance-enhancing substances in 
our sport.
    Key features of our program include that the program is 
managed by an independent third-party administrator that is 
responsible for sample collection, and determining when the 
random no-notice testing will occur. Samples are independently 
analyzed by a WADA-certified laboratory. An independent third-
party administrator coordinates with the laboratory to create 
reports of test results. NHL players are subject to testing for 
performance-enhancing drugs designated on the WADA out-of-
competition panel. And, on a random basis, players are subject 
to up to three no-notice tests each season.
    Positive tests for performance-enhancing substances result 
in mandatory discipline, from a suspension of 20 games without 
pay for a first offense to permanent suspension without pay, 
obviously, for a third offense.
    As part of the mandatory educational component, in addition 
to the players receiving education, education and training are 
also provided to the club athletic trainers and club 
physicians. The educational provisions reflect the 
comprehensive nature of the program and the belief that 
education regarding the dangers of any illegal substances is 
perhaps the most effective tool in preventing their use and 
abuse.
    The NHL and the NHLPA strongly believe that our collective 
knowledge regarding our sport has enabled us to develop an 
effective and meaningful program. Indeed, since its inception 
in 2005, two significant modifications have been made to the 
program. First, the program initially provided for two tests 
per season. That limitation was modified to provide on a random 
basis that teams can be tested up to three times per season. 
And, second, the program was modified to create a mechanism 
that allows for education and subsequent testing of players who 
were added to a roster after training camp, when the preseason 
education has been provided to clubs.
    As a historical matter, the many years of NHL players being 
tested in international competition, as well as the recent 
testing under our program, evidences that performance-enhancing 
drugs have never been part of the culture of the NHL and that 
instances of use by our players have been extremely rare. This 
is not surprising when one considers that the alleged benefits 
of steroid use, significant large-muscle development, are not 
consistent with playing hockey at the highest level of the 
sport; and the resulting bulkiness attributable to steroid use 
simply is not a desired characteristic of skilled NHL players.
    Over the past 12 years, nearly a thousand NHL players have 
participated in international competitions, including world 
championships and the Olympics, and they were subject to drug 
testing under the standards of WADA. Over this time, we are 
aware of only two players who were disciplined for taking a 
prohibited substance and were suspended from international 
competition; and, of the two, one tested positive for Propecia.
    The testing results in the first two years of our program 
confirmed that there is not a practice of NHL players using 
performance-enhancing drugs, as only one player has tested 
positive in the past two-and-a-half seasons.
    The NHL also recognizes its obligation to educate the 
public and our young fans in particular regarding the dangers 
of taking performance-enhancing substances. To this end, we 
have worked with the National Federation of State High School 
Associations to create a video that is being used to educate 
high school coaches, student athletes, and their parents about 
the dangers of performance-enhancing substances; and we will 
continue our efforts in this regard.
    The NHL also recognizes its role and responsibility in 
helping to promote research on performance-enhancing drugs, 
including the ability to detect drugs that currently are not 
detectable, such as HGH. The NHL has joined with the USOC and 
the others here today in the Partnership for Clean Competition, 
as has already been discussed. To the extent feasible and 
practical, we believe that it is important to have an HGH 
testing protocol that is meaningful and effective.
    The NHL appreciates being provided an opportunity to 
express our views regarding these issues, and we will be happy 
to take your questions. Thank you.
    Ms. Schakowsky. Thank you, Mr. Bettman.
    [The prepared statement of Mr. Bettman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Schakowsky. Paul Kelly.

 STATEMENT OF PAUL KELLY, EXECUTIVE DIRECTOR, NATIONAL HOCKEY 
                   LEAGUE PLAYERS ASSOCIATION

    Mr. Kelly. Madam Chair, Congressman Whitfield, members of 
the subcommittee, my name is Paul Kelly; and I serve the as the 
Executive Director of the National Hockey League Players 
Association. I would like to thank you for this opportunity to 
speak on behalf of the players with regard to the important 
issue of performance-enhancing substances in sports.
    Having served for 10 years as a Federal prosecutor, 
including one term as the chief of the New England Organized 
Crime Drug Enforcement Task Force, I am no stranger to the 
hazards and risks associated with drugs; and I want to clearly 
and emphatically state that the NHL Players Association 
strongly opposes the use of performance-enhancing substances by 
anyone in our sport. This issue affects the competitive 
integrity of our sport, the personal health of our players, and 
indeed the health of millions of young hockey fans across the 
world that look up to our players as role models. The stakes 
are high, and we are fully committed to seeing that drugs have 
no place in hockey.
    Fortunately, hockey players have historically steered clear 
of performance-enhancing substances. This was, first and 
foremost, a credit to our players, but it is also a simple 
reflection of the nature of our sport. Anabolic steroids, human 
growth hormone and other muscle-enhancing substances do little 
to augment the performance of our athletes, whose success 
depends primarily on hand-eye coordination, speed, agility, 
endurance, communication, and, most of all, teamwork.
    Of course, the fact that we have virtually no history of 
performance-enhancing substance abuse does not free us of the 
responsibility to keep drugs out of hockey; and we are fully 
aware that performance-enhancing substances have been used by 
some not just to build muscle mass but also as a means to speed 
recovery from injury and/or muscle fatigue. It is with that in 
mind that the NHLPA and the NHL implemented a League-wide drug 
policy that not only tests the players but educates them as 
well. Because the results we have seen have been so 
encouraging, I would like to an opportunity very briefly to 
share the history and details of our policy.
    In 1996, as part of the previous collective bargaining 
agreement, the NHLPA and the NHL jointly implemented the 
Substance Abuse and Behavioral Health Program. This wide-
ranging program was designed to identify and address potential 
substance abuse issues among NHL players in a confidential, 
fair, and effective manner. We accomplished this by 
incorporating education and counseling, inpatient and 
outpatient treatment and testing, follow-up care, and, where 
appropriate, punitive sanctions, up to and including permanent 
suspension from play.
    Moreover, NHL players' long history of participation in 
international hockey competitions and the accompanying track 
record that players have accumulated with respect to drug 
testing performed at such competitions provide empirical 
evidence showing that performance-enhancing substances are not, 
to date, a prevailing issue in our sport.
    Over the past 12 years, nearly a thousand NHL players have 
participated in IIHF World Championships, the World Cup of 
Hockey and the 1998, 2002 and 2006 Winter Olympics, all of 
which used testing procedures and banned substance lists 
consistent with the World Anti-Doping Agency code. Over this 
entire time span, we are aware of only a handful of positive 
tests for performance-enhancing drugs; and in more than half of 
those cases there were extenuating circumstances that accounted 
for the player having tested positive.
    In sum, our program doctors, who have had intimate access 
and involvement with our players, for more than 10 years of 
drug testing performed in conjunction with international hockey 
competitions have encountered no steroid or performance-
enhancing substance abuse problem in our sport. Nevertheless, 
because the issue of performance-enhancing substances has 
gained prominence over the years and in an abundance of caution 
with regard to potential problems that might develop in our 
sport, we decided with the NHL to update our testing and 
disciplinary procedures during the last round of collective 
bargaining.
    As Commissioner Bettman has just described, in July of 
2005, the NHL and the NHLPA implemented a comprehensive drug 
testing and control policy that is specifically aimed at 
discouraging the use of performance-enhancing substances in 
hockey.
    In order to keep my testimony from running beyond the 
limits, I will refrain from providing a detailed description of 
the program or its key features, which Commissioner Bettman has 
just touched on. However, I would like to take just a brief 
opportunity to share with you the encouraging results that we 
have seen over the past 3 years of this program's existence.
    The results we have seen have been as follows: During the 
2005-2006 and 2006-2007 and the first half of the current 
season, 3,570 no-notice drug tests have been conducted on NHL 
players. Of that number, only one player was determined to have 
violated the terms of our program. That player was suspended 
for 20 games without pay. And, since then, no players have 
tested positive.
    These numbers offer compelling evidence that our program is 
comprehensive and thorough; and, even more than that, the 
numbers show that our program is working.
    As I mentioned before, this track record is a reflection of 
our players' integrity, hard work and dedication. It also 
speaks to our continuous joint efforts with the League to make 
sure that players, trainers and other staff members are 
educated about the dangers associated with performance-
enhancing drugs. We are committed to continuing to work with 
the NHL to fulfill this mission and to review and consider 
modifications and improvements to our existing testing program.
    Again, I want to be clear that we recognize that drugs in 
sports is a crucial issue to players and fans in all sports and 
at all levels and ages; and I greatly appreciate you inviting 
the NHL Players Association to be involved in this national 
dialogue on this important issue. Thank you again for inviting 
me to participate in today's hearing.
    Mr. Rush. [Presiding.] The Chair thanks the witness.
    [The prepared statement of Mr. Kelly follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Rush. The Chair now recognizes the ranking member of 
the subcommittee, Mr. Whitfield, for the purpose of introducing 
some documents into the record.
    Mr. Whitfield. Mr. Chairman, thank you very much.
    I just wanted to ask unanimous consent that we enter into 
the record a number--a multitude of e-mails that I received 
from owners and breeders of horse racing around the country, 
asking for Federal action to ban steroids in racing. I ask 
unanimous consent.
    Mr. Rush. Without objection, so approved.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Rush. The Chair recognizes himself for 5 minutes of 
questioning of this first panel.
    Let me just indicate that we have 5 minutes, and so I am 
going to go down the line and I am just going to ask questions 
and ask that you give me a yes or no answer. So, to the best of 
your ability, please just answer with a yes or no response.
    Starting with Mr. Selig, Mr. Selig, do you support Federal 
legislation that would promulgate rules and regulations 
requiring professional and amateur sports associations to adopt 
the Mitchell Report recommendations?
    Mr. Selig. I can only speak for my own sport, and the 
answer is yes.
    Mr. Rush. Mr. Fehr?
    Mr. Fehr. We believe the matter ought to be handled in 
collective bargaining. I am not in a position to respond for 
any other sport.
    Mr. Rush. Okay. For your own individual sport.
    Mr. Stern?
    Mr. Stern. We believe the matter should be handled by 
collective bargaining between the players and the association.
    Mr. Rush. Mr. Hunter?
    Mr. Hunter. I adopt Mr. Stern's comment.
    Mr. Rush. Mr. Goodell?
    Mr. Goodell. Yes, we do. We believe, as I stated in my 
testimony, that we are doing the vast majority of the 
recommendations the Senator made.
    Mr. Rush. Mr. Upshaw?
    Mr. Upshaw. I agree to the extent that it should be through 
collective bargaining.
    Mr. Rush. Mr. Bettman?
    Mr. Bettman. I believe this should be a matter of 
collective bargaining, especially because the Mitchell Report 
was focused on one particular sport and did not have the 
benefit of looking at the practice and history of the other 
sports.
    Mr. Rush. Mr. Kelly?
    Mr. Kelly. No.
    Mr. Rush. Mr. Kelly, I will start with you. If you don't 
believe in mandatory legislation, do you believe that all of 
the recommendations of the Mitchell Report should otherwise be 
adopted by your Leagues?
    Mr. Kelly. Is that a yes or a no again?
    Mr. Rush. Yes or no.
    Mr. Kelly. Qualified yes.
    Mr. Bettman. Subject to its applicability to each sport.
    Mr. Rush. Mr. Upshaw?
    Mr. Upshaw. Subject to collective bargaining.
    Mr. Rush. Mr. Goodell?
    Mr. Goodell. Mr. Chairman, again, we believe that we have 
adopted most of the vast majority of all those recommendations.
    Mr. Rush. Mr. Hunter?
    Mr. Hunter. No.
    Mr. Rush. Mr. Stern?
    Mr. Stern. No.
    Mr. Rush. Mr. Fehr?
    Mr. Fehr. Senator Mitchell recognized that even his 
recommendations, which were general in nature, would need 
bargaining to implement. We will be discussing them. I will be 
in a position to give you a very precise answer before too much 
longer.
    Mr. Selig. Certainly , through collective bargaining is the 
proper way to go, but, obviously, I have very strong feelings 
that this would be in the best interests of baseball.
    Mr. Rush. Okay. The next question for all the panelists, 
assuming that a reliable blood test can be developed for HGH 
and assuming that it can be administered without adversely 
affecting the performance of the athlete, do you support the 
policy of blood testing for HGH?
    I want to just note that Derek Jeter recently publicly 
stated his belief that players should be tested for HGH and 
that since all players get blood work every year anyway it is 
not a big deal to test for HGH.
    Mr. Selig, let's begin with you. Would you answer that 
question with either a yes or a no.
    Mr. Selig. Well, I wish I could answer it by yes or no. I 
have been on record as supporting it, but we are a ways away. I 
hope that a urine test will come first. You know, there are 
significant problems in the development of it. But let me say 
to you if at the end of this long process that's the only way 
we can deal with HGH, then the answer is yes.
    Mr. Rush. Mr. Fehr?
    Mr. Fehr. What we have indicated is, if a valid test is 
developed, we will take a hard look at it. I want to reaffirm 
that commitment today. You would need to look at the potential 
effect on performance but also on the health and sanitary 
conditions that would be necessary to surround any such test. 
They are fundamentally different in that respect to urine 
tests.
    Mr. Rush. Mr. Stern?
    Mr. Stern. No.
    Mr. Rush. Mr. Hunter?
    Mr. Hunter. No.
    Mr. Goodell. Mr. Chairman, if there is a valid test, we 
will certainly consider that. We certainly want to make sure it 
is effective, practical and safe for our players.
    Mr. Upshaw. No.
    Mr. Bettman. To the extent that there is no other 
alternative but there is a reliable blood test for HGH and 
that's the only way to detect it, then yes. Short of that, no.
    Mr. Kelly. I would agree with Mr. Bettman's statement.
    Mr. Rush. I will get this one in. Assuming the accuracy of 
the test, do you support saving urine samples in order to 
retroactively test for, quote, designer steroids, end of quote, 
that are accurately--or that are currently undetectable but may 
be detectable in the future?
    Mr. Selig. Chairman Rush, I have been told by our experts--
one of them, Dr. Green from UCLA, is sitting behind me here 
today--that this would not be possible and they don't believe 
that it would be valid.
    Mr. Fehr. My understanding is that there are significant 
scientific reliability questions that would attach to that. You 
would have to look at the system.
    Mr. Stern. No.
    Mr. Hunter. No.
    Mr. Goodell. We would also agree that the science seems to 
indicate there is a great deal of controversy in the integrity 
of those samples.
    The other practical problem we have is we conduct 12,000 
tests per year.
    Mr. Rush. Mr. Upshaw?
    Mr. Upshaw. I agree with the Commissioner.
    Mr. Bettman. No.
    Mr. Kelly. No.
    Mr. Rush. That concludes my time.
    The Chair now recognizes the ranking member for 5 minutes.
    Mr. Whitfield. Thank you, Mr. Chairman.
    I also want to thank the witnesses for being with us today. 
We genuinely appreciate your opening statements and welcome 
your experience in this very important issue.
    Mr. Selig, in the Mitchell Report, which has already been 
stated related only to baseball, he focused now on the 
independence of the testing mechanism, and he called for 
greater independence. And yet I believe that baseball feels 
like you already have an independent testing in place. Is that 
correct or not correct?
    Mr. Selig. Well, we do feel that we have it, but he makes 
recommendations that would increase its independence and its 
transparency. We are in the process of talking to the Players 
Association and collectively bargaining the remaining six or 
seven things which deal with that issue. I believe if we adopt 
all of the Senator's recommendations in that area that we 
really--that really does guarantee us an independent program; 
and I think Dr. Smith, who is our administrator, would agree 
that at that point he really does have independence. But we 
need to finish it off and adopt his recommendations.
    Mr. Whitfield. When he says ``transparency'' what is he 
actually referring to when he says it's got to be transparent?
    Mr. Selig. Well, I think the transparency of the program 
and things that go on. I think he believes that increases the 
trust--the public trust and internal trust--and I think if you 
take a look at his recommendations they do. They increase both 
the transparency and the independence.
    Mr. Whitfield. But I take it there are some issues with the 
players themselves; and so you, Mr. Fehr, are having 
discussions about that. Is that correct?
    Mr. Fehr. Senator Mitchell recognized I think pretty 
clearly in the Report that the current agreement calls for 
independent administration and that we have allowed that 
individual to act independently. We haven't rejected any of his 
recommendations. And he also said the precise form of any 
amendment would be best left to bargaining. We are in 
discussions on that. We have a proposal. We will be discussing 
it with the players, along with the other issues that are 
there.
    Mr. Whitfield. And all the test samples, my understanding 
in baseball you have two labs that you use. Is that correct?
    Mr. Selig. That's correct.
    Mr. Whitfield. And one is in Canada?
    Mr. Selig. We use the two Olympic labs, the WADA labs, one 
at UCLA and one at Montreal.
    Mr. Whitfield. Okay. That's right.
    And in the other sports do you also use only two labs or do 
you use more than two or--in hockey, Mr. Bettman?
    Mr. Bettman. We use the WADA lab in Montreal.
    Mr. Whitfield. Montreal.
    Mr. Goodell?
    Mr. Goodell. Excuse me, we use the UCLA facility and the 
Utah facility, which are both approved by WADA.
    Mr. Whitfield. And the Utah facility as well?
    Mr. Goodell. Yes.
    Mr. Stern. We use the WADA-certified laboratory in 
Montreal.
    Mr. Whitfield. So all of the sports are basically using the 
same labs, which I think probably speaks well for that.
    Mr. Selig, one other question I wanted to ask you, you 
mentioned this Partnership for Clean Competition and 
relationships with other sports on this. Would you elaborate on 
this partnership?
    Mr. Selig. The Partnership for a Drug-Free America? Is that 
what you are--
    Mr. Whitfield. My notes said Partnership for Clean 
Competition. Maybe it's--
    Mr. Selig. That is the USOC effort. I am sorry. That's the 
USOC effort with the National Football League. We certainly 
have engaged in an effort to increase not only the knowledge 
about testing, but about everything else related to performance 
enhancing substances. And so that, along with all the other 
things that we are doing, the Partnership for a Drug-Free 
America, the Hooton Foundation, which incidentally came out of 
this hearing--I remember hearing Mr. Hooton talking about what 
had happened to his son--so that's really a grassroots program. 
And then we joined with the USOC and the Partnership for Clean 
Competition. I think we are doing the things that people have 
asked us to do.
    Mr. Whitfield. Okay. Mr. Upshaw, would you mind, if I am a 
football player and I have been accused of using illegal drugs 
through testing, briefly explain the appeals process that would 
be available to me.
    Mr. Upshaw. Well, the appeals process allows a player to 
see whether test results in an ``A'' bottle is confirmed in a 
``B'' bottle. And the ``A'' bottle is the one that will reveal 
the positive test. The player has a right to come in and test 
the ``B'' bottle with his own people, someone that is not 
affiliated with our program, just to see the test is confirmed 
with the ``B'' bottle.
    Mr. Whitfield. Does he ultimately have a right to go into 
the courts?
    Mr. Upshaw. No.
    Mr. Whitfield. Does not?
    Mr. Upshaw. No.
    Mr. Whitfield. Okay. Thank you.
    Mr. Rush. The Chair now recognizes the vice chairman of the 
subcommittee, Ms. Schakowsky, for 5 minutes.
    Ms. Schakowsky. Thank you.
    I wonder if you could just each briefly tell me what you 
tell your kids or grandkids when yet another story breaks about 
another star athlete using some kind of performance-enhancing 
drug, particularly if it is in your sport. Why don't we start 
on this end this time.
    Mr. Kelly. Again, as I mentioned in my opening remarks, we 
have been fortunate in professional ice hockey not to have had 
a significant problem. Although I do have four children, and I 
guess in response to your question I would say that, you know, 
effectively what is going on there is a couple things. One, it 
is cheating. Two, it is jeopardizing the health. That person is 
jeopardizing his or her health by using those substances. And, 
three, obviously I counsel my kids to never consider not only 
performance-enhancing drugs but any type of illegal substances.
    Mr. Bettman. I have three children, and for the reasons 
that Mr. Kelly has just articulated, I have consistently told 
them that it is unacceptable.
    Mr. Upshaw. I also have three children, and they know very 
well how strongly I feel about cheaters and how we all feel 
about cheaters in the National Football League. We stress that 
there is no shortcut to victory and to success, and we carry it 
even farther. Many of our players, through their efforts try to 
educate the public that there is no room for cheaters and there 
are no shortcuts and you can't get there by using performance-
enhancing substances.
    Mr. Goodell. My comments are based on two levels. First 
off, there are very serious health consequences to take any 
performance-enhancing drugs and other drugs; and I make that 
very clear. Second would be the importance of competing within 
the rules. And if you don't do that, there are consequences for 
doing that.
    Mr. Hunter. My three children are adults. I have a 6-month-
old grandson. So maybe I will eventually get to the place where 
I have to talk to him about it.
    But our general position is that the use of steroid and 
performance-enhancing drugs are prohibited. And I don't know if 
you are aware, we have an individual, Alonzo Mourning, who had 
a kidney transplant. And several years ago, when Alonzo 
experienced his illness, he and another player, Shaquille 
O'Neill, spoke out very adamantly about the use of steroids or 
any other drugs. And, in that instance, it was a case of 
players having to use anti-inflammatory drugs--or medications, 
rather--that were prescribed by physicians. And the players 
tended to relate or associate the side effects with those 
medications. So, consequently, I think if there was a tendency 
on the part of any player in the NBA to want to use 
performance-enhancing drugs and/or steroids, that for the most 
part nullified it.
    Mr. Stern. Both of my adult sons are educated as lawyers, 
and I emphasized to them that we can't get lost in the rush 
here with respect to recognizing the rights to some intelligent 
due process for the players who are tested and that these 
samples have to be well tested. And that basically of the last 
4,000 tests that were done since our new procedures in 2005, 
there has only been one test where a player was suspended, even 
though he accidentally took a pill that was there for his wife 
in a diet supplement.
    Mr. Fehr. Ms. Schakowsky, I think either you or 
Representative Blackburn asked me this question 3 years ago; 
and I think my answer is about the same. First thing is you 
tell them the truth. Second thing is you tell them what the law 
is. The third thing is, and to me the most important advice 
that I give, is you don't take anything, lawful or unlawful, 
that is a pharmaceutical without it being done under a doctor's 
care. There are very severe health risks. And the last thing is 
that all kids today, especially in high school and college, 
just like it was when I was there 40 years ago, are subject to 
a lot of peer pressure and they are subject to an enormous 
amount of advertising and availability of product and they have 
got to be really careful and they have got to be really 
vigilant.
    Mr. Selig. I have three daughters and five granddaughters, 
so I guess the answer is simple. The health consequences are so 
devastating that they certainly are the first things that one 
should explain not only to their children and their 
grandchildren, but to people in the sport.
    Two, it clearly affects the integrity of the sport in every 
way. So the damage that performance drugs do manifests itself 
in so many different ways, and there should never be any 
misunderstanding about that.
    Ms. Schakowsky. Thank you. It just does seem as if we are 
making progress, and yet the advantages of being a star player 
it seems for some kids still is outweighing the costs to them. 
And, you know, we have to continue to look for ways to do 
better among our professional athletes who are still the role 
models for our kids. But I thank you for all those comments.
    Mr. Rush. The Chair recognizes the ranking member of the 
full committee, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Chairman Rush.
    I am reminded of the movie Casablanca, where at the end of 
the movie Humphrey Bogart is out at the airport and the German 
Gestapo officer comes and tries to arrest him, tries to stop 
the plane, and Bogart says, don't touch that phone. And, of 
course, the officer does, and so Bogart shoots him. And then 
Claude Rains arrives on the scene and looks at Bogart, and 
Bogart has got the gun in his hand and, you know, Bogart knows 
that if Rains does what he is supposed to do as the French 
Police Commissioner that he will be arrested. But Claude Rains 
says the famous line, ``Round up the usual suspects''.
    Well, we got the usual suspects here. We did this hearing 3 
years ago. Most of you gentlemen--I don't remember everybody by 
name, but most of you were here, and we on a bipartisan basis 
developed a bill that passed the subcommittee, the full 
committee, and was discharged to the floor, but it didn't get a 
vote on the floor of the House and it didn't come up in the 
Senate.
    Last time as this time, another committee held hearings 
with star players and got all the headlines, and this committee 
moved the bill that didn't become law.
    So we are in a similar situation. We have all the 
commissioners and the Players Association reps. My question, 
since most of the problem apparently--I don't want to pick on 
baseball, but it appears that you guys have got more of the 
problem. Mr. Selig do you--and Mr. Fehr on behalf of the 
Players Association--do you all support Federal legislation, a 
Federal legislative solution or do you prefer another voluntary 
testing program?
    Mr. Selig. Well, as I said in my statement, Congressman, 
there are four or five bills here that deal with the problem 
that we would not only support but support aggressively. I 
believe that our history the last 4 or 5 years has shown that 
the collective bargaining process has worked. We have come a 
long way since that hearing that we had both at the Major 
League level and at the Minor League level and with all the 
other things that we are doing. But there are four or five 
bills that I believe would be--
    Mr. Barton. But you do--the owners support a Federal 
legislative solution? Is that--
    Mr. Selig. There are four or five bills here that we would 
support, yes.
    Mr. Barton. What about you, Mr. Fehr?
    Mr. Fehr. As I indicated in my prepared testimony, a number 
of the pieces of pending legislation may well be worth 
consideration, whether it is making HGH schedule 3 or limiting 
the sale of DHEA to minors or prohibiting it to minors. I don't 
believe it is necessary for purposes of an overall program. I 
think the Mitchell Report demonstrates that, with respect to 
substances which can be detected, that we have got a handle on 
that now.
    Having said that, let me repeat something I said in my 
opening statement. HGH is a problem because for a whole host of 
reasons it can't be detected, or can't be detected easily, or 
can't be detected with testing which is available. If the 
Congress could consider requiring that some sort of chemical 
marker be added to prescription HGH, which is manufactured by 
the pharmaceutical companies, so that it would be detected in 
urine, that might well go a long way toward solving a lot of 
problems.
    Mr. Barton. Okay. Let me ask a question of the chairman, 
Mr. Rush. Is it your intent, if the hearing shows consensus, to 
move a bill?
    Mr. Rush. It is my full intentions to move a bill. A 
bipartisan bill, I might add.
    Mr. Barton. Okay. Let me ask the other Major League sports, 
are you all also supportive of a Federal piece of Federal 
legislation? Or is there anybody that's not? Anybody that's 
not?
    Mr. Upshaw, you got ready to say something.
    Mr. Upshaw. Well, I believe that this whole area should be 
dealt with in collective bargaining. That is the proper forum 
to do it. I don't see how legislation would be effective, 
because each of our sports, everything we do is all so 
different. We have handled it this way. We will continue to 
handle it this way.
    And when it comes to performance-enhancing drugs or 
substances, it is never a subject of trading one thing for 
another. It is something we want out of the game, something we 
started to get out of the game in 1987 and will continue to do 
so in the future. If there is a new substance that comes on, we 
will add it to our banned list.
    We totally agree. The players totally support the program 
that we have in place, and I would hate to see us move in a 
direction that would take that confidence out of what we are 
already doing.
    Mr. Barton. We will work with the sport. You know, we can 
fine tune the bill for each professional sport, but I would 
hope--Mr. Chairman, I am going to yield back--but I would 
hope--let's get it right this time, and let's try to get our 
friends in the Senate and the President on board so that, 
instead of just getting it through this committee, let's go 
ahead and get something into law that is acceptable. It is no 
fun having this hearing every 2 to 3 years when we have another 
scandal. So let's try to get it right.
    And I would certainly be willing to cooperate would you and 
Mr. Dingell to try to craft a piece of legislation that meets 
the standard of the interest groups and yet protects the 
integrity of the sports.
    And with that I am going to yield back.
    Mr. Stern. Mr. Chairman, I would like to add that, 
actually, based upon the statements and the testimony here, the 
sports leagues have pretty much gotten it right in the 
intervening 3 years. What we have heard described here is a 
series of random testing, WADA-approved laboratories, 
independent drug testing, and long lists of prohibited 
substances added to by independent commissions that have 
happened since the 2005 hearings, which I was privileged to 
participate in.
    Mr. Stern. So, actually, I think you have gotten it right. 
And I think also the sports leagues have gotten it right. And 
despite all of the public attention that was given to other 
committee hearings, they were dealing with facts that were 
relevant to years like 1998 to 2001. There is a very different 
story here, and so I would say that this is an area where 
Federal legislation is not necessary. And on behalf of the 
National Basketball Association, I would urge that it be 
allowed to be bargained out between committed parties, all of 
whom at this table have stressed their commitment to the 
committee to make sure that it is improved up to and including 
and asked by--to the committee of making HGH detectable in a 
urine test rather than requiring players to go through blood 
tests, needles and the things that might be of a valid concern. 
Thank you.
    Mr. Barton. We will certainly work with everybody.
    And again, thank you, gentlemen, for being here.
    Mr. Selig. Congressman, I said in my statement, there are 
four bills that--Representative Lynch's, Senator Schumer's, 
Senator Grassley's, and Senator Biden's--that deal with it. 
This is a societal problem. Those bills we would support 
because they do deal with the genesis of this problem in every 
way. But, other than that, I agree with Commissioner Stern. I 
think that the last 4 or 5 years have proved that the 
collective bargaining process has worked well and will continue 
to work well.
    Mr. Barton. Thank you, Mr. Chairman.
    Mr. Rush. Thank you.
    The Chair now recognizes the gentle lady from Tennessee, 
Mrs. Blackburn, for 5 minutes.
    Mrs.Blackburn. Thank you, Mr. Chairman.
    And again, thank you to each of you.
    Mr. Stern, I would suggest that we have not gotten it right 
enough in the past 3 years. If we had gotten it right--if you 
all had gotten it right, we would not be here again today. But 
we need to start looking at what we are going to do 
proactively. And I think that that is--we appreciate the 
strides that you have made. The setting here in this room is 
much better than it was 3 years ago. But sir, with all due 
respect, I think what we need to know is what you all are doing 
at the grassroots level. What are you doing with these new 
recruits that are coming out of college? What kind of interface 
is there? How are you going to get in front of this? You know, 
everything that we are discussing today is reactionary. And 
what we need to do is begin to turn this page and say, on a 
proactive basis, what are you all going to do? And you have the 
ability to do that. And your actions are going to speak louder 
than your words.
    And obviously you all have been very well coached. We have 
got about three rows of lawyers behind you who are here to help 
you through this process as you try to come in front of us. So 
you all have been very well coached. And I don't know if you 
have a players union for that. But anyway, we appreciate that 
you are trying to work with us through this. But you know, 
let's begin to get it--to get on the proactive end of this and 
to try to get a little bit further down the road with this and 
be aware of the message that this is sending. Congress has to 
take its time to come in and work on this. And even though 
there is legislation that you all would support, the fact that 
we are having to do this, that it has to take an act of 
Congress rather than you all policing it yourselves, so let's 
let's try to turn that around.
    Mr. Stern. With all due respect, Congresswoman Blackburn, 
if you look at the statements that have been submitted here but 
we haven't burdened the record with regurgitating them, the 
amount of grassroots opportunities that all of us participate 
in from the Partnership For a Drug-Free America to the videos 
that we distribute to the schools to the week-long coaching 
that we do to our rookies, the amount of work that is done by 
the table here, union and management alike, is very extensive. 
And it is contained in the voluminous uncoached record which 
has been prepared in 2003, in 2005, in 2008. And we would be 
happy to submit yet additional things. So I stand by my 
original statement that enormous progress has been made, 
coached in some significant part by Congressman Stearns's 
chairmanship, Congressman Rush's chairmanship and the other 
committees with which we have met. So it would take a longer 
time without coaching to go through the voluminous things that 
we do that fit exactly the strictures that you would like us to 
do. We do it. We can always do more, and I think I have heard 
commitments here that we will do more. But I am happy, as the 
senior member here in terms of length of service, to say I am 
proud to be here at the table with my uncoached colleagues who 
are dealing extensively on this subject.
    Mrs.Blackburn. Well, and we appreciate those. We hope the 
next time if we are--you all are before us again, that we are 
dealing more on the proactive end and not on what we are doing 
on the back end to clean up a problem, but what we are doing to 
prevent it from having become a problem in the first place.
    And, sir, that is the area where we need to be shifting our 
focus.
    Just a couple of questions that I want to have. I have less 
than a minute.
    And Mr. Fehr, I may submit my questions. But I did want to 
come to the Mitchell Report recommendations that you all have 
not implemented but that have to go through the negotiating, 
the collective bargaining and renegotiating process. Which 
specific recommendations are you prepared to recommend that 
your association accept?
    Mr. Fehr. Representative Blackburn, there were seven 
general categories of recommendations which Senator Mitchell 
identified as being susceptible to collective bargaining. There 
may be a couple others. They have to do with independence 
transparency; adequate year-round testing flexibility; appeal 
rights and due process for players; and to a certain extent, 
funding. We have already opened discussions on those. I will be 
discussing those with players. I won't make recommendations to 
the players until I have a specific agreement that I can say, 
this clause on this issue I am prepared to recommend or not 
recommend. Because of the off-season and the inability to 
contact players--and we do something I am sure you are very 
familiar with, we do retail politics--we have to see everybody, 
and I haven't had the opportunity to do those discussions yet. 
Down the road, I hope that those questions will not only be 
answered but answered satisfactorily and not before too long.
    Mrs.Blackburn. So you don't have any specifics at this 
point?
    Mr. Fehr. No. Not that I am prepared to talk to today.
    Mrs.Blackburn. Thank you, sir.
    Mr. Rush. The Chair now recognizes Mr. Stearns for 5 
minutes.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Bettman, when these original hearings started, I don't 
think you had a drug policy at all as I recollect. So now you 
do have one in place?
    Mr. Bettman. Well, we had a drug policy dealing with the 
substance abuse drugs, more recreational drugs.
    Mr. Stearns. Right.
    Mr. Bettman. I believe the last time we were here it was 
just during or after a lost season due to a work stoppage.
    Mr. Stearns. Right. I understand. Do you know what the 
policy is at the NFL or the NBA?
    Mr. Bettman. Sure.
    Mr. Stearns. Mr. Upshaw, do you talk to David Stern at all 
about his drug policy and what it is? I mean, do you have your 
counsel call his counsel and say, ``look, this is what we are 
doing, we are having three strikes''?
    Mr. Upshaw. Actually, I talk to Billy Hunter. I don't talk 
to David. I think I would have a more productive idea of what 
the players are doing. I know where Mr. Stern will be. So I 
interact mainly with the executive directors of the other 
unions.
    Mr. Stearns. I think what I am, as I said in my opening 
statement you know before we drop a bill, my preference would 
be to see you folks come up with a standard transparent and 
consistent policy patterned after what they do in the Olympics. 
Now the Olympics has all different kinds of athletes, so 
obviously you could make the same argument. Is there any 
objection to you folks having the same policy, which is like 
the Olympics? I mean, any one of you? Or do you feel, Mr. 
Upshaw, that yours is comparable to the Olympics?
    Mr. Upshaw. Well, we feel that our program is better than 
the Olympics in many ways. And I think we do what we feel is 
best for the players in the National Football League. That is 
why it is so difficult when you try to legislate or try to get 
conformity and everyone to agree because, as we talk about 
these issues, they are so different. Every sport is so 
different. Every season is so different.
    Mr. Stearns. But every Olympics--
    Mr. Upshaw. But they don't have a union over there either. 
So that is a big concern of mine. I think if they had a union, 
they might look a lot different. And I don't ever tell Don Fehr 
what is best for the baseball players.
    Mr. Stearns. No. I understand.
    Mr. Upshaw. And I have to trust his judgment and his 
players. What I have to do is represent the NFL players and--
    Mr. Stearns. Mr. Fehr, is there any reason why the Players 
Association couldn't accept the standards that the Olympics--
    Mr. Fehr. What we have an obligation to do is to bargain 
standards that we believe are appropriate and fit with our 
sport. I think that people will be able to make their own 
judgments as to whether it is effective.
    Mr. Stearns. I am coming to that. It is not the question I 
am asking you.
    Mr. Fehr. There are some differences, for example, which 
cause us and cause me some real problems. Where you have a 
circumstance in which, for example, the Congress of the United 
States decides that certain substances as a practical matter 
are legal and may be purchased and may be purchased by 
children, then it is hard to go back to the players and say, 
``it is legal here, but for some reason you can't do it.'' 
There are differences. That is why we--that is why our 
prohibitive substance list is pegged to U.S. law.
    Mr. Stearns. So, at this point, you could not adopt the 
Olympic standards for the Players Association?
    Mr. Fehr. Not in that regard, no.
    Mr. Stearns. Not in that regard. Okay, I guess Commissioner 
Selig, what steps have you taken to find a significant reliable 
test to screen for HGH, the human growth hormones?
    Mr. Selig. Well, I think we have done, frankly, as much as 
anybody. We started funding a program with Dr. Catlin at UCLA, 
or when he was at UCLA. The National Football League joined us 
in that. So he is very hard at work. Everybody told us he was 
the right person to go to, best in the country. So we have done 
that. And we will continue to fund that until hopefully he 
comes up with a test.
    Mr. Stearns. Mr. Stern, NBA, have you folks addressed this 
or looked at this or are concerned about the testing for HGH?
    Mr. Stern. Yes. We have made a substantial pledge to the--
what is it called? The clean competition, the committee--
together with the USOC, and I know Major League Baseball and 
the NFL. So we are actively engaged in trying to get a better 
test, a reliable test.
    Mr. Stearns. Right, because right now, none of you have a 
reliable test. That is true?
    Mr. Selig. There is no reliable test.
    Mr. Stearns. Nobody does. So if professional athletes were 
using this today, there would be no way to detect it, and most 
likely, it is probably a case where athletes are probably using 
it today.
    Mr. Goodell. Well, Congressman, let me address that, 
because we are a league that suspended four of our individuals, 
three players and one coach, for use of HGH which was detected 
through law enforcement, in fact, and our cooperation with law 
enforcement. So there are other ways of being able to detect 
it. It is certainly a big issue for us. We would support 
testing. We have done that financially along with many of the 
other sports up here.
    Mr. Stearns. Have you talked to the Olympics? I understand 
they have attempted, and they actually test athletes for HGH. 
They seem to think they have some kind of test. So the question 
is, if they are testing, why aren't the professional sports 
testing?
    Mr. Goodell. Let me try to address that.
    Mr. Stearns. Why don't you talk to the Olympics and say, 
``look, what are you doing? Let's test the way you are doing, 
at least start it.''
    Mr. Goodell. We have talked to the Olympics. In fact, we 
think, in fairness to your earlier question, we think we have 
gone beyond the Olympic standards. We test far more individual 
athletes than the Olympics do at this point in time. We have 
been doing it for over two decades. We do 12,000 tests a year, 
and I believe that we work with WADA and USADA to determine any 
new changes in technology, science that can help improve our 
program, and we have made changes along the way to improve 
that. And I think we have done that very effectively.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Rush. Mr. Selig, do you want to respond to that?
    Mr. Selig. I was just going to add to that, not only have 
we supported the work with Dr. Catlin but, with the other 
leagues, and with the USOC we are involved in the Partnership 
for Clean Competition. But the thing that I keep hearing, 
Congressman, over and over, there is a test for HGH, and they 
use it in the Olympics. That is not so. They took tests. They 
have never released the results of that test. Nobody knows 
where it is. And there is not a test today for HGH.
    Mr. Rush. The Chair now recognizes the gentleman from 
Nebraska, Mr. Terry, for 5 minutes.
    Mr. Terry. Thank you. I appreciate that, Mr. Chairman. I 
have the pleasure of representing the home of the College World 
Series, and it is going to stay that way. There is a little 
issue with that, but--
    Mr. Fehr. Mr. Brand is on the next panel.
    Mr. Terry. I have to get it in continuously. It is about 
repetition.
    Mr. Chairman, you rightfully called out Vince McMahon. You 
know, someone that flips his finger at this committee or at 
Congress deserves to be called out. On the other hand, we have 
a really esteemed panel. And in my personal opinion, Vince 
McMahon does not belong at this table with these people.
    So let's move on to the issue at hand. And I am a laissez-
faire, hands-off type of guy. That is economy, and that is 
legislation. To put my philosophical reference or beliefs and 
lay it over the issue at hand, it means that I do believe each 
sport should handle it themselves. And when you were in here 3 
years ago, you said we would do it by collective bargaining. I 
have seen progress in that. So I do appreciate that you are 
addressing it. Let me be clear though, if we can't elevate the 
level of testing and rid sports of the steroids, the 
performance-enhancing drugs, if we can't rid professional 
sports of that, then I don't think we have much of a choice but 
to come in and set the standards for you.
    So, Mr. Fehr, take that back to your players because, 
frankly, baseball has been the focus--maybe rightfully, maybe 
wrongfully. But it appears to the normal sports fan that it has 
been the baseball players that have dragged their feet and 
really created this issue. That is just a personal observation. 
I am a sports fan. I listen. And so baseball has put themselves 
in a position where they have to take more of a lead, set the 
bar much higher to try and correct the perception about 
cheaters in baseball.
    And Mr. Selig, in your statement, one quote really stood 
out to me. Marsha, my colleague from Tennessee, hit on it. But 
the quote is, ``I have adopted all of the Mitchell 
recommendations that can be accomplished without collective 
bargaining.'' Can you quickly just go through what you can do 
unilaterally and what has to be done by way of the Mitchell 
Report by collective bargaining?
    Mr. Selig. Well, what has been accomplished, Congressman, 
up to this point, and what we have done, we have established an 
independent Department of Investigations; two of our people are 
here today. We require club officials to certify that they have 
reported information of performance-enhancing substances. We 
had some experience, which was unfortunate, with packages being 
sent to the Major League clubhouses. We now conduct background 
checks on clubhouse personnel. We drug test clubhouse 
personnel. We have established a hotline for reporting 
anonymous tips, and we have clubhouse posters and a rather 
significant educational program there.
    Now, the things that we are still bargaining collectively 
go more to the independence and the transparency. And I think, 
once we do that, we have really tightened up our program. But 
we have not--those are--
    Mr. Terry. What did you say? The independence? I am sorry. 
I couldn't hear you.
    Mr. Selig. I am sorry. The other proposals deal with 
independence and transparency.
    Mr. Terry. Independence means what?
    Mr. Selig. Independence of the program, the program. The 
administrator--in other words, you would give the administrator 
full administrative authority, hired for a longer term. He can 
really be dismissed only for violation of explicit provisions 
of the drug agreement. The whole point of those Mitchell 
recommendations was to increase the level of independence. And 
I think, if we do all those things, I am very satisfied that 
any objective person will say we have really tightened the 
program. And that is what is under discussion now.
    Mr. Terry. Mr. Fehr, any resistance from the players?
    Mr. Fehr. As Senator Mitchell pointed out and as I 
indicated in the response to a question from one of your 
colleagues, Senator Mitchell's recommendations were 
extraordinarily general. You have to look at the specifics. And 
he did specifically indicate, for example, that the precise 
form of a given recommendation would have to take account of 
collective bargaining. We will be discussing all those 
recommendations. We have already begun them with the 
Commissioner's Office, discussions with the players. We can't 
really start until actually tomorrow when I can get down to 
Florida. We couldn't do it off-season because we can't find 
everybody. And in response to your prior comment, I appreciate 
it is a personal observation. But I think you can, from my 
experience, count on the fact that the players pay attention to 
these hearings.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Burgess, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. You know, it is fair. 
I agree with you; people do pay attention to the hearings. But 
a lot is written in my local press back home about--not the 
hearings in this subcommittee but the hearings in the other 
subcommittee. But, again, let me stress that this is the 
Legislative Subcommittee. This is the committee that has the 
obligation to do something if indeed something needs to be 
done. And I believe it does. And I think I have heard that 
sentiment from all along the table today--well, almost all 
along the table today. And I am appreciative of that because I 
think it is important.
    Mr. Fehr, you indicated that we have got a handle on the 
problem.
    Mr. Fehr. I am sorry. I didn't hear you.
    Mr. Burgess. You indicated in one of your answers to 
another question that we, you and the Players Union, have got a 
handle on the problem. I hope you are correct. I am not certain 
that you are. And, again, as I said in my opening statement, 
this is a hearing that really should be focused on the future, 
not what has happened in the past. There is no point in 
revisiting the stuff that has already been revisited. But I 
have an article here from the Boston Globe from February 19, so 
it is fairly current. And in this article, the estimate is that 
3 to 6 percent of students nationally have tried anabolic 
steroids. So, at a minimum, that is hundreds of thousands of 
high schoolers. So that is a big problem for us. And then they 
go on to say a recent report by the Oregon Health and Science 
University using data from the CDC said that over 5 percent of 
teenage girls admitted to using anabolic steroids, mostly for 
body-enhancing reasons or self-protection, not athletics. And 
also according to data from the Centers for Disease Control in 
2003, seventh grade girls were the fastest growing group of 
steroid users with more than 7 percent using them. So, again, 
it is a big deal. And this article is actually dealing with two 
teenagers and has significance for me because they are both 
from Texas. Dionne Roberts, who is the focus of the article, 
used anabolic steroids until it drove her to a suicide attempt. 
And just down the road at a Plano High School, a young man 
named Taylor Hooton actually did commit suicide, and his dad 
Don Hooton has been here to testify before our committee in the 
past and has been a very outspoken advocate about us doing 
something to turn the tide on this.
    From an article in the Fort Worth Star Telegram back home 
in Texas, and this is actually from today's paper, by Linda 
Campbell. The article ends up: Pressures to get bigger, faster 
and stronger to gain an edge are inherent in competitive sports 
in all levels. As long as performance enhancers are accessible 
to the pros without sufficiently serious penalties, they will 
trickle down to amateurs.
    And then, again, I reference back to this rather disturbing 
data from the CDC and Oregon Health University about the 
numbers of teenagers who are using these. So I guess what 
concerns me is that the kids see that it is okay because their 
heroes are using these compounds. It is not important for us to 
beat up on someone who may or may not have used this or may or 
may not have been truthful on a national news program. What is 
critical for us to get right is that we put the parameters in 
place so that you all have the tools you need in your self-
policing of your sports, your entertainment industry, if you 
will, and that the correct message--so we don't have the 
message trickling to our youngsters that it is okay to use 
these things, that it is a good idea to use these things. But 
the message trickles down that it is wrong; it is cheating, and 
it is dangerous to your health. Do you have any comment on 
that?
    Mr. Fehr. I sure do. And I hope you will give me a minute 
or two to respond. I said in my prepared testimony and in my 
opening remarks, that this is a society-wide problem, and I 
think you have put your finger on it, in large part, that it 
is. Forget high school male athletes. I just don't think it is 
terribly likely that teenage girls are using steroids because 
they want to turn into Major League pitchers or to linebackers. 
There has got to be something else that is going on there.
    Where you have a circumstance in which the product seems to 
be widely available, easy to find, you have massive 
advertising, you have online sales, you have pharmacies that, 
according to the press reports, dispense drugs without 
individual doctors examinations, those are the kinds of things 
that no matter what we do, that is the environment we can't 
solve.
    Now having--to turn to Major League players, I think the 
Mitchell Report makes clear that with respect to things that we 
can detect, we are now detecting them. I don't know anybody 
that thinks that a player who has been identified as having 
used a performance-enhancing substance in baseball in the last 
2 or 3 years has been subject to anything other than shame and 
ridicule. And to the extent that that is a helpful message to 
kids, that is good. We don't have any problem with that. And we 
hope they get it.
    That is not going to do it all by itself. And you picked up 
a line--and maybe they even picked it up from me--that I used 
at the January 15 Government Oversight Committee hearing, and I 
think personally--this is not a statement on behalf of the 
players; this is simply a personal opinion--that if we maintain 
a culture in which every time a potential junior high school or 
high school or potential college athlete goes in to see a coach 
complete with all the pressures for scholarships and the 
message is ``just not big enough, just not strong enough, you 
are just not fast enough'' and that message is repeated ad 
nauseam, people are going to look for ways to get bigger and 
stronger and faster. By the time they get to the pros, whatever 
message they have in that regard, they already have. So that is 
why I suggested in my testimony that we need some help from the 
Congress in a lot of these other areas. And it is going to be 
tough. You know, it has taken us 40 years to make meaningful 
impacts on discouraging tobacco use. But we have to start.
    Mr. Burgess. Yeah. And I appreciate your work in this 
regard. I do feel obligated--in case anyone is watching this 
hearing, it does go on to say in the article that this teenage 
girl developed a very deep voice, and that may not be 
reversible. So there is another thing to add to the list of 
reasons not to--
    Mr. Fehr. May I say, women are not supposed to have 
testosterone, that we know.
    Mr. Burgess. Thank you, Mr. Chair.
    Mr. Rush. The Chair now recognizes the gentleman from 
Pennsylvania for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Selig, in your opinion, does the Mitchell Report 
recommendations go far enough, or is there more that should be 
done in your opinion?
    Mr. Selig. I think they do. The Senator spent 19 months 
interviewing thousands of people. I think he really had, in the 
end, a very good handle on what happened and why it happened. I 
am really confident that if we adopt all of his 
recommendations, we will have really strengthened a program 
that is already working. Now we must remember, we were down to 
two positive tests in 2006; three in 2007. We have banned 
amphetamines in the meantime. And by the way, I want to say 
this again: No one asked us to ban amphetamines. The idea came 
to me from team doctors and trainers who urged me to do it 
because they were very concerned about the health 
ramifications. And so I think, if you take all of that, take 
all the progress we have made in the last 4 years through 
collective bargaining and other things, and then you add the 
Mitchell recommendations onto that, I think that really 
tightens our program up. And I am very confident to go ahead 
with that. And I believe, again, when you concern yourself with 
independence and transparency, I am quite satisfied that these 
are--
    Mr. Pitts. Mr. Fehr, your reaction?
    Mr. Fehr. As I think I have indicated in my previous 
testimony, we had a strong program. We have made regular 
modifications for it. We have had open discussions on the 
Mitchell recommendations, and we will see where they go. They 
all require fleshing out, in terms of an agreement. I don't 
question the motivation behind them or the ideas behind them. 
We will be discussing them with the players beginning tomorrow.
    Mr. Pitts. Would any others of the panel like to respond to 
that question? Is there more that should be done? Or does the 
Mitchell Report go far enough?
    I will yield back.
    Mr. Rush. The Chair now recognizes the gentleman from New 
York, Mr. Fossella, for 5 minutes.
    Mr. Fossella. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your patience and your efforts. I 
believe you are all awarded in good faith, so I would urge you 
to continue to do so. I don't know if you have talked about it 
earlier, but perhaps, we could shift gears a little bit and 
talk about--maybe Mr. Fehr provides the segue. By the time the 
young people become eligible to play, what is happening in high 
schools, kids that we know are taking some of these steroids 
and human growth hormones. My understanding is that the rates 
of that age group are growing higher than any other group. And 
several States have taken it upon themselves to provide for 
mandatory testing. Texas, New Jersey. Do you all have an 
opinion? State Senator Andrew Lanza of New York has introduced 
legislation modelled after that. Do you have an opinion as to 
whether there should be mandatory testing at the high school 
level? And if so, is there a way that Major League sports can 
help provide for not just education and awareness but also 
maybe support some of the financing of that testing? Gentlemen? 
Anybody? How about, if nobody answers, I would assume you all 
don't like the idea. If somebody does answer--
    Mr. Fehr. Let me--I will take a shot at it. Let me say, 
first of all, you do have, as I understand, the second panel 
representatives from high school here that may be in a position 
to respond on an informed basis to those kinds of questions. I 
am not. And I don't want to speculate about things that I am 
not knowledgeable enough on to have a considered opinion.
    Having said that, let me make a slightly different point 
that I do think is important. Whether or not you have testing 
in high schools, that testing is likely to be, if it occurs, 
for individuals involved in athletics. If the numbers are as 
Mr. Burgess suggested and as the newspaper article and the CDC 
report suggested and that use transcends athletics by large 
numbers, then I am not sure what the effectiveness of the 
testing program, if you had one limited to athletics, would be. 
And in the end, this comes down to persuasion. People have to 
be persuaded not to do it. And that is tough for teenagers.
    Mr. Selig. The only thing I would say to you is, through 
the Hooton Foundation and the Partnership For a Drug-Free 
America and other things that we are doing, we are trying, 
through the educational process, to explain to kids and help 
them understand what they are doing. We are going to do a lot 
more of that. And I think, in the end, the people, whether they 
are from New York or Missouri or anywhere else, will have to 
make their own judgment. And I think they will know all the 
facts better than we do. But as our programs work more 
effectively and we do more grassroots educational programs, I 
think that will be where we make our greatest contribution.
    Mr. Goodell. Congressman, let me respond a couple ways. 
First, I think the NFL and other Major League sports have 
already helped to some extent because I think they have proven 
that random unannounced testing is effective and a deterrent to 
using steroids. Second of all, we have all engaged in our own 
efforts to make sure that young children and kids growing up 
playing sports understand that this is not part of professional 
sports and that we don't encourage it. We discourage you from 
doing that. We spent $10 million alone, the National Football 
League, on our testing program. So we are spending a 
significant amount of resources. So I understand the challenges 
that States are going to have in putting together their own 
testing programs. It would be a significant burden to put that 
on top of professional sports in addition to that.
    Mr. Fossella. Well, while I have you, Mr. Goodell, I don't 
want the moment to pass. You have deep, and I know proud, roots 
in New York. A lot of happy Giants fans. Still some unhappy 
Jets fans. I don't want to put you on the spot. Is there 
anything you want to share--between you and me--regarding any 
efforts--still a lot of unhappy Jets fans in New York. Anything 
happening on that front with respect to the videotape of Coach 
Belichick of the Patriots? This is just between you and--
    Mr. Goodell. Just between--
    Mr. Rush. Let me remind the gentleman before you ask that 
question, that is really beyond the scope of this hearing. I 
don't want--
    Mr. Fossella. I think it is my time, Mr. Chairman. I have 
11 seconds left, Mr. Chairman.
    Mr. Rush. All right. If the gentleman really wants to 
persist with that question, you have 3 seconds to answer it.
    Mr. Fossella. Would you like to answer that, Mr. Goodell?
    Mr. Goodell. I would be happy to. I will be very brief. We 
have dealt with this very effectively in the sense that we--as 
soon as we got information, we addressed this issue with the 
team. We had a full admission from the team. We disciplined 
them in an unprecedented fashion. We disclosed it to everyone 
publicly. And I think the discipline that was taken will send a 
very clear and loud message that you are not to break the rules 
in the NFL.
    Mr. Fossella. Thank you for your honesty. Thank you.
    Mr. Rush. Let me remind the gentleman, we all have our 
problems. I wanted to ask Mr. Selig about, when are the Cubs 
going to win the World Series? But we all have our issues. 
Okay. I really want to thank the--
    Mr. Burgess. I just want to--while we have the panel here, 
the issue came up about testing for human growth hormone. Did I 
hear someone mention that there is a commercial test available 
for human growth hormone? And it is a peptide hormone. It 
almost is going to be broken down by the body. So the products 
of it are going to be amino acids, which are almost impossible 
to detect for other amino acids that appear there normally; is 
that correct?
    Mr. Fehr. I can't comment on the science with that degree 
of precision. I am certainly not competent to do that. But I 
think we have all indicated, and Mr. Goodell did in his opening 
statement with some specificity, that a commercially available 
test is not out there for us to use. Having said that, I don't 
know if you were here when I made this comment before, but I 
will take the opportunity to suggest it again: If the Congress 
could consider requiring some sort of a chemical marker in 
prescription HGH that would be detectable in urine tests, that 
would go a long way towards solving a whole lot of the problems 
in this area.
    Mr. Burgess. Some sort of isotopic labelling on the 
molecular structure--
    Mr. Fehr. I will leave it to you to put the scientific 
wording on it. That is the best I can do.
    Mr. Rush. The Chair has been very liberal with the 
gentleman--
    Mr. Burgess. The Chair is very liberal. I will agree with 
that.
    Mr. Rush--in allowing him to question beyond the time. I 
want to just thank the panel. You have indeed performed quite a 
service for this subcommittee. And I would just like to say in 
the area of--with respect to the World Wrestling Entertainment, 
you know, it seems to me that the cream has really risen to the 
top, and the other stuff has stayed down at the bottom. And I 
really want to thank you and commend you for taking the time 
out to be a part of this hearing. And as we proceed further, we 
want to get your full input. And there are some issues right 
now that remain about whether or not legislation is needed. You 
know, we will keep those questions open. But, again, I really 
want to commend you for taking the time out. Thank you so very, 
very much for your participation.
    Mr. Selig. Thank you.
    Mr. Rush. There is a vote that occurs on the floor--three 
votes that occur on the floor. We are going to recess the 
hearing for 30 to--we will reconvene at 1:00 for the second 
panel. So we will reconvene at 1:00 here in the committee room 
for the testimony from the second panel.
    [Recess from 12:23 p.m. To 1:12 p.m.]
    Mr. Rush. We want to welcome you and thank you for taking 
the time out from your very busy schedules to come to appear 
before this subcommittee. And we had pretty invigorating 
discussion with the earlier committee, and we look forward to 
even more of an invigorating discussion with the panel from the 
second committee.
    Mr. Rush. Let me introduce the panel.
    From my left, Mr. Jim Scherr is the chief executive officer 
of the United States Olympic Committee. Mr. Travis T. Tygart is 
the chief executive officer of the United States Anti-Doping 
Agency. Mr. Myles Brand is the President of the National 
Collegiate Athletic Association. Mr. Robert Kanaby is the 
executive director of the National Federation of State High 
School Associations. And Mr. Alexander M. Waldrop is the CEO of 
the National Thoroughbred Racing Association.
    We want to extend to the witnesses 5 minutes of opening 
testimony. If you have opening testimony, would you please take 
5 minutes, no more than 5 minutes in order to exchange, and to 
deliver your opening testimony.
    We will begin with you, Mr. Scherr. Welcome. And we look 
forward to your testimony.

STATEMENT OF JIM SCHERR, CHIEF EXECUTIVE OFFICER, U.S. OLYMPIC 
             COMMITTEE, COLORADO SPRINGS, COLORADO

    Mr. Scherr. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Jim Scherr. I am the chief executive 
officer of the United States Olympic Committee. And my 
experience goes beyond the management of this organization, 
which oversees all Olympic activity in the United States. I am 
also a former NCA championship wrestler. I was an Olympic 
competitor in 1988, and I have experienced the pressures and 
challenges that confront athletes on all levels, which is at 
the heart of our discussion today.
    I am pleased to have been invited here to appear before 
you, because this subject, the use of certain dangerous and 
prohibited chemical substances to improve athletic performance, 
is one about which we have considerable concern on many levels. 
But it is also an area, thanks in large part to USADA and Mr. 
Tygart on my left, that the USOC has made significant strides 
through development of an anti-doping program that has become a 
model for the world.
    Let me begin briefly by explaining who and what the USOC 
is. We are chartered by Congress through the Ted Stevens 
Olympic and Amateur Sports Act, and we have numerous 
responsibilities that impact the national interest, among the 
most obvious being the fielding of teams that compete for the 
United States in the Olympics, Paralympic and Pan American 
Games. And as we seek to fulfill that congressionally mandated 
role, we are guided by a provision of the USOC's mission 
statement that proclaims we are committed to preserving the 
Olympic ideal. The heart of the Olympic ideal is to participate 
with fair play and respect for fundamental ethical principles 
universally understood by the world. The use by any athlete in 
the Olympic movement of any banned drug to improve his or her 
athletic performance is a gross betrayal of the Olympic ideals 
and those principles on which the ideals are founded.
    In discussing what has contributed to our progress and 
success, I should note that the USOC operates in a unique 
environment. Participation in the international events we 
oversee is governed by rules and protocols that are put in 
place at the international level, which impact the dynamics 
between us and the athletes we oversee. We do, however, have 
congressionally granted control over who is named to the U.S. 
Olympic team. In order to be eligible for membership on an 
Olympic team, we require that every athlete comply totally with 
the USOC's anti-doping policies and programs which include 
unlimited and unannounced out-of-competition tests.
    I won't go into the details of the mechanics of those tests 
and the manner in which the positives are adjudicated because 
those subjects are better addressed by Travis Tygart, the CEO 
of USADA, the United States Anti-Doping Agency. However, I 
believe it is important to highlight for the subcommittee that 
USADA was created by the USOC and established by the USOC in 
2000 to function as an externalized, independent drug testing 
and adjudication entity. I will further comment about certain 
of USADA's characteristics, which I am pleased to say are 
consistent with the generally accepted best practices for anti-
doping programs and encompass those recommendations that were 
contained in the Mitchell Report.
    USADA today is jointly funded by the USOC and the Federal 
Government. It is operationally independent of the USOC and any 
of our national sports governing bodies whose athletes are 
subject to the testing. And we are pleased with the progress of 
USADA to date and the success of our stringent anti-doping 
program. But we also recognize that more must be done if we are 
to win the battle against doping in sport.
    Two areas which I would like to address briefly for those 
additional efforts which I believe would be beneficial are 
research and education. Research: Effective drug testing is 
dependent not only upon the willingness of the individual to 
submit to those examinations but also to the efficacy of a test 
to determine whether the individual's body is carrying one or 
more prohibited substances. Athletes who cheat are increasingly 
sophisticated in identifying methods of beating anti-doping 
programs. Better, more reliable tests are needed, and those 
will require considerable research. However, the resources that 
to date have been devoted to research are limited, and many 
organizations are pursuing this independently in an 
uncoordinated fragmented fashion. It was because of this that 
we proposed the Partnership For Clean Competition that was 
addressed earlier. And we thank those organizations that have 
joined us in that effort--National Football League, Major 
League Baseball--as founding partners and others on the panel 
that were participating partners. This new collaborative area 
that we are launching will invest more funds targeted more 
directly towards research. But what is accomplished will still 
be limited, and we would like to expand the resources of that 
partnership. In light of this, perhaps there is an opportunity 
for the Federal Government to consider support of these efforts 
through Federal grants and other contributions. Additionally, 
we would welcome an exploration by the government of whether 
there may be government health-related organizations that may 
be able to help with this effort.
    The last area I would like to address briefly is education. 
People, and particularly young people in this country, are 
educated by observing what happens more so than even what is 
presented in the classroom. And certain athletes as role models 
using banned substances impact their education and send a 
terrible message on many levels. And implicitly it condones 
cheating, which above all is against the Olympic principles. 
The use of banned or illegal substances to improve that 
athlete's performance simply is cheating in any terms. And 
there is no room for it in athletics in our country, the world 
or the Olympic movement or professional sports. And secondly, 
there is the perception that, aside from ethical concerns, the 
negative health consequences of using these substances are 
often overlooked by young people, if they see celebrities and 
athletes and others utilizing these substances. We would like 
to join with the leagues, with the professional sport entities, 
government agencies, such as the Office of National Drug 
Control Policy, and other private coalitions to launch more 
thorough campaigns to educate young people against the dangers 
and ethical contradictions of using banned substances to 
improve athletic performance. These efforts have been effective 
in the past, but there are still gaps. And society does not 
seem to be getting the message through in large measure. And 
with proper support, I see an opportunity for us to join these 
others.
    Let me close with this thought: We offer no opinion on the 
professional leagues and what they might do in their own 
testing programs. We believe the recommendations in the 
Mitchell Report are sound. We would consider their adoption. 
They have been sound for us. And we believe they would work 
across other sports as well. Thank you for the opportunity to 
present.
    [The prepared statement of Mr. Scherr follows:]

                        Statement of Jim Scherr

    Good morning Mr. Chairman and Members of the Subcommittee. 
My name is Jim Scherr and I am the Chief Executive Officer of 
the United States Olympic Committee. My experience goes beyond 
the management of an organization overseeing all Olympic 
activity in the United States. I am a former NCAA championship 
wrestler and an Olympic athlete, and have experienced the 
pressures and challenges that confront athletes on all levels, 
and which is at the heart of the discussion today. I am pleased 
to have been invited to appear before this subcommittee because 
the subject, the use of certain dangerous and prohibited 
chemical substances to improve athletic performance, is one 
about which the USOC has considerable concern on many levels. 
But it is also an area where the USOC has made significant 
strides through the development of an anti-doping program that 
has become a model for the world.
    Let me begin by briefly explaining who and what the USOC 
is. Chartered by Congress through the Ted Stevens Olympic and 
Amateur Sports Act, we have numerous responsibilities that 
impact the national interest, among the most obvious being the 
fielding of athletes to compete for the United States in the 
Olympic, Paralympic, and Pan American Games. In reach and scope 
we are a large organization, overseeing the governance of 
forty-five national sports governing bodies and have in our 
membership numerous educational, community, military, and 
disability groups whose activities collectively involve and 
impact millions of Americans of all ages and all levels of 
athletic competency.
    In addition, we are guided by a provision of the USOC's 
mission statement that proclaims that we are committed to 
``preserving the Olympic ideal.'' The Olympic ideal, as 
enumerated in the Olympic Charter to which all participating 
Olympic nations must subscribe, stresses the attributes of fair 
play, and the respect for fundamental ethical principles. The 
use by any athlete in the Olympic Movement of any banned drug 
to improve his or her athletic performance is a gross betrayal 
of those principles.
    In discussing what has contributed to our progress and 
success in the fight against doping in sport, I should note 
that the USOC operates in a unique environment. Participation 
in the international events we oversee is governed by rules and 
protocols that are put in place at the International level 
which impact the dynamics between us and the athletes we 
oversee. We do, however, have congressionally-granted control 
over who is named to the U.S. Olympic Team. In order to be 
eligible for membership on a U.S. Olympic Team, we require that 
an athlete comply totally with the USOC's anti-doping policies 
and programs, which include unlimited and unannounced out-of-
competition examinations.
    I won't go into the details of the mechanics of these tests 
and the manner in which positives are adjudicated because those 
are subjects that are better addressed by Travis Tygart, the 
CEO of the United States Anti-Doping Agency, otherwise known by 
its acronym, ``USADA.'' However, I believe it is important to 
highlight for the Subcommittee that USADA was created by the 
USOC and established by the USOC in 2000 to function as an 
independent drug testing and adjudication entity. Further, I 
will comment about certain of USADA's characteristics which, I 
am pleased to say, are consistent with the generally accepted 
best practices for anti-doping programs. Although USADA today 
is jointly funded by the USOC and the federal government, it is 
operationally independent of the USOC and any of the sports 
governing bodies whose athletes are subject to the anti-doping 
programs USADA conducts and the USOC requires. Dedicated to the 
fulfillment of a mission that concentrates on testing, 
adjudication, education, and research, USADA conducts its 
business in a highly transparent manner that virtually 
eliminates any question of conflict of interest.
    The USOC is pleased with the progress made by USADA and the 
success of the USOC's stringent anti-doping program, but 
recognizes that more must be done if we are to win the battle 
against doping in sport.
    Two areas which I would like to address where additional 
efforts and improvements should be made are in the areas of 
research and education.
    First of all is the matter of research. Effective drug 
testing is dependent upon not only the willingness of an 
individual to submit to an examination, but also to the 
efficacy of a test to determine whether that individual's body 
is carrying one or more prohibited substances. Athletes who 
choose to cheat, are increasingly sophisticated in identifying 
methods to beat anti-doping programs.
    Substances such as human growth hormone as well as other 
``designer'' drugs being developed and refined on an ongoing 
basis by those who would seek to cheat are complicated and 
difficult to detect through current testing protocols. Better, 
more reliable tests are needed and those will require 
considerable research. However, the resources that have been 
devoted to research are limited, and while other organizations 
may be independently pursuing work in this area, the efforts 
tend to be uncoordinated and fragmented. It was because of this 
that the USOC proposed a collaborative effort in the area of 
research, the ``Partnership for Clean Competition''. I am 
pleased to recognize those organizations who have initially 
joined in this effort and thank them for their leadership and 
commitment.
    The new Partnership for Clean Competition that we are 
launching will invest more funds, targeted more directly and, 
presumably, more effectively, toward research that may result 
in more reliable, non-invasive, and cost-effective tests that 
will easily reveal the presence of a variety of substances in 
an individual. But what is accomplished will still be limited 
and we need to expand the resources of our partnership. In 
light of this, perhaps there is an opportunity for the federal 
government to consider support of these efforts through federal 
grants or other contributions. Additionally, we would welcome 
an exploration by the government of whether there may be 
government health-related organizations that can also help with 
this effort.
    The second area I would like to briefly address is 
education. People, particularly young people, are educated as 
much by observing what happens in their world as what is 
presented in the classroom. And when it is disclosed that 
certain athlete role models have used banned substances to 
improve their performance, it sends a terrible message on many 
levels.
    First of all it implicitly condones cheating. The use of 
banned or illegal substances to improve athletic performance is 
nothing more than cheating. Secondly, there is the perception 
that aside from the ethical concerns, there are few, if any, 
deleterious health consequences of using these substances. Both 
children and adults are exposed to a constant barrage of 
advertising, news stories regarding how celebrities have used 
certain drugs to retain or renew their youth, and suggestions 
that certain exotic ``natural substances,'' readily available 
in health food stores, offer a panacea for health, fitness and 
well-being. Such information often masks reports of the tragic 
consequences that can lead to depression, suicides, and the 
development of other fatal conditions, all of which appear to 
have resulted from the use of certain of these substances.
    On the education front the leagues, certain government 
agencies such as the Office of National Drug Control Policy, 
private coalitions, and others have launched campaigns to 
educate society against both the dangers and the ethical 
contradictions of using chemical substances to improve athletic 
performance. These have all been quite effective but there are 
still gaps and the message still seems not to be getting 
through at least to some segments of society. With proper 
support, I see an opportunity for the USOC to join with others 
in the area of education. In this way we might fill a gap in 
communicating an effective message that is otherwise eluding 
some young people.
    Some observers have questioned the legitimacy and 
advisability of the federal government involving itself in 
matters that may be better addressed by and are the province of 
the private sector. We offer no opinion regarding what is best 
for the professional leagues but would note for the 
Subcommittee that we believe that the USOC's and the Olympic 
Movement's stringent system far surpasses any program that 
could readily be required by the federal government. If the 
USOC has the ability to address these issues without government 
oversight, we fully believe that the professional leagues have 
the ability as well. It is only a question of when and how. But 
we nevertheless recognize that there are areas such as research 
and education where we need to work together as a team. That, I 
am convinced, is the appropriate role for the government to 
play in this important challenge and ask my colleagues in the 
professional leagues to join the United States Olympic 
Committee in extending this invitation to the federal 
government to partner with us in this area.
    Thank you for your consideration of these thoughts but more 
importantly, thank you for your attention to this issue which 
poses a considerable threat to American society if left 
unchecked.
                              ----------                              

    Mr. Rush. Thank you. Mr. Tygart.

 STATEMENT OF TRAVIS T. TYGART, CHIEF EXECUTIVE OFFICER, U.S. 
         ANTI-DOPING AGENCY, COLORADO SPRINGS, COLORADO

    Mr. Tygart. Mr. Chairman, members of the subcommittee, good 
afternoon. My name is Travis Tygart. I am the chief executive 
officer of the United States Anti-Doping Agency. USADA 
appreciates the opportunity to appear before you today in your 
long-standing interests and the rights of clean athletes and 
the integrity of competition.
    I speak with you today not only as the head of USADA but 
also as the father of three young children, all ages 6 years 
and under. And I hope, probably like many of you with your 
children and your grandchildren, that one day they can obtain 
the lessons of life only obtained through competition played 
with honor and with integrity and without the use of 
performance-enhancing drugs.
    USADA's sole mission is to protect and preserve the rights 
of clean athletes and the integrity of competition and the 
well-being of sport through the elimination of doping. Congress 
has officially recognized USADA as the independent Anti-Doping 
Agency in the United States for Olympic and Paralympic sport. 
Why does USADA care so much about the professional anti-doping 
policies?
    First of all, whether fair or not, the world draws little 
distinction between professional and Olympic athletes. Our 
clean Olympic athletes want to distinguish themselves from 
dirty athletes. And our Olympic athletes frequently want to 
distinguish themselves from the professional athletes because 
they are too frequently viewed through the lens of the 
professional sports leagues in this country.
    Second, we test many of these professional athletes when 
they decide to compete in the Olympic games. 12 months prior to 
such Olympic games, these athletes do fall under our 
jurisdiction and our testing programs. It is important for this 
committee to understand professional basketball players, tennis 
players, hockey players willingly subject themselves to the 
highest standards that we have in the Olympic movement, 
including no-advance-notice out-of-competition year-round 
testing, including 2-year suspensions.
    Thirdly and possibly most importantly, our kids and the 
next generation of Olympic athletes are watching. The doping 
crisis is not just a public image problem for a group of owners 
or certain professional athletes. It is a health and an ethical 
problem that reaches right to the heart of our grade schools 
and our high schools.
    Finally, USADA's perspective on the current anti-doping 
climate comes from living the history of the fight against 
doping that has occurred within the international Olympic 
movement over the past 10 years. The Mitchell Report echoes a 
similar process undertaken by the International Olympic 
Committee and the United States Olympic Committee in the late 
1990s in this country. In the 1990s, the system of regulation 
by the various sports led to perceptions of conflict and 
allegations of attempts to cover up doping behavior among U.S. 
athletes. The USOC formed a task force to investigate and 
consider the best approach to fighting doping in the Olympic 
movement. The key finding of that USOC task force was that the 
fight against doping in sport needed to be led by an 
independent and transparent entity. Accordingly, USADA was 
formed in 2000. The creation of USADA triggered a radical 
transformation in the world's perception of the anti-doping 
efforts by the United States Olympic Committee.
    The USOC and the 45 national governing bodies took this 
courageous step because it was clear that the sports cannot 
both promote and police themselves. In addition to independence 
and transparency, the matrix of effectiveness agreed to by all 
the experts, including Senator Mitchell after his review, that 
anti-doping policies must be evaluated includes: out-of-season 
and out-of-competition no-advance-notice testing; an exhaustive 
and evolving list of prohibited substances and methods; 
implementation of best legal and scientific practices; 
significant investments into education to truly change the 
hearts and minds of would-be cheaters; significant investments 
into research for the detection of new doping substances and 
techniques; partnerships with government, particularly law 
enforcement, to ensure that, in addition to holding athletes 
accountable, those who illegally manufacture, traffic, 
distribute, and otherwise sell these dangerous drugs are also 
held accountable for their illegal behavior. We saw powerful 
examples of this cooperation in the BALCO investigation and 
others like it, such as Operation Raw Deal.
    The U.S. Olympic movement is fortunate to have a strong 
group of athletes who recognize the importance of clean sport 
and are looking for ways to become even more involved. Our 
Olympic athletes support USADA's efforts because they trust us 
as an independent group to independently and evenly apply the 
rules to all athletes. We support congressional efforts to 
encourage effective anti-doping programs at the elite level of 
sport. There are other important steps that I have outlined in 
my submitted testimony that I would like to you see. I am more 
than happy and would request the opportunity during the 
question and answer to clarify some of the misinformation that 
I think was presented to you previously, specifically 
concerning the human growth hormone test and the scientific 
validity of saving samples for retesting at a later date. Thank 
you for your interest.
    [The prepared statement of Mr. Tygart follows:]

                     Statement of Travis T. Tygart

    Mr. Chairman, members of the committee, good morning. My 
name is Travis Tygart and I am the CEO of the United States 
Anti-Doping Agency (USADA). I want to thank this committee for 
its long-standing interest in clean sport and for the 
opportunity to appear before you today to discuss this 
important ethical and health issue.
    As a father of 3 young children all ages 6 years and under, 
I hope that one day they will all learn the valuable lessons of 
life only obtained by participating in sports played with 
integrity, honor and without prohibited drugs. In its purest 
form sport builds character and promotes the virtues of 
selfless teamwork, dedication and commitment to a greater 
cause. True sport is built on the idea of honesty and respect.
    It is these core principles of sport that bring our 
communities together to cheer athletes and empower athletes to 
pursue their dreams and to inspire others through the 
accomplishment of those dreams. Doping eats away at these 
important attributes and compromises everything valuable about 
sport.
    Accordingly, we welcome and appreciate this Committee's 
focus on the harms that are caused by performance enhancing 
drugs in sport. USADA has been recognized by Congress as the 
independent, national anti-doping agency for Olympic and 
Paralympic sport in the United States. Our sole mission is to 
protect and preserve the health of athletes, the integrity of 
competition, and the well-being of sport through the 
elimination of doping. Stated another way, every day that the 
independent USADA Board of Directors and employees of USADA go 
to work we are focused only on the very issue that we are all 
here to discuss.
    We are all gathered here today, in part, because the 
recently released Mitchell Report confirmed what has been 
suspected for many years - that some in Major League Baseball 
have succumbed to doping. Specifically, Senator Mitchell found 
that ``[f]or more than a decade there has been widespread 
illegal use of anabolic steroids and other performance 
enhancing substances by players in Major League Baseball, in 
violation of federal law and baseball policy.''
    While the recent struggles of professional baseball may be 
the current impetus behind this hearing, the issues involved 
extend well beyond any one professional sport. The issue of 
drugs in sport strikes at the very heart of the question of 
what role sport will play in America's future. USADA's interest 
in this discussion is driven by a motive to not only protect 
the rights of today's Olympic athletes to play drug free but 
just as important to protect America's next generation of 
athletes. The doping crisis described in the report by Senator 
Mitchell is not just a public image problem for a group of 
owners or certain professional athletes. Illicit steroid use is 
illegal and an ethical and public health problem that reaches 
right to the core of our collective values and our future, 
because it adversely affects today's high school, junior high 
school and even grade school athletes.
    America's future Olympic Gold Medalists in Track and Field, 
Swimming, Bobsledding, Basketball and every other Olympic 
sport, are out there right now learning from the example set by 
today's Olympic athletes and professional athletes. The 
question is, what lessons are they learning? Are they learning 
that athletic success justifies whatever means are required to 
achieve it? Is the lesson that cheating to win is okay as long 
as it sells tickets and raises profits?
    USADA's mission is to make sure that in the context of 
Olympic sport, today's Olympians are allowed to compete clean 
and those who decide to cheat are caught and punished. In that 
way, tomorrow's Olympians will know that there are no shortcuts 
to true achievement on the playing field.
    USADA's perspective on the current anti-doping climate 
comes from living the history of the fight against doping that 
has occurred within the international Olympic movement over the 
past ten years. That history is important because the questions 
faced and the answers offered by the Mitchell Report echo a 
similar process undertaken by the International Olympic 
Committee and the United States Olympic Committee (USOC) in the 
late 1990's.
    In the 1990's, the world did not view the United States as 
being committed to preventing doping among its Olympic 
athletes. The system of self-regulation by the various sports 
led to perceptions of conflict of interest and allegations of 
attempts to cover up doping behavior among United States' 
athletes. The USOC formed a task force to investigate and 
consider the best approach to fighting doping in the Olympic 
movement. That task force faced many of the same questions 
confronted by Senator Mitchell in his analysis and, not 
surprisingly, the recommendations of Senator Mitchell are very 
similar to the recommendations of the USOC task force.
    The key finding of the USOC's task force was that fight 
against doping in Olympic sport needed to be led by a truly 
independent and transparent entity. Accordingly, USADA was 
formed in 2000. The creation of USADA triggered a radical 
transformation in the world's perception of anti-doping efforts 
in the United States Olympic Movement. We are now viewed as a 
world leader in Olympic anti-doping and it is universally 
acknowledged that our athletes are subject to one of the 
world's most rigorous anti-doping programs in the world. 
Moreover, USADA's willingness to pursue investigations of 
athletes and coaches and hold them accountable for cheating 
based on evidence other than a positive test has reinforced the 
world's view of our commitment to clean sport. For these 
reasons, other national anti-doping agencies, such as the 
Russian agency, travel to the United States to meet with USADA 
and learn from our practices and programs. Significantly, this 
dramatic shift to independent administration of anti-doping 
efforts was also accomplished on a world level when the 
International Olympic Committee after reviewing the issues also 
externalized its anti-doping efforts to the independent entity, 
the World Anti-Doping Agency. Other nations have followed the 
paradigm shift and it is now universally accepted that true 
independence is the hallmark of an effective anti-doping 
program.
    It was an extremely courageous decision for the USOC and 
the 45 or so national governing bodies to fully externalize 
their efforts to USADA, but they took the stand because it was 
clear that the sports themselves could not simultaneously 
promote and police their sports. And, since they all desired an 
effective program, there were no reasons not to externalize 
their anti-doping efforts. Similarly, in recommending a path 
forward for Major League Baseball, Senator Mitchell concluded 
that independence was a threshold component of a state-of-the-
art anti-doping program that ``should be administered by a 
truly independent authority that holds exclusive authority over 
its structure and administration.''
    It is important that ``independence'' not be dismissed as 
simply window dressing designed to remove perceived conflicts. 
Instead, USADA's experience has established that true 
independence is a functional and fundamental requirement of an 
effective anti-doping program. In fact, true independence is 
the single most important element of the USADA model because it 
provides us with complete authority over all areas of the 
entire anti-doping program. Simply put, USADA's mission is to 
protect clean sport and preserve the rights of athletes to 
compete clean. In accomplishing that mission, USADA does not 
have a conflicting duty to also protect the image of the sport 
it serves or of commercial factors such as obligations to 
sponsors, owners or other investors. This true independence 
frees USADA to take the steps necessary to accomplish its 
mission without worrying about the possible negative impact on 
the financial interests or the image of the sport.
    Ultimately, by keeping a steadfast focus on the sole goal 
of clean sport, USADA has improved the image of Olympic sport, 
but that victory has necessarily come at the price of exposing 
the dark side of sport along the way. When the path to 
redemption requires that individuals once thought to be heroes 
must be exposed as frauds, it takes a strong resolve to walk 
that path. Unfortunately, experience establishes that where 
that resolve may be impacted by a duty to protect the image of 
the sport or its profits then the mission will be easily 
compromised. This point is made resoundingly clear in the 
Mitchell Report.
    The history of anti-doping efforts in the Olympic movement 
and the experience of other sports, establish that partial 
independence is not an effective model for fighting doping in 
sport. The fight against doping in sport cannot be a part-time 
job and true progress will not be achieved through anything 
less than the full commitment and dedication of a team of 
experts.
    In addition to true independence and transparency, the 
matrix of effectiveness agreed to by the experts and also 
detailed in the Mitchell Report by which all anti-doping 
policies can be evaluated must include:
    Effective out of season and out of competition, no advanced 
notice testing;
    A full list of prohibited substances and methods that would 
capture new, designer drugs as they are developed;
    Implementation of best legal and scientific policies and 
practices as they evolve which must include adequate sanctions 
and due process protections for those accused of doping 
violations;
    Significant investments into education to truly change the 
hearts and minds of would be cheaters and to teach the lessons 
of life that can be learned only from ethical competition;
    Significant investments into scientific research for the 
detection of new doping substances and techniques and for the 
pursuit of scientific excellence into anti-doping;
    Partnerships with government particularly law enforcement 
to ensure that in addition to holding athletes accountable, 
those who illegally manufacturer, traffic and distribute these 
dangerous drugs and who are typically outside of sports 
jurisdiction are also held accountable for their illegal 
behavior. It is the success of this very cooperation seen 
through the BALCO investigation and others like it such as, 
Operation Raw Deal, which has directly led us all here today.
    Ultimately, this fight for the soul of sport, most directly 
impacts the clean athletes. The U.S. Olympic movement is 
fortunate to have a strong group of athletes who recognize the 
importance of this issue and are looking for ways to become 
even more involved. Our Olympic athletes support USADA's 
efforts because they trust us to evenly apply the rules to all 
athletes including high profile, high dollar superstars; they 
want us to protect their right to compete clean and they want 
American sports fans to be able to once again believe in their 
Olympic heroes. Our clean Olympic athletes also are desperate 
to distinguish themselves from dirty athletes as well as those 
athletes who play in professional sports because too frequently 
the international sports world views our Olympic athletes 
through the lens of the professional leagues and their anti-
doping policies.
    Our duty to these clean athletes and our mission require us 
to advocate for the most effective anti-doping policies at all 
levels of sport even when that means offering candid 
assessments of the programs of other sports entities. While no 
anti-doping program is perfect until the matrix of 
effectiveness discussed above is fully realized by all elite 
level sports organizations their programs will not be as 
effective as they should be. In the Olympic movement, we did 
this on our own and without federal government scrutiny or 
legislation. And, while the professional leagues anti-doping 
policies have significantly improved over the past several 
years, they still fail to fully implement all the basic 
elements of the most effective programs. USADA supports efforts 
to encourage anti-doping programs implemented at the elite 
level of all sport.
    Additionally, there is more that we strongly believe the 
federal government can do to assist the goal of protecting 
athletes and the integrity of sport at all levels. First, in 
2004 Congress passed the Anabolic Steroid Control Act that in 
addition to scheduling many of the steroid precursors and 
designer steroids on the Controlled Substances Act at Section 4 
also authorized $15 million annually for school based education 
efforts. Regrettably, this program has never been funded. 
Appropriating funds for an in-school program would provide a 
broad based educational foundation to our children of the 
importance of healthy living, ethical decision making and the 
dangers of using dangerous performance enhancing drugs.
    Second, there is currently legislation before the House and 
Senate, HR 4911 and S. 877, that would add Human Growth Hormone 
(HGH) to the Controlled Substance Act. Passage of this bill 
would quickly strengthen the law enforcement efforts to enforce 
the illegal distribution and use of HGH. Third, there is 
additional legislation, S. 980, the Online Pharmacy Consumer 
Protection Act, that would prohibit an online pharmacy from 
selling a controlled substance over the Internet without a 
valid prescription. Passage of this bill would further enhance 
the control of these dangerous drugs and make it more difficult 
for these drugs to end up in the hands of our children via the 
internet. Fourth, while scientific research efforts must be 
fully supported by sport and we are pleased that Major League 
Baseball and the National Football League have agreed to 
partner with the USOC and USADA to fund research into this area 
through the Partnership for Clean Competition, the federal 
government can assist this effort by appropriating additional 
funding to further this anti-doping research.
    I would like to thank this Committee for its time and its 
interest in this important ethical and public health issue and 
for inviting me to share USADA's experience and perspectives. 
We look forward in assisting you as needed as you move forward.
                              ----------                              

    Mr. Rush. Thank you so very much.
    Dr. Brand, welcome again. And you have got 5 minutes 
please. Thank you.

   STATEMENT OF MYLES BRAND, PRESIDENT, NATIONAL COLLEGIATE 
          ATHLETICS ASSOCIATION, INDIANAPOLIS, INDIANA

    Mr. Brand. I want to thank you for holding this hearing and 
for the opportunity to appear before you. The issue of 
performance-enhancing drugs in sports is a serious and 
pernicious threat to the health of those who participate and to 
the integrity of intercollegiate athletics. It is one that NCAA 
and higher education takes seriously and has addressed 
earnestly for more than three decades.
    There is ample evidence that the use of the more potent 
performance aids presents a significant health risk for 
athletes. In the case of other aids, such as supplements, not 
enough evidence is available to determine the long-range 
effects. But in all cases, the sustained and habitual use of 
performance enhancers presents an abuse of healthy best 
practices. Furthermore, from the viewpoint of governing bodies 
charged with the responsibility to ensure fair play and the 
ethical conduct of athletics competition, the use of 
performance-enhancing drugs is cheating, pure and simple. It is 
an attempt to create an artificial advantage that the abuser 
hopes is not available to or will not be used by opponents. The 
prohibition of such use, therefore, is necessary both for the 
protection of sports and especially the good health of 
athletes.
    Over the past 20 years, the NCAA has aggressively addressed 
what it saw as an emerging problem and the willingness of some 
student athletes and trainers and coaches to put their health 
and the integrity of the sport at risk. The association's 
approach has been three pronged: education, testing and 
sanctioning. Since the 1970s, the NCAA has developed and 
mandated education for student athletes on the risks of 
performance-enhancing drugs. This emphasis on education is part 
of the unique relationship between the NCAA and the student 
athletes.
    Each fall, almost 400,000 student athletes--not the 450, 
for example, compared to the NBA--400,000 athletes who compete 
in intercollegiate athletics must document that they have been 
so informed and attest that they will not use such drugs. The 
NCAA began its first drug testing program in 1986 and today 
conducts such testing at all its 89 championships in every 
sport at every level. In addition, the association conducts 
random out-of-season testings in Divisions I and II. In fact, 
80 percent of the NCAA drug tests are outside the association's 
championship testing. Division III is also engaged in a major 
pilot for drug testing out of season.
    In the same way as USOC operates, our efforts are carried 
out under the strictest protocols using independent 
laboratories and under the guidelines of WADA, the World Anti-
Doping Agency. Over the past two decades, hundreds of thousands 
of student athletes have been tested. The NCAA drug testing 
program is supplemented by member colleges and universities in 
Divisions I and II. Approximately 78,000 student athletes are 
tested annually through these efforts.
    When a student athlete tests positive through an NCAA drug 
testing effort for the use of performance enhancers, the 
consequences are swift and harsh. The first offense results in 
a loss of eligibility of 1 year, which is 25 percent of the 
total student athlete's eligibility. The second offense results 
in permanent loss of eligibility. The offenders are out of 
college sports entirely. One strike and you are out. These are 
penalties that leave no question about the seriousness of 
intercollegiate athletics' expectations for drug-free 
competition or the intent of higher education to influence the 
behavior of those inclined to cheat.
    Although it is impossible to totally eradicate the use of 
performance-enhancing drugs, I am confident, based upon over 
two decades of data, that the association's practices of drug 
education, testing and penalty have resulted in a very serious 
decline. In 1990, when the NCAA began testing for anabolic 
steroids, approximately 10 percent of football players, 
Divisions I and II, reported use of such enhancers. By 1993, 
that number had been cut in half. Today, the number of student 
athletes who test positive to all banned substances in all 
sports is less than 1 percent. There is no question the NCAA's 
drug testing efforts have been both punitive and a deterrent.
    Now, America loves sports and makes heroes of those who 
compete with skill and precision. In higher education, we 
firmly believe there is educational value in athletic 
participation. But it can all be undone in a heartbeat if those 
of us charged with the governance of intercollegiate athletics 
neglect our responsibility to protect the health of student 
athletes and the integrity of college sports. I can assure this 
committee that the NCAA and all higher education are committed 
to an aggressive prohibition of performance-enhancing drugs and 
meaningful consistently enforced and applied sanctions.
    The NCAA and its member colleges and universities spend 
nearly $10 million annually on drug testing and considerably 
more on drug education. We take this issue very seriously, have 
a track record of aggressive efforts to eliminate such use and 
are resolute in our intent to protect both student athletes and 
college sports. And again, I thank you for the opportunity.
    [The prepared statement of Mr. Brand follows:]

                        Statement of Myles Brand

    Chairman Rush, Ranking Member Whitfield, and other 
distinguished Members of the Subcommittee, on behalf of the 
National Collegiate Athletic Association, as president of the 
NCAA, I appreciate the opportunity to appear today and inform 
you of the Association's drug education and drug-testing 
programs.
    The NCAA has worked diligently for more than 35 years to 
provide leadership and resources to its member schools in 
partnership for effective drug abuse deterrence. The NCAA is a 
private association of approximately 1,200 four-year 
institutions of higher education and athletics conferences. 
There are more than 380,000 student-athletes competing at these 
NCAA member schools. According to the NCAA Constitution, under 
the Principle of Student-Athlete Welfare, intercollegiate 
athletics programs ``shall be conducted in a manner designed to 
protect and enhance the physical and educational welfare of 
student-athletes.'' The NCAA manual makes clear that it is the 
responsibility of each member institution to protect the health 
and safety of and provide a safe environment for each of its 
participating student-athletes.
    The NCAA Drug-Testing Program is an aggressive initiative 
now in its third decade working to ensure that intercollegiate 
athletics is as free of performance-enhancing drugs as 
possible. The NCAA and its member institutions have taken a 
strong stand to deter doping in sports and have long 
established serious penalties for those who violate these 
policies. Under the NCAA testing program, athletes who test 
positive are withheld from competition in all sports for at 
least one year, and lose one of their four years of collegiate 
eligibility. Athletes who test positive a second time for 
steroids and other performance-enhancing drugs lose all 
remaining eligibility and are permanently banned from 
intercollegiate athletics competition.
    The NCAA testing program has proven to be effective in 
dramatically reducing the use of such drugs by collegiate 
athletes. And the proof is verified by the longitudinal study 
of NCAA athlete drug use, administered every four years since 
1985. In the 1989 Study of the Substance Use Habits of College 
Student Athletes, 9.7% of NCAA Division I football student-
athletes reported using anabolic steroids. In 1990, the NCAA 
began testing for anabolic steroids during the academic year in 
all Division I football programs. In the 1993 study, 5.0% of 
Division I football student-athletes reported using anabolic 
steroids, and subsequently, 2.2% reported steroid use in the 
1997 study. In the most recent study (2005), 2.3 % of football 
student-athletes reported steroid use.
    This impact is the result of a comprehensive approach and a 
number of key factors in our drug-education and testing 
programs:
     A strict drug-testing protocol, reviewed and published 
annually;
     A national drug-testing program where student-athletes 
are subject to testing at any time through a random and short 
notice selection process;
     The use of an outside independent third-party drug-
testing administrator;
     Standardized serious penalties for violations: a first 
positive drug test results in the loss of one of the four years 
of eligibility and withholding from all sports; a second 
positive for a performance-enhancing drug permanently removes 
the athlete from intercollegiate sports;
     Transparency in publishing aggregate drug-testing results 
and the report of survey data on drug use;
     And a broad-based educational effort combining the 
expertise, resources and programs of the NCAA national office, 
the athletic conference offices and the individual schools.
    In order to promote student-athlete well-being and create 
an environment that does not permit drug use, the NCAA has 
developed a collaborative and comprehensive approach of strong 
policy, effective education and detection. This approach is 
strengthened by the effort and support of member schools. 
Critical to success is the philosophy embedded in the NCAA 
Constitution whereby member institutions adopt common values 
and commit to the principals that assure student-athlete health 
and safety and protect the integrity of collegiate athletics. 
Member schools are required to conduct annual compliance 
meetings where every student-athlete signs a drug-testing 
consent form and is educated about banned drugs and products 
that may contain them. NCAA regulations require that member 
schools respond to any knowledge of banned drug use, and the 
ethical code of conduct prohibits athletics staff from 
providing banned drugs to any student-athlete, or providing 
prescription medication outside of medical standards of 
practice.
    The NCAA formalized its national drug-education program in 
the 1970's, and started its drug-testing programs in 1986. The 
NCAA drug-testing program has earned a reputation as a model of 
quality and professionalism. The NCAA spends more than $4 
million annually for the national drug-testing programs, and 
this effort is supported by another $4.8 million spent by 
member institutions on campus-administered drug testing. 
Overall, the NCAA has spent over $50 million dollars in testing 
and countless millions in additional resources in educating 
collegiate athletes to avoid drug use. The majority of member 
schools have developed institutional policies to conduct drug-
education and drug testing programs for their athletes, as 
measured through the biennial Drug-Education and Testing survey 
of the membership. This partnership - national office and 
Association member -- provides a strong anti-doping message 
throughout intercollegiate athletics programs.

                              Drug Testing

    The NCAA sponsors two national drug-testing programs for 
college athletes - during NCAA championships and randomly 
throughout the year. The NCAA believes that drug testing is an 
integral part of drug-abuse prevention. NCAA drug testing was 
established to protect student-athlete health and safety and to 
ensure that athletes are not using performance-enhancing drugs 
to gain a competitive advantage.
    The NCAA first introduced drug testing at its championships 
and postseason football bowl games in 1986. Since 1986, any 
NCAA athlete competing in these events is subject to NCAA drug 
testing, and approximately 2,000 athletes are tested each year 
through championship drug testing. NCAA testing is conducted by 
an independent third-party drug-testing administrator. 
Selections and notification are completed via direct 
communication with the athletics office of the selected school, 
with no notification provided to the NCAA. Selections are done 
through short notice of randomly selected subjects, and 
functions under a strict, published protocol. The NCAA utilizes 
only World Anti-Doping Agency (WADA) certified laboratories.
    As part of its drug-prevention efforts, the NCAA publishes 
a list of banned drug classes.This list bans more performance-
enhancing drugs than what is banned under federal law, and 
includes the anabolic steroid precursor DHEA and the stimulant 
synephrine.
    To deter the use of training drugs such as anabolic 
steroids, the NCAA implemented a second drug-testing program in 
August 1990. Today as part of this program, approximately 
11,000 athletes, including incoming freshman and transfers, are 
tested by the NCAA all through the year. Athletes in all sports 
in Division I and II, and all athletes participating in NCAA 
championships, are subject to NCAA year-round drug testing. 
Sanctions for positive drug tests are automatic and defined for 
the student-athlete in the annual signing of the NCAA drug-
testing consent form.

          Competitive Safeguards and Medical Aspects of Sports

    The NCAA Association-Wide Committee on Competitive 
Safeguards and Medical Aspects of Sports, CSMAS, provides 
expertise and guidance to the NCAA on issues pertaining to 
student-athlete health and safety. CSMAS is comprised of 
experts in sports medicine practice and research, sports law, 
and athletics administration. A member of the National 
Federation of High School Associations sits on this committee 
in order to facilitate communications on safety and drug 
deterrence policies. A current roster of these members is 
attached to this statement [Attachment 1]. Committee members 
have been published in their respective fields, and are looked 
to as important resources for sports science information. These 
dedicated professionals contribute their time and expertise to 
assist the NCAA in the development of drug-education and 
testing policies, and provide medical and policy review and 
adjudication through a ``blind'' appeal for any student-athlete 
who wishes to appeal a positive drug test. In addition, a 
committee panel of medical experts provides review of medical 
documentation to determine if an exception will be allowed for 
the use of any medication that contains a banned substance. 
NCAA policy requires that a non-banned alternative be used if 
medically appropriate. Approval to use a prescription 
medication that contains a banned substance is granted only 
after documentation of the diagnosis, course of treatment, and 
current prescription is submitted and deemed medically 
necessary. This committee annually reviews the NCAA drug-
testing program protocol and list of banned drugs, which is 
published annually to the entire membership.

                             Drug Research

    Since 1985, the NCAA has conducted a national study of the 
drug use habits of college athletes. The NCAA is the only 
sports governing body that has this longitudinal research to 
provide data regarding the effectiveness of its drug-deterrence 
programs. The study is replicated every four years and five 
replications have been conducted since the original study. The 
study is designed to obtain data on the substances and use 
patterns of college athletes through the use of anonymous self-
report questionnaires. This data assists us in developing 
policy and practices to deter drug use by collegiate athletes. 
More than 20,000 student-athletes completed the survey in the 
2005 study. The 2009 study will be administered in the upcoming 
academic year. Copies of the last two published studies are 
available at www.ncaa.org/health-safety

      NCAA Membership Requirements and Support of Drug Deterrence

    To support and promote drug education for student-athletes, 
NCAA bylaw requires that each institution's Director of 
Athletics or the director's designee educate student-athletes 
about NCAA banned substances and the products that may contain 
them. Student-athletes are required to sign a student-athlete 
statement and a drug-testing consent form that alerts them to 
the NCAA drug-testing policies and the list of banned 
substances, and requires their agreement to abide by these 
regulations and be tested when selected anytime during the year 
or during any championship play. The NCAA publishes guidelines 
for institutional drug-education programs, and annually 
provides more than a million dollars in resources to its member 
institutions to help them conduct campus drug-education and 
prevention efforts. Some of the other resources provided to 
assist our member institutions to enhance student-athlete 
health and safety and deter drug use are:
     Health and safety specialists. The NCAA national office 
employs staff members who oversee the NCAA's health and safety 
initiatives.
     The NCAA Sports Medicine Handbook. A set of sports 
medicine guidelines compiled by leaders in the field of sports 
science that includes the NCAA's recommendations on educating 
athletes about drugs and supplements.
     The NCAA-sponsored APPLE Conferences: promoting substance 
abuse prevention and student-athlete well-being. These 
strategic planning workshops train teams of athletics staff and 
student-athletes to identify needs and enhance drug education 
on individual campuses.
     Educational information via bookmarks, posters, and Web-
based resources.
     Educational conferences for coaches and administrators on 
deterring supplement use by athletes.
     A national speaker's bureau of experts on drug use in 
sport.
     The Dietary Supplement Resource Exchange Center (REC). 
All NCAA athletes and staff may use this service funded by the 
NCAA and housed at Drug Free Sport, the company that manages 
the Association's drug-testing efforts. The REC provides a 
toll-free number and Web site for athletes to get reliable 
information about NCAA banned substances, medications and 
supplements. Inquiries are treated in a confidential manner.
     Articles and alerts through its electronic publication, 
The NCAA News, which has featured a number of articles on drug 
use in sports.
     A special advisory memorandum sent periodically to the 
senior athletics administrators at every NCAA institution to 
alert them to the potential risks of banned drugs in dietary 
supplements.

                  Proven Results and Continued Growth

    The NCAA has been active in the fight to eliminate steroid 
and other performance enhancing drug use for over 35 years. 
Through collaborative educational efforts with sports medicine 
and athletics organizations, the NCAA has been a champion in 
deterring the use of these substances by young athletes. The 
establishment of drug testing, NCAA support for drug-testing 
research, the strengthening of NCAA and campus policies to 
deter drug use, and the combined educational efforts from the 
NCAA national office and campus athletics staff have had a 
positive impact on steroid use.
    In the last two years, the NCAA has added testing through 
the summer months, expanded testing for masking agents, and 
engaged in a two-year pilot testing program in Division III. In 
addition NCAA honors USADA/WADA suspensions by withholding 
athletes from any NCAA competition for the duration of the 
suspension.

                               Next Steps

    The NCAA was vocal and supportive of legislative efforts to 
remove steroid precursors from the dietary supplement market 
through the Anabolic Steroid Control Act of 2004. We support 
further government efforts to control steroids and human growth 
hormone, including HR 4911 and SB 877 that identify HGH as a 
Schedule III Controlled Substance, and SB 2470 that restricts 
the sale of DHEA, a steroid precursor. The NCAA supports drug-
testing research, and annually reviews the literature and data 
to determine trends and effective strategies to deter use. We 
support our colleagues in their efforts to address drug use at 
the high school and professional leagues, and offer our 
cooperation to those who share in our commitment to ensure 
safe, drug free sport. As we have for over two decades, we will 
continue to enlist the expertise of sports scientists to 
provide us guidance in our drug-testing programs. The important 
next steps involve expanding resources for research in the 
areas of more cost effective steroid testing, detecting new 
performance enhancing substances as they emerge, and 
identifying and implementing effective prevention strategies. 
Though we have had success in reducing the use of performance-
enhancing drugs, we recognize the continuing challenges posed 
by emerging drugs. We urge funding support for drug-testing 
research and implementation of programs that have been able to 
demonstrate a positive impact on youth decisions to enhance 
performance through healthy and fair strategies, by hard work, 
dedication and practicing healthy behaviors.
    On behalf of the NCAA, I would like to thank the 
subcommittee for the opportunity to speak before you today and 
express the NCAA's willingness to assist in moving forward in 
this monumental and critical task to eradicate drugs from 
sports.

  NCAA Drug-Education and Testing - Ensuring the Health and Safety of 
                            Student Athletes

    The NCAA has worked diligently for more than 35 years to 
provide leadership and resources to its member schools in 
partnership for effective drug abuse deterrence. The NCAA 
utilizes a comprehensive drug-education and testing program, 
coupled with serious penalties to deter drug use by student- 
athletes. Athletes lose one of four years of eligibility for a 
first positive, and are permanently removed from collegiate 
sport for a second positive drug test.
    Best Practices: Key factors in our drug-education and 
testing programs:
     A broad-based educational effort combining the expertise, 
resources and programs of the NCAA national office, the 
athletic conference offices and the individual schools.
     A strict drug-testing protocol, reviewed and published 
annually;
     A national drug-testing program where student-athletes 
are subject to testing at any time through a random and short 
notice selection process;
     The use of an outside independent third-party drug-
testing administrator;
     Standardized serious penalties for violations: a first 
positive drug test results in the loss of one of the four years 
of eligibility and withholding from all sports; a second 
positive for a performance-enhancing drug permanently removes 
the athlete from intercollegiate sports;
     Transparency in publishing aggregate drug-testing results 
and the report of survey data on drug use;
     Regular evaluation of NCAA drug-education and testing 
policies by an NCAA Association-Wide Committee composed of 
experts in sports medicine practice and research, sports law, 
and athletics administration.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rush. Thank you very much.
    Mr. Kanaby.

   STATEMENT OF ROBERT KANABY, EXECUTIVE DIRECTOR, NATIONAL 
  FEDERATION OF STATE HIGH SCHOOL ASSOCIATIONS, INDIANAPOLIS, 
                            INDIANA

    Mr. Kanaby. Thank you, Mr. Chairman and members of the 
subcommittee for this opportunity to be here with you today. 
Let me underscore right at the outset our willingness to 
cooperate, on behalf of our member State high school 
associations, with Congress, with any of the organizations that 
have been here at these hearings throughout today in terms of 
providing two working relationships that will gain 
opportunities to provide educational materials to our network 
of more than 18,500 high schools across this country and access 
to more than 7.3 million student participants and their 
respective coaches as well as their parents.
    The federation, just very quickly, has three main purposes. 
One is to increase participation of young people in sports 
because we know--in this country's high schools--because we 
know they profit by these educational experiences, and we have 
done that for 18 consecutive years. Secondly, we work hard to 
minimize the risks of participation. And third, and most 
importantly, is to protect and promote the fact that sports 
experiences should contribute to the educational development of 
young people and not be a detraction towards their development 
as productive citizens in our society.
    Certainly the issue of steroids threatens the integrity of 
sport. But to us, the much more important issue, and I have 
heard it voiced throughout today by even members of the 
subcommittee, is what happens and what occurs to the health and 
welfare of the young people who get involved in these kinds of 
things, and that is our paramount concern.
    According to studies, more than 1 million young people in 
the United States have used steroids at least once in their 
lifetime. At least a third of those are said to not even be 
involved in interscholastic sports. But the most recent data 
released by the National Institute of Drug Abuse in December of 
2007 reveals a steady decrease in the use of steroids by 8th, 
10th and 12th graders since 2004. Quite frankly, we look 
towards the efforts of this subcommittee as shining a spotlight 
on this issue that has helped bring about those particular 
statistical results.
    In addition to that are our own efforts by our own member 
State associations and the federation with the inauguration of 
a Make the Right Choice Program, begun in 2005, that has 
distributed materials, posters, pamphlets, booklets targeted 
towards coaches, targeted towards student athletes, targeted 
towards their parents, et cetera, on the dangers and risks of 
steroid abuse. We have arranged for a packet of this 
information to be delivered to each of the members of this 
subcommittee. And we would be more than happy to respond to any 
questions you might have regarding that.
    Coaches are also a very, very critical key and important 
factor towards dealing with this issue at the high school 
level. And we have endorsed and adopted through our coach 
education program, which speaks about the steroid issue, to--
adoption by 40 of our member State associations, 51 in total--
to make use of this program that can be done for them in that 
regard. One can say obviously that these are initiatives that 
seem to be having good results. But by the same token, I sit 
here and say to you that more needs to be done, that more 
should be done, and that, again, we are most willing to 
cooperate in any way to attempt to do that.
    State athletic associations are sovereign entities with the 
National Federation. They are not subject to our control or 
influence beyond their voluntary decisions to work together 
with us. But many of them have made their own decisions on 
steroid testing. We heard earlier about the program that has 
recently been implemented in Texas with the University 
Interscholastic League that announced a 2-year program with the 
National Center For Drug-Free Sport, which also conducts 
testing for the NCAA and two other State associations. Prompted 
by a $3 million a year appropriation by their State 
legislature, they will be doing random testing that will affect 
40,000 to 50,000 young student athletes over the next two 
academic years in Texas.
    Mr. Kanaby. Two other State athletic associations, Florida 
and New Jersey, have already established testing programs, and 
both of these also utilize the services of the aforementioned 
National Center for Drug Free Sport. New Jersey pioneered the 
testing of high school athletes in 2006 and -7 targeting 5 
percent of its State championship competitors, and although 
only one in 500 participants tested positive, the association 
has praised the deterrent effects of this program. Florida's 
policy is more random at the individual level, and targets 
athletes in the sports of football, baseball, and weight 
lifting. The Illinois association, as mentioned by the Mrs. 
Schakowsky at the earlier testimony this morning or earlier 
hearing this morning, Illinois will come on board in the '08-' 
09 year, and again like the New Jersey counterpart will test at 
their State championship level.
    Many of our other State associations have independently 
done other things. Connecticut has endorsed a program of 1 year 
of ineligibility for any school that discovers a youngster that 
deals with steroids. In addition to that, they have constantly 
updated information on their Web sites and distributing to 
their member schools our materials, as well as other materials 
that provide information on an ongoing basis to them.
    As previously indicated, we have no authority to demand 
that State associations implement steroid testing. Absent a 
federally mandated or funded program or some other plan, 
economic pressures are going to keep many of our State 
associations from being able to afford these kinds of high-tech 
quality testing programs. Such programs, as we know, are 
extremely expensive.
    For the aforementioned reasons, we would make this 
suggestion and offer once again our cooperation, that any help 
that Congress could provide should be provided on a two-fold 
strategy. One is to provide the opportunity for States to gain 
resources in order to do the random testing that is presently 
underway in four of our member States at this time. It has 
proven to be a deterrent.
    We just heard the deterrence statistics from the NCAA. It 
can work and it can help. But at the same time, too, we are 
educators, all of us, and there must be, there must be in our 
judgment a companion piece that in addition to making testing 
available that we should also provide and make available more 
and more resources to educate our young people, to educate our 
coaches, to educate their parents, et cetera, on the dangers 
associated with these kind of things and eradicate the problem 
completely at the outset.
    Thank you.
    [The prepared statement of Mr. Kanaby follows:]

                     Statement of Robert F. Kanaby

                              Introduction

    Thank you Chairman Rush, Ranking Member Whitfield, and 
distinguished Members of the Subcommittee for the opportunity 
to testify today on the issue of steroid use among our young 
athletes. My name is Robert Kanaby and I have served as the 
Executive Director of the National Federation of State High 
School Associations (NFHS) for the past 15 years. Prior to 
that, I served 13 years as the Executive Director of the New 
Jersey State Interscholastic Athletic Association. I have also 
served as a high school teacher, coach, vice principal and 
principal. In my role as NFHS' Executive Director, I am aware 
of the health risks attendant to participation in 
interscholastic athletics.

                              The Problem

    Steroid use threatens the integrity of competitive sport, 
but even more disturbing is the risk posed to the health of 
teenage athletes. The ``bigger, faster, stronger'' mentality 
glorified in our society leads a small percentage of youth to 
experiment with steroids and performance enhancing drugs for an 
``edge.'' Unfortunately, those athletes remain oblivious to the 
long-term health consequences of their actions. The 
availability of such illegal supplements is undeniable, yet I 
emphasize that the overwhelming majority of student-athletes 
subscribe to the education-based mission of high school sports. 
The lure of performance-enhancing drugs is usually outweighed 
by efforts of coaches, administrators, and organizations such 
as the NFHS with an educational interest in drug abuse 
prevention. Even so, several member state associations of the 
NFHS have recently enacted drug testing programs to combat the 
use of steroids within interscholastic athletics.

                              Who Are We?

    Before further discussing these measures, let me provide 
some context on the role of the NFHS within the high school 
community.
    The NFHS is the national organization for high school 
athletics and performing arts programs in speech, debate, 
theater and music. Its purpose is to provide leadership and 
coordination of these activities to enhance the educational 
experiences of high school students and to reduce the inherent 
risks of participation. The NFHS promotes inclusiveness and 
sportsmanship, and its paramount goal is to develop good 
citizens through sport and activities. Its 51 members, 
consisting of the high school associations in each state and 
the District of Columbia, conduct championships and enforce 
eligibility rules in their respective jurisdictions. Unlike the 
NCAA, the NFHS does not perform enforcement functions. The NFHS 
promulgates voluntary rules of play for the nation's 7,000,000 
high school student-athletes in sixteen different sports, in 
addition to another 4,000,000 students in performing arts 
programs. Another critical function of the NFHS is to obtain 
and disseminate health and safety-related information. The 
Sports Medicine Advisory Committee is one facet of the 
Federation that addresses the medical issues relevant to 
interscholastic athletics, including steroid use.

                           Facts on Steroids

    According to the American College of Sports Medicine, 
``anabolic steroid use has been implicated in early heart 
disease, including sudden death.'' The ACSM also notes the 
potential for further damage to the heart, liver, and growth 
plates. Behavioral side effects, highlighted by the National 
Institute on Drug Abuse, include paranoia, delusions, and 
increased irritability and aggression (i.e. ``roid rage'').
    According to studies, more than one million young people in 
the United States have used steroids at least once in their 
lifetimes. Other studies indicate over one-third of high school 
steroid users do not participate in interscholastic sports. The 
most recent data released by the National Institute on Drug 
Abuse in December 2007 reveals a steady decrease in the use of 
steroids by eighth, tenth, and twelfth graders since 2004. 
Compared to the 2004 statistics, lifetime usage of steroids 
among today's eighth graders has dropped from 1.9% to 1.5%, 
from 2.4% to 1.8% among tenth graders, and from 3.4% to 2.2% 
among twelfth graders. This data is more optimistic than the 
numbers offered in the Mitchell Report, which relied on a CDC 
report from 2001 that cited usage of steroids among high school 
student-athletes between 3-6%.

                       NFHS Educational Resources

    This statistical improvement is one indication of a growing 
awareness among student-athletes of the dangerous consequences 
of steroid use. Such awareness may be attributed in part to the 
NFHS' enhanced educational outreach efforts that commenced in 
2005 through an initiative titled ``Make the Right Choice.'' 
The program offers brochures, DVDs, and posters for state 
athletic associations to distribute among their member schools. 
Separate resources are also available for coaches/athletes and 
parents.
    By way of contrast, consider the story of Corey Gahan 
(featured in the January 21st, 2008 issue of Sports 
Illustrated). Although he did not formally participate in 
interscholastic athletics as a competitive in-line skater, 
Corey was injected by his father with steroids and human growth 
hormone for several years, starting at age twelve. The unique 
circumstances now confronting the eighteen year-old, including 
a father in prison and a recently expired two-year suspension 
from the U.S. Anti-Doping Agency, are the byproducts of 
uninformed and ill-intentioned parents. The NFHS' ``Make the 
Right Choice'' educational materials aim to elevate the level 
of awareness in such difficult situations.
    Coaches are another segment of the high school community 
that should be well-informed on the risks associated with 
performance-enhancing drugs. The NFHS' Coaches Education 
Program has rapidly expanded in recent years, and forty state 
associations have either adopted or endorsed it. The 
cornerstone of the initiative is to educate coaches on 
emphasizing ``teachable moments'' that arise in the course of 
interscholastic competition. One ``teachable moment'' addresses 
steroid use, education, and prevention; the module includes a 
discussion between a football coach and student-athlete on the 
use of steroids.

                   State Association Testing Policies

    State athletic associations are sovereign entities; they 
are not subject to the control of the NFHS, and they make their 
own decisions about steroid testing. In January 2008, the Texas 
University Interscholastic League announced a two-year, $5.6 
million deal with the National Center for Drug Free Sport, 
which also conducts testing for the NCAA and two other state 
associations. Prompted by a $3.0 million/year appropriation 
from the state legislature, the random tests are projected to 
affect between 40,000 to 50,000 student-athletes by the 
conclusion of the 2009 school year. The Texas policy results in 
a 30-day suspension following the first positive result (which 
is triple checked to ensure accuracy), while a subsequent 
violation results in a one-year suspension.
    Two other state athletic associations, Florida and New 
Jersey, have already established testing programs, and both 
entities also utilize the services of the aforementioned 
National Center for Drug Free Sport. New Jersey pioneered the 
testing of high school athletes in 2006-2007, targeting 5% of 
its state championship competitors. Although only one of five 
hundred participants tested produced a positive sample (at a 
cost of $150/test), the association has praised the deterrent 
effects of the program. Florida's policy is ``random'' at the 
individual level, but targets athletes in sports more prone to 
steroid usage (e.g. football, baseball, and weightlifting). A 
first-time offender in Florida would receive a 90-day 
suspension, although the scope of the program is considerably 
smaller than Texas, including only a $100,000 budget.
    The Illinois High School Association is the most recent 
state to adopt steroid testing procedures. In January, its' 
Board of Directors approved a plan effective for the 2008-'09 
academic year, and similar to New Jersey, testing will be 
conducted on participants in state finals competitions. A 
number of other state associations address steroid use without 
a comprehensive testing plan. For example, Connecticut adopted 
a regulation that denies athletic eligibility to student-
athletes if their respective local school districts discover 
steroid use. Many other associations, such as the Iowa High 
School Athletic Association, distribute educational resources 
through their web-site for parents, coaches, and students.

                Legal Authority and Proposed Legislation

    The Drug Free Sports Act of 2005 appears to offer a 
foundation for federal legislation aimed at the testing of high 
school student-athletes. Section Five of the Act directs the 
Comptroller General to investigate testing measures utilized in 
high schools in order to assess potential expansion of the 
legislation to interscholastic athletics. It should be noted 
that the legal authority for the testing of high school 
athletes and performing arts competitors has been firmly 
established by the United States Supreme Court. The landmark 
case granting school administrators the discretion to test 
students in the context of athletics is Vernonia School 
District 47J v. Acton, 515 U.S. 646 (1995), while Board of 
Education of Independent School District No. 92 Pottawatomie, 
et al. v. Earls, 536 U.S. 822 (2002) approved the testing of 
high school students engaged in other extra-curricular 
activities.
    However, a direct application of the Drug Free Sports Act 
of 2005 to the interscholastic community raises several 
concerns. Several fundamental differences between 
interscholastic athletics and professional sports limit use of 
the Act at the high school level. For example, random testing 
of student-athletes in the off-season, as mandated under the 
Act for professional athletes, is too burdensome on state high 
school associations. Instead, testing student-athletes in the 
state championship series is a preferred method, as reflected 
in the policies adopted by Illinois and New Jersey. The logic 
of such tests during the post-season is two-fold: (a) state 
championship events bring together a wide variety of student-
athletes, often from different regions of the state. The ease 
in administration of tests is greatly enhanced with a 
concentrated sample population in one location. (b) Further, 
the competitors at state championship events qualified as a 
result of intense competition and in most instances are upper-
echelon athletes. The overwhelming majority of high school 
athletes do not use performance-enhancing drugs, but the class 
of students participating at state finals and using 
performance-enhancing drugs may be greater than at a typical 
regular season contest. Thus, the deterrent value of testing 
would be stronger at the championship level.
    Of course, another consequence of implementing more 
aggressive measures at the high school population would be an 
increase in costs. As previously mentioned, the NFHS has no 
authority to demand that state associations implement steroid 
testing policies. Absent a federally mandated and funded 
program, economic pressures will keep many state legislatures 
from adopting testing programs. The consequences of ``false 
positives'' are so severe that only the highest quality testing 
programs are acceptable. Such programs are very expensive.

                               Conclusion

    For the aforementioned reasons, I urge that any help from 
Congress would be focused on a two-fold strategy. The first 
would be to support the deterrent that random testing provides 
and the second, very critical companion is a strong educational 
outreach designed to support the deterrent with accurate and 
effective educational initiatives. An example would be funding 
the development of deterrence strategies which target not only 
student-athletes, but non-athletes as well. The sad stories of 
youth like Corey Gahan are proof that this problem extends 
beyond the realm of athletics conducted by the nation's high 
schools. I thank the Subcommittee for the opportunity to be 
here today. I look forward to answering your questions.
                              ----------                              

    Mr. Rush. Thank you very much, Mr. Kanaby. Mr. Waldrop, 
please for 5-minute.

  STATEMENT OF ALEXANDER M. WALDROP, CHIEF EXECUTIVE OFFICER, 
 NATIONAL THOROUGHBRED RACING ASSOCIATION, LEXINGTON, KENTUCKY

    Mr. Waldrop. Mr. Chairman, Ranking Member Whitfield, 
members of the subcommittee, I am Alex Waldrop, President and 
CEO of the National Thoroughbred Racing Association. The NTRA 
member racetracks and horsemen conduct about 90 percent of the 
thoroughbred races in North America. While I represent the 
NTRA, the medication and testing information contained in my 
remarks is industry-wide in scope, and includes statistical 
data from standardbred, quarter horse, and thoroughbred racing.
    Mr. Chairman, the horseracing industry tests every winner 
in every race every day. That translates to 130,000 horses 
every year. We screen for up to 200 drugs in each sample. Our 
labs test for a variety of drugs, including stimulants, 
narcotics, bronchodilators, and anti-inflammatories. 
Collectively, racing spends some $36.5 million annually on 
equine drug testing and on research and development. We do this 
because all industry stakeholders agree that equine medication 
and testing are national issues that are central to our 
industry's integrity. Horseracing and its 38 State regulatory 
bodies provide oversight for drug testing under the model rules 
of the Association of Racing Commissioners International.
    The RCI develops its model rules in conjunction with the 
Racing Medication and Testing Consortium. The RMTC is comprised 
of 23 industry stakeholders, groups including regulators, 
veterinarians, chemists, horse owners, trainers, breeders, and 
racetracks from all racing breeds. The model rules include a 
classification system, which defines five classes of drugs and 
therapeutic medications. Class One drugs are nontherapeutic and 
have a high probability of affecting performance. There were 
only three Class One drug positives in the entire country in 
2006. Most drug positives are caused by mistakes in judging 
withdrawal times for prescribed medications, which have a 
relatively low probability of impacting performance. These are 
the Class Four and Class Five medications.
    RCI and RMTC have also jointly developed model penalties 
based upon classifications of the drugs involved. In 2007, the 
RMTC and RCI completed development of a model rule that will 
effectively prohibit the use of anabolic steroids in 
racehorses. While FDA-approved anabolic steroids may have some 
therapeutic value in treating racehorses, horsemen, tracks, and 
breeders all agree that racehorses should not compete on 
anabolic steroids. In practice, that means that anabolic 
steroids must be withdrawn from a horse's medication regime at 
least a month before its next race. This ensures that any 
effect on the horse will be eliminated by the time of the race.
    The purpose of the model rule regarding steroids is to 
ensure that these medications are used solely for therapeutic 
purposes, and none is used in a manner that enhances the 
performance of any horse in any race. The model rule has been 
or is being adopted by Arizona, Arkansas, California, Colorado, 
Delaware, Illinois, Indiana, Iowa, New York, Pennsylvania, 
Virginia, and Washington. Florida, Kentucky, Maryland, and 
Texas are among the many other States that are expected to 
support the model rule as well. We continue to work with the 
remaining jurisdictions to secure their support.
    The RMTC is conducting additional research that will 
provide further scientific support for the model rule. The 
practical issues of adoption and uniform enforcement of the 
model rule still remain, but the NTRA, the RMTC, the RCI, on 
behalf of the thousands of industry constituents they represent 
or regulate, are united in saying be in compliance with the 
model rule by December 31, 2008.
    The RCI and the RMTC provide the horse industry what every 
sport needs, a credible, scientifically-based, industry-led 
forum for drug and medication issues. Is our testing protocol 
perfect? No. Can it be improved? Absolutely. But the major 
industry stakeholders are united in their commitment to address 
drug and medication issues on a national basis through the RMTC 
and the RCI. The RMTC has served as a catalyst for the adoption 
of many significant drug and medication rules in racing States, 
and it is providing that same leadership in the regulation of 
anabolic steroids.
    We thank the committee for this opportunity to report to 
you on the progress made by the horse industry. Thank you very 
much.
    [The prepared statement of Mr. Waldrop follows:]

                   Statement of Alexander M. Waldrop

    Mr. Chairman, Ranking Member Whitfield and Members of the 
Subcommittee, I am Alex Waldrop, President and Chief Executive 
Officer of the National Thoroughbred Racing Association. The 
NTRA is a not-for-profit trade association for Thoroughbred 
horseracing. Its members include 65 racetracks and 40 national 
and state horsemen's groups drawn from 23 states. NTRA member 
racetracks and horsemen account for about 90 percent of all 
races run in North America.
    In 2007, nearly 107,000 U.S. horses made 918,000 starts in 
116,000 races. Our industry tested at least one horse from 
every one of those races. We test every race, every day, 
screening for up to 200 drugs in one sample. Our labs test for 
a vast array of drugs, including stimulants, narcotics, 
bronchodilators and anti-inflammatories. Collectively, racing 
spends between 30 and 35 million dollars annually on equine 
drug testing at 18 private or university laboratories. In 
addition, the industry annually spends almost $1.4 million on 
research and development into new tests and testing procedures 
necessary to stay current in the detection of performance 
enhancing drugs and medications.
    The horse industry has defined five classes of drugs and 
medications. Class One drugs have no accepted medical use in 
the racehorse and a high potential for performance enhancement. 
These drugs have no place in racing. Class Two drugs are not 
generally accepted as therapeutic agents in racing horses and 
have a high potential to affect performance. Class Three drugs 
may or may not have generally accepted medical use in the race 
horse, but their pharmacology suggests they have less potential 
to affect performance than Class Two drugs. Classes Four and 
Five are reserved for therapeutic medications with less 
potential affect performance than those in Classes One, Two or 
Three. Class Five medications, for example, are therapeutic 
medications that are used to treat common ailments such as 
ulcers, and have established concentration limits.
    Only three Class One positives were returned in the 130,000 
samples tested across the United States in 2006 (the latest 
year for which complete statistics are available). Only 27 
positives were returned for Class Two or Three drugs in the 
same sample group. Most drug positives are caused by human 
error in judging withdrawal times for prescribed therapeutic 
medications - Class Four or Five medications - prior to a race.
    While NTRA is not a ``league office'' with the power to 
sanction teams or players, the organization uses its convening 
authority to address a broad range of initiatives of national 
importance to the horseracing industry. Equine medication is a 
national issue that all stakeholders agree is central to our 
industry's integrity.
    As such, racing and its 38 state regulatory bodies have 
been proactive in identifying and banning illegal, performance-
enhancing drugs and regulating the use of prescribed 
therapeutic medications that may affect a horse's raceday 
performance.
    As a sport and a pari-mutuel wagering industry, horseracing 
is regulated at the state level by individual racing 
commissions. These organizations provide oversight for drug 
testing under the model rules of the Association of Racing 
Commissioners International, known as RCI. RCI develops its 
model rules in conjunction with the Racing Medication and 
Testing Consortium, or RMTC.
    The RMTC is governed by a Board of Directors consisting of 
23 industry stakeholder groups including regulators, 
veterinarians, and chemists, as well as horse owners, trainers, 
breeders, and racetracks from all racing breeds including 
Thoroughbreds, Standardbreds and Quarter Horses. In addition to 
serving on the Board of the RMTC, the NTRA provides funding for 
RMTC and communicates and endorses RMTC policies to its 
membership.
    The RMTC together with RCI have done important work in the 
area of therapeutic medications and drug-testing policy. These 
organizations are largely responsible for the development of 
the drug classification system I alluded to earlier. They also 
jointly develop model penalties for drug violations. The nature 
and severity of penalties for drug violations are determined by 
the classification of the drug involved, with due consideration 
for aggravating and mitigating circumstances, such as the 
potential of the drug to influence a horse's performance or 
whether the trainer acted under the advice of a licensed 
veterinarian.
    Traditionally, penalty guidelines have applied to the 
trainer as the ``absolute insurer'' of a horse's welfare and 
safety. However, penalty guidelines have recently been 
reinforced and extended to include sanctions for owners and 
veterinarians as well as trainers.
    The RMTC and RCI have worked closely over the past several 
months on a policy regarding steroids. With the full support of 
our industry, they have called for the adoption of model rules 
that would effectively prohibit the use of anabolic steroids in 
racehorses by the end of 2008.
    Let me be clear, anabolic steroids have therapeutic value 
in treating racehorses. They are most often prescribed when a 
horse is recovering from illness or surgery. However, horsemen, 
tracks and breeders all agree that racehorses should not 
compete on anabolic steroids.
    In practice, that means that anabolic steroids must be 
withdrawn from a horse's medication regimen at least a month 
before its next race. This ensures that any benefit the animal 
received as a result of the administration will be gone by the 
time of the race. In addition, minute levels of only four 
individual anabolic steroids will be permitted in post-race 
samples. Two anabolic steroids, stanozolol and boldenone, are 
approved by the United States Food and Drug Administration for 
use in horses. Boldenone and two other accepted anabolic 
steroids, nandrolone and testosterone, are also naturally 
occurring substances. The model rules state that no more than 
one of these anabolic steroids may be present in any given 
sample. Any other anabolic steroid is simply illegal.
    The purpose of the model rule is clear: to ensure that 
these medications are used solely for therapeutic purposes and 
none is used in a manner that enhances the performance of a 
horse in any race.
    The model rule has been or is being adopted by Washington, 
Arkansas, Iowa, Illinois, California, Indiana, Pennsylvania, 
Delaware, New York and Virginia. Kentucky, Texas, Florida and 
Maryland are among the many other states that are expected to 
support the model rule as well. The states mentioned here 
account for nearly 60 percent of races run in the United States 
and we continue to work with the remaining jurisdictions to 
secure their support.The current rule is based on 30 years of 
science and testing in European and Asian countries utilizing 
urine samples. Our industry supports further research to 
provide threshold levels and withdrawal times in both urine and 
blood plasma. Testing in plasma may be more accurate and less 
expensive. RMTC currently is funding research at the University 
of Florida that will provide guidelines for plasma samples. 
Similar research is underway in New York, Texas and 
Pennsylvania.
    What remains at issue is the very practical concern of 
uniform enforcement of the model rule while we await additional 
research. As previously mentioned, a number of states have 
already adopted the model rule. Others want to wait until the 
science is more complete. NTRA, RMTC and RCI are united in 
saying, ``be in compliance by December 31, 2008.''
    Working in conjunction with the RCI, the RMTC provides the 
horse industry with something that every sport needs - a 
credible, scientifically based, industry-led forum for 
addressing the multitude of drug and medication issues 
presented by modern day veterinary medicine. The RMTC has 
proven to be the best way to balance the legitimate interests 
of our industry's numerous constituencies. The horse industry 
is united in its efforts to protect the health of our equine 
athletes and the integrity of our sport.
    Mr. Chairman, we appreciate this opportunity to speak to 
this committee on this important issue and welcome your 
questions.
                              ----------                              

    Mr. Rush. At this point, before we begin questioning, I 
would like to acknowledge Mr. Frank and Ms. Brenda Marrero. 
They are in the audience. Their son Efran tragically died as a 
result of steroid use. Mr. and Mrs. Marrero founded the Efran 
Anthony Marrero Foundation, dedicated to educating young people 
and others on the dangers of steroids. We want to acknowledge 
them, please. Thank you so much for taking your time out to be 
a part of this hearing. Thank you for the fine work that you do 
on behalf of America's young people. Thank you so much.
    I want to begin the questions as I recognize myself for 5 
minutes of questioning, and I want to ask each panel to respond 
with a ``yes'' or ``no'' answer to the following questions. 
There are three of them.
    Do you support Federal legislation mandating uniform 
testing procedures for all sports? Beginning with Mr. Scherr.
    Mr. Scherr. Yes.
    Mr. Rush. Mr. Tygart?
    Mr. Tygart. Yes.
    Mr. Rush. Mr. Brand?
    Mr. Brand. Yes, with a condition. And the condition is that 
we are concerned that a generalized Federal regulation will 
weaken our program. For example, I can imagine that penalties 
would be such that they would be less stringent than we have 
now. So under those conditions, when you try and treat everyone 
the same, those who have a very strong program in place may 
actually find their program weaker.
    Mr. Rush. Mr. Kanaby?
    Mr. Kanaby. We would support the exact same comments of Dr. 
Brand. In addition to that, there must be some consideration 
given at our level, due to the total numbers involved with our 
level in terms of any mandated program that would be 
underfunded.
    Mr. Rush. Yes, sir.
    Mr. Waldrop. Mr. Chairman, we think the public-private 
partnership between the Racing Commissioners International and 
the Racing Medication and Testing Consortium provide the right 
model today to address these issues on an industry-wide basis, 
with the scientifically-based, industry-led approach to this 
problem.
    Mr. Rush. Is that no or yes?
    Mr. Waldrop. That would be not now.
    Mr. Rush. Not now.
    Mr. Waldrop. Not at this time.
    Mr. Rush. Not at this time. Okay. All right.
    Mr. Tygart, in your written testimony you state that while 
the professional leagues' anti-doping policies have 
significantly improved over the last several years, they still 
fail to fully implement all the basic elements of the most 
effective programs. Can you please elaborate? And what basic 
elements do they fail to implement?
    Mr. Tygart. Yes, sir, Chairman, I think the basic elements 
I outlined in my oral testimony and also my submitted 
testimony, what I think I dubbed the matrix of effectiveness. 
It is independence; it is transparency; it is effective out of 
competition, out of season, no advance notice testing; it is 
funds devoted to research; it is funds devoted to education; it 
is partnerships with law enforcement that would allow the 
bringing of nonanalytical cases, or in my mind and I think the 
experts' mind, including Senator Mitchell, the matrix of 
effectiveness of the most effective programs in the world.
    Mr. Rush. I want to ask you, Mr. Tygart, and Mr. Scherr, 
can you please tell us the current state of a test for HGH? Is 
it accurate and reliable? How soon must it be administered 
after injection? Is it commercially available?
    Mr. Tygart. There is a reliable test for human growth 
hormone. It is a blood-based test. It has been used at the 
Athens 2004 Olympic Games, it has been used at the 2006 Torino 
Olympic Games, we fully expect it to be used also this summer 
in the 2008 Beijing Games. The data from those tests has been 
shared amongst the WADA Working Group. It convened in April of 
'05, convened again in April of '07, have a meeting scheduled 
for April of this year. It is not yet worldwide available 
because there is a kit, and Congressman Burgess, it is an amino 
assay kit, actually a sandwich kit if you are familiar with 
that assay. It is in production. Production has not been--has 
been slower than we all expected, slower than we all wanted, 
but we fully expect that that will be available in the next 
coming months.
    And let me make one more point about human growth hormone. 
It is a strategy to address it. And you don't limit your 
strategy just to the ability to test for it in the event, like 
we see there is only a blood-based test. You have to have a 
broader strategy. And I think that broader strategy includes 
testing for other things, and having other prohibited 
substances on your list like insulin. Because all of us in the 
trenches know athletes who use human growth hormone are also 
going to use insulin. And so you have to prohibit insulin in 
your list. And there is a test that is becoming quickly 
available for insulin. Other things like IGF-1 similarly are 
being stacked with human growth hormone, and you have to 
prohibit those also.
    And then the second strategy is to have the ability to 
bring nonanalytical positives. When you have evidence--we have 
suspended athletes for human growth hormone. When you have 
reliable evidence and you have a process by which that evidence 
can be introduced, challenged, a full due process, you ought to 
then be able to suspend and discipline athletes for their use 
of human growth hormone even if you don't have a positive test 
for it.
    Thank you.
    Mr. Rush. The chairman yields back and now recognizes the 
ranking member of the subcommittee for 5 minutes of opening 
questioning, Mr. Whitfield of Kentucky.
    Mr. Whitfield. Mr. Chairman, thank you very much. And I 
want to thank the panel for being with us today. We appreciate 
your time, and look forward--we enjoyed your opening statements 
and your comments that you might have to assist us. And Alex 
Waldrop, I certainly want to congratulate you on being 
appointed the new President and CEO of the National 
Thoroughbred Racing Association. I know you haven't been there 
very long. But I want to ask you a couple questions.
    In my opening statement I referred to a comment made by 
D.G. VanClief, who was the former President and CEO of the 
National Thoroughbred Racing Association. He said this a few 
years ago. We have endeavored to adopt uniform rules governing 
the use of medications for years without success, despite the 
clear need to do so. Do you agree with that statement or not?
    Mr. Waldrop. I do not agree with that, Congressman.
    Mr. Whitfield. And why is that?
    Mr. Waldrop. Well, since that statement was made a great 
deal of progress has been made by our industry. Before you I 
have placed a document, it is entitled Racing Medication 
Timeline.
    Mr. Whitfield. I don't have a lot of time. I have got about 
4 minutes, and it goes quickly.
    Mr. Waldrop. Well, refer to that document.
    Mr. Whitfield. But basically, to stipulate, I guess you 
would say that 32 out of 38 racing jurisdictions have adopted a 
uniform rule. Is that correct?
    Mr. Waldrop. Yes, sir.
    Mr. Whitfield. Okay. And in our discussions yesterday we 
did also stipulate that every State had a variation of that 
rule, and that the penalties were not always the same.
    Mr. Waldrop. I would not stipulate that. I would say that 
the variations are very slight, and that we are making progress 
on model penalties.
    Mr. Whitfield. But not every racing jurisdiction has 
adopted it?
    Mr. Waldrop. No, sir. You are correct.
    Mr. Whitfield. And in fact, the State senate in Louisiana 
just a couple of days ago reversed the adoption of this rule by 
the racing authority. Is that correct?
    Mr. Waldrop. Congressman, I think they did that on a 
procedural technicality that was adopted under an emergency--
    Mr. Waldrop. All I know is that the newspaper says that the 
Louisiana Racing Commission adopted the model rule in December, 
and the Louisiana Senate Commerce Committee reversed the 
Commission's adoption of the regulations for failure to follow 
procedural rules. So whatever the reason, they reversed it. And 
now there has been a lot of discussion that government should 
not be involved, legislative bodies should not be involved in 
setting guidelines, and yet that is precisely what happened in 
Louisiana. They made the decision that no, there won't be a 
model rule here for now. And I know from personal experience 
that in Kentucky when they strengthened the rule in Kentucky, 
which had one of the most lenient in the country, the HBPA, 
after fighting it all the way, went to the legislature and 
tried to reverse it in Kentucky. But because of Jim Bruce 
particularly, they were not successful in doing so.
    So we know that in Europe and in Asia and Australia and 
Japan and Hong Kong and Dubai, not in South America, but in 
those jurisdictions they do not allow anabolic steroids in 
horseracing. In fact, England adopted that policy like 30 years 
ago. So would you agree that there is a need to abolish 
steroids in horseracing in the U.S.?
    Mr. Waldrop. There is a need to remove steroids from 
competition, absolutely. The model steroid rule that has been 
proposed is exactly what needs to be done.
    Mr. Whitfield. And none of us object to using steroids for 
therapeutic reasons.
    Mr. Waldrop. Correct.
    Mr. Whitfield. But if a horse is going to show positive for 
steroids and he is racing then he shouldn't be racing?
    Mr. Waldrop. That is correct.
    Mr. Whitfield. Now, the industry came to Congress a number 
of years ago and asked to pass the Interstate Horseracing Act 
so that simulcasting could go into effect. And simulcasting 
provides a large portion of the wagering for horseracing today. 
The handle. And Congress did not set any kind of guidelines 
with that authority. So do you think it would be unreasonable 
for Congress to say if you are going to benefit from 
simulcasting, and we know that your organization cannot mandate 
anybody to do anything, so would it be unreasonable for 
Congress to mandate that if a State does not adopt some of 
these uniform rules by a date certain that they would lose 
their simulcast opportunities?
    Mr. Waldrop. No, that would not be unreasonable.
    Mr. Whitfield. Sir?
    Mr. Waldrop. No, sir, it would not be unreasonable.
    Mr. Whitfield. Okay. Thank you very much. My time has 
expired. Thank you.
    Mr. Rush. The Chair recognizes the gentleman from Nebraska, 
Mr. Terry, for 5 minutes.
    Mr. Terry. Thank you. Mr. Scherr, I have to ask you 
questions just as to where you went to college. Would you 
please state that, please?
    Mr. Scherr. University of Nebraska at Lincoln.
    Mr. Terry. Thank you. That makes you the brightest of both 
panels.
    Mr. Scherr. I will concur.
    Mr. Terry. Mr. Scherr, by the way, is a legend in Nebraska. 
So we call him the legendary Jim Scherr, some of us sports fans 
do. Even though you stated in your testimony that you are not 
here to compare, and I don't want to do it in a na-na-na type 
of way, but can you outline for me from what you understand of 
at least the NFL or baseball, how their program, drug testing 
program does compare to the U.S. Olympics? Because the Olympics 
is kind of the, no pun intended--well, yes, it is--gold 
standard. They get the gold medal for being out there, and so 
does the NCAA. So how does it compare? What do they need to do 
to mirror your standards?
    Mr. Scherr. Without getting into the minutiae of the 
specific differences in all elements of the program, the 
penalties for having a positive test are certainly much more 
lenient across the board than those in the Olympic movement. 
For example, our first offense is 2 years. A second would be a 
lifetime ban. And those certainly would seem to be much more 
effective as deterrents to the use of performance-enhancing 
drugs. And I think the major differences could be categorized 
in degree of independence of the testing agency, the degree of 
transparency in the operations of the testing agency, and the 
numbers of true no advance notice testing, both in-season and 
out of season.
    Mr. Terry. We had a discussion earlier about the 
transferring from urine to blood. What is your understanding of 
the science as it exists at this moment in time in using blood 
to be able to do a better job of finding HGH or other 
performing-enhancement drugs that may be masked in urine?
    Mr. Scherr. Well, as a University of Nebraska graduate, my 
understanding of the science is pretty limited.
    Mr. Terry. But far more advanced than most others.
    Mr. Scherr. Yes. Yes. You know, there is not an effective 
urine test at this time for HGH. I think certainly one of the 
goals of the Partnership for Clean Competition will be to 
develop a more readily, easily used test for HGH should that be 
possible. I think, though, that while it is more invasive and 
much more difficult in terms of potential health hazards and 
issues with athletes' rights, the blood testing is a much more 
effective screen for performance-enhancing substances than 
urine tests at this time.
    Mr. Terry. Do the Olympics do any blood testing?
    Mr. Scherr. Very limited at this point in time, though WADA 
and the HGH tests that Travis had referred to previously in 
some initial majors is moving in that direction. And I think as 
long as the testing stays as it is, we will try and move in 
that direction. And I could refer that to Travis for probably a 
more thorough answer.
    Mr. Terry. Dr. Brand--well, just in my few seconds that are 
left, how about the NCAA? Looking at blood testing?
    Mr. Brand. We have discussed it. We do not use blood 
testing right now. I think our members may find some privacy 
issues in it. We would prefer to wait for, for HGH, a urine 
test. We are supportive of what the Olympics is leading in 
terms of movement towards that test, and once it is developed 
we will certainly adopt it. But at this point we do not have 
blood testing.
    Mr. Terry. Thank you. I yield back.
    Mr. Rush. The chairman recognizes now the gentleman from 
Florida, Mr. Stearns, for 5 minutes.
    Mr. Stearns. Thank you, Mr. Chairman. Let me ask you folks, 
you perhaps heard the first panel when I tried to indicate that 
it would be important that they adopt the United States anti-
doping policy, the USAD's stringent testing system. And they 
all seemed to hem and haw, and they didn't say they wanted to 
do that. In fact, they thought--one of them said they thought 
theirs was better. And then when I talked to the players 
association for baseball, they indicated that they couldn't, 
and that there was some peculiarities about the way the sport 
is configured that they couldn't do it.
    So I guess the question I would have for you folks is, is 
it possible for professional sports to adopt the stringent 
testing system of USADA, and if not, why not? Anybody like to 
answer that?
    Mr. Tygart. This is Travis from USADA, CEO of the United 
States Anti-Doping Agency. I don't see any reason why not. In 
fact, the players mentioned in my oral testimony frequently 
play under our regulations 12 months before the games. You are 
going to see this summer in Beijing the USA basketball team. It 
has the NBA all-stars that played 2 weeks ago down in New 
Orleans.
    Mr. Stearns. Good point.
    Mr. Tygart. They live under these rules without complaint. 
And it includes--we have their whereabouts. We show up at their 
houses 24 hours a day, 7 days a week, 365 days a year without 
notice. And they don't complain. They give us the samples. In 
fact, our experience has been with whether it is those 
professional athletes that want to represent their country in 
Olympic sports or our day-to-day Olympic athletes, they want 
the world to know--if they are truly clean, they want them to 
know that they are clean. And they have no problem agreeing to 
the toughest standards in the world.
    Mr. Stearns. So they are already complying, most of them 
are already complying when they do those games. Now, I asked 
you the question about HGH and testing of it. And they said 
that there is no way to test for it today. So the question is 
can you test for it today? Is there any credible test for it?
    Mr. Tygart. We answered this previously, but there is 
currently a reliable blood-based test.
    Mr. Stearns. Okay.
    Mr. Tygart. As I indicated previously, we used it at the 
2004 Athens Games the, 2006 Torino Games. And we fully expect 
it to be available for the Beijing Games in 2008. The reason it 
is not yet available in the United States is the kits that are 
required for use in the laboratories to analyze the blood for 
HGH, the production of those kits has been slower than 
anticipated. We expect those to be hopefully available in the 
next coming months for worldwide distribution.
    Mr. Stearns. Have there been any positive tests when you 
test for HGH? I mean any negative tests rather?
    Mr. Tygart. There has been no positive tests for HGH. As I 
indicated previously, there has been suspensions for use of 
HGH, but not based on a positive test.
    Mr. Stearns. Okay. Okay. I guess the feeling is that if you 
are a professional athlete you could use HGH today with 
impunity. You couldn't be caught. Isn't that true?
    Mr. Tygart. I think it depends on the league. I believe 
some of the leagues have the ability to bring nonanalytical 
positives, and that you can discipline someone for use, 
particularly if they are convicted in a State or Federal court 
of distributing or possessing or using that substance. But you 
have to look at--and I don't know off the top of my head the 
different policies in the leagues, but I know that the NFL, for 
example, I believe has the ability to discipline someone on a 
what is known in our world as a nonanalytical positive.
    Mr. Stearns. I guess nonanalytical positive means based 
upon procedures, and not based upon testing.
    Mr. Tygart. It is just evidence. It could be 
circumstantial, it could be direct, but it does not include a 
positive test.
    Mr. Stearns. Right. Okay. And so I think what you are 
telling me is that the Olympic standard is probably stronger 
than the professional sports, and the sports could adopt yours, 
but they want to keep theirs separate and individualized. So 
for that reason we in Congress just have to take their word for 
it that they are having a high standard like the Olympics. Is 
that a fair thing to say, I have to take their word for it that 
they are using a high standard like the Olympics?
    Mr. Tygart. It is a tough question to answer, but I think 
that's fair. I mean the policies are available to a certain 
extent, so you can make some conclusions based on the policies. 
But the question previously about the transparency of how those 
policies actually work in practice, it is really difficult to 
see.
    Mr. Stearns. Particularly when you have the adversarial 
union and the Commissioner trying to do things sometimes at 
odds with the players wanting their privacy?
    Mr. Tygart. I think the best place to find that answer, 
Congressman, is I think it is about page 86 of the Mitchell 
Report, when you see the day-to-day struggle of what to do with 
evidence that comes up between the players and the unions, and 
how they respond to that evidence. Whether it is a reasonable 
suspicion test or turning something over to law enforcement 
that is discovered is a pretty good, I think, description of 
that day-to-day conflict and negotiation that happens between 
management and unions.
    Mr. Stearns. The bottom line is we have had 16 years of 
this in which steroids have been used pretty aggressively in 
sports, and nothing was done about it, and now we have had 
hearings and we finally get their attention, and they are doing 
it. Now, unfortunately we have all these athletes that are of 
dubious achievement based upon these steroids, and we are 
trying to establish forward a positive plan, and I think we 
have something in place.
    So I thank you, Mr. Chairman, and I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Pitts--I am sorry, the gentleman from Texas, 
Mr. Burgess, is recognized for 5 minutes.
    Dr.Burgess. Thank you, Mr. Chairman. I won't use the entire 
10 minutes, but Mr. Kanaby, if I could ask you, you referenced 
some of the State legislation that has gone forward. I 
mentioned the Texas law that was passed the last legislative 
session in Texas. Do you think that is--is that a reasonable 
approach that some of the States are taking as far as their--
the testing of students at the high school level or athletes at 
the high school level?
    Mr. Kanaby. I would think that is a very reasonable 
position to take. They are doing what we suggested in our 
opening statement. Basically, they are not only going to be 
testing and using that test as a deterrent, because young 
people need an opportunity to say to their friends, no, I might 
be picked at random, so I am not going to do that, and resist 
that kind of pressure. And it becomes a very, very good thing 
for that young person to be able to do that. But in addition to 
that, they have also mandated an educational program, both for 
coaches and also for individual young people to go through.
    So I think that combination presents the best approach 
towards dealing with this situation in terms of changing the 
mindset and changing the culture of sport along these lines.
    Dr.Burgess. Yeah, I think the Texas law did include that 
educational component. I would agree with you that that is 
terribly important.
    Now Mr. Fehr mentioned in his response to a question that 
because the usage and the availability in fact of some of these 
compounds is so widespread and so ubiquitous in society that 
simply this committee providing legislation dealing with the 
use of performance-enhancing medications at the professional 
level would not have the impact at the high school level, or 
that impact might be diminished. But still that is a worthwhile 
thing to pursue, would you not agree?
    Mr. Kanaby. In the discussions that we have had with the 
three States that are--the two States that have been active and 
with our folks at the UIL, that they feel very, very strongly 
that the deterrent factor of a potential test is a strong, 
strong proponent towards limiting and discouraging use.
    Dr.Burgess. But in addition to the deterrent factor of the 
State-mandated testing, if there were Federal legislation 
regarding the impact of performance-using medications on the 
career of a professional athlete, would that also not have an 
additional effect as far as discouraging someone from the use 
of those compounds?
    Mr. Kanaby. It could have that, again depending upon what 
form and format the Federal legislation takes, which is why we 
suggest, if anything is going to be done, that there be a 
strong link to both the deterrent factors as well as the 
educational programs involved.
    Dr.Burgess. Point well made.
    Now, in the Boston Globe article of February 19th that I 
referenced, I got the impression from your testimony that 
perhaps their figures are a little bit dated. But I mean they 
gave some pretty astoundingly high figures for females in high 
school and middle school who might be inclined to use 
performance-enhancing medications. Is it your opinion or did I 
understand it is your opinion that this has improved from the 
time that these figures were quoted from the CDC and from 
Oregon?
    Mr. Kanaby. We believe so. I think those statistics, sir, 
were back to 2003, study that was done in 2003. I cited some 
statistics as far as December of 2007. And is the trend right? 
Yes. Is the problem solved? Absolutely not.
    Dr.Burgess. To what do you attribute the reduction in usage 
that you have observed?
    Mr. Kanaby. Well, quite frankly it has been a very high 
visibility item as a result of the work of this committee, for 
one thing, as far as the general public is concerned. There are 
also, through our member State associations, as well as our own 
organization that have undertaken very, very strong initiatives 
to develop materials that are applicable to both young people--
for example, we distributed and the UIL distributed to all its 
member schools throughout the State, and it was mentioned in 
the State Legislature in Texas the program that we developed 
for parents, providing to them using the--working with the 
Hooton Foundation, for example, as well as our own folks. We 
very graciously had the services of Tony Dungy, the coach of 
the Indianapolis Colts, who prepared a video for us for high 
school coaches, and talking to them about what it meant and 
cheating and et cetera. And we used a NFL quarterback to speak 
to student athletes in a separate DVD.
    So all of these resources, the other kinds of things that 
our member State associations, we do believe are having an 
impact. And it is encouraging to us, and we think that if we 
redouble, triple our efforts along these particular lines we 
can really start to see even greater inroads in this regard.
    Dr.Burgess. So you attribute a lot of that to the 
educational effort that you put forth?
    Mr. Kanaby. Yes, we do. Young people, they are sharp, and 
when presented with facts that basically are not unreasonable 
in terms of not necessarily just being scare tactics, but 
hearing their coach talk about these things, hearing people 
that they respect and represent, strengthening their parents to 
be more observant in terms of things that they see in the 
development of their young people, it is a multi-faceted 
approach that can have good, positive results.
    Dr.Burgess. Maybe we ought to turn the anti-tobacco efforts 
over to you and your crew, because it sounds like you have been 
much more effective. But thank you very much, and I will yield 
back.
    Mr. Kanaby. Thanks.
    Mr. Rush. Now the Chair recognizes Mr. Pitts of 
Pennsylvania for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman. Mr. Waldrop, I was 
interested in your response to Congressman Whitfield's question 
about the Interstate Horseracing Act that gives benefits in 
interstate wagering. Would you just reiterate again? The 
question, as I understand it, was is there any compelling 
reason why we should continue this benefit in the absence of 
real movement to a uniform testing and enforcement policy?
    Mr. Waldrop. Well, yeah, I believe that was the question. 
My response was it would not be unreasonable to make compliance 
a condition for being able to utilize the Interstate 
Horseracing Act. The lawyer in me would hasten to point out 
that the Interstate Horseracing Act does acknowledge that its 
primary purpose is to uphold States rights in controlling what 
happens within its borders where parimutuel wagering is 
concerned. So you have to balance the interests of the States 
with the Federal Government's interests in interstate commerce. 
And that is what really this is all about. It is looking to the 
States to step up first. And if and when they don't step up, 
then it is incumbent upon the Federal Government to step up.
    My point this afternoon is to say that we think finally we 
are getting that confluence of activity, that group of States 
that are getting behind the model rules, and we are seeing 
compliance and support that we have never seen before not 
because of the pressure of Congress so much as the pressure of 
our owners, who spend billions of dollars a year to buy horses, 
and the pressure of our horseplayers, who last year wagered 
almost $15 billion. They are demanding that our game be on the 
up and up. And that's where the RMTC and RCI are coming from. 
We are listening to our fans, we are listening to our owners, 
and we are trying to respond privately in the public-private 
partnership with RCI, State regulators, and with the RMTC in a 
fashion that makes sense and that convinces the industry that 
we are serious and we are going to get real.
    And I can tell you the NTRA, our charge is to be a fan-
based organization, to grow this business. And without 
integrity we can't grow it. And that is why I am here today. 
And that is why, since I have been at the NTRA, medication has 
been at the top of the list of our issues, because we have got 
to get a handle on this. We have got to get serious as an 
industry about adopting the model rules nationwide. And I think 
we are doing that.
    And we appreciate Congress' interest. We appreciate your 
scrutiny in this matter. I think we have a good story to tell, 
and it gets better by the day, and I am proud to say that.
    Mr. Pitts. Now, when you state that some States will not 
adopt the model rule until more science is available, what 
science or research are they waiting for? Is this just an 
excuse not to adopt the model rule?
    Mr. Waldrop. It is interesting to hear the discussion about 
human growth hormone and the distinction between testing urine 
and testing blood plasma. That is exactly the situation we find 
ourselves in horseracing where steroids are concerned. The 
model rule was based upon European science, and European 
science relies upon urine as the medium for the test. There is 
evidence, and some reasonable people believe that the right way 
to test for steroids is in plasma. That test is not yet 
available. It should be available by this summer. In fact, some 
preliminary data should be available before then. If and when 
we get the model rule with withdrawal times and threshold 
levels in both urine and plasma, you will see wholesale 
adoption of that model rule. And you will not see people 
dragging their feet. I believe what horsemen are telling us is 
we want a rule, we want a bright line, we want to know exactly 
what we need to do to comply, and we will comply.
    I have read every bit of the--I read all the clips. I know 
what people are saying around the country. I have yet to hear a 
horseman say we do not want to stop the use of steroids. What 
they say is we want to test in plasma. That is a reasonable 
position. And I think we ought to--and the RMTC is taking steps 
and they will have that research so that by the end of the year 
we think we can get full compliance nationwide.
    Mr. Pitts. Now, can States forbid a horse to enter their 
races if they have competed in other States that have not 
adopted the model rule?
    Mr. Waldrop. I suppose they could. That would be 
unprecedented. I believe that the most important reason for the 
model rule is to get uniform and nationwide compliance so that 
horses can move freely from State to State. That would be a 
detriment to racing in both States, the State that doesn't come 
on board and the State that puts up that barrier. I think the 
more important point here is as more and more States adopt the 
model rule on steroids, other States that don't comply have to 
if they want their horses to compete. Because you can't use 
steroids in one State and take that horse to a State--to 
another State if that Stateis banning steroids because you are 
going to test positive.
    Mr. Pitts. I don't have much more time. Do you keep 
statistics to ensure you have the information to protect the 
health of the racehorses? And how many horses die annually at a 
track or as a result of a race?
    Mr. Waldrop. I don't have that data.
    Mr. Pitts. Do you keep those statistics?
    Mr. Waldrop. Those statistics are being developed. We as an 
industry are working to collect that data. But right now that 
data isn't freely available. A group is working with the Jockey 
Club to make sure that we have that available so that we can 
rely on it. But today I can't tell you definitively how many 
horses are injured or who die on the racetrack, no, sir.
    Mr. Pitts. My time is up. Thank you. Thank you, Mr. 
Chairman.
    Mr. Rush. Thank you, Mr. Pitts. The Chair will allow for a 
second round of questioning. I recognize the ranking member, 
Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. I just want to clarify just a couple of 
things. Mr. Waldrop, you had mentioned that a lot of the 
horseowners have come to you and are insisting on the plasma 
test. I presented today in my opening statement e-mails 
received from a lot of owners around the country who actually 
are asking for a Federal ban of anabolic steroids. And I was 
reading an article the other day up at New Bolton at the 
University of Pennsylvania where they said basically we are 
trying to reinvent the wheel on this testing because the 
testing that has been used in Europe has worked fine for many 
years. And I certainly appreciate the position you are in with 
a lot of different interests that you represent. But when you 
said not now, we don't need Federal regulation not now, it does 
remind me once again of after Senator Mathias gave his 1981 
speech in which he was advocating a uniform rule that was clear 
so everyone understood precisely what was allowed and not 
allowed, and afterwards all the States came running up to his 
office, and even there, and saying you don't need to act, we 
will take care of it. And now here we are 27 years later, and 
basically I don't think it has been taken care of. That is just 
my view and that is the view of a lot of people in the 
industry. And I am glad that Mr. Pitts had asked this question 
about how many horses do die on the track? That is a figure 
that we really don't know the answer to. Because they are not 
keeping track of it because it is an unpleasant part of this 
business. And we do know that the drugs has an impact on that 
because it impacts the horse.
    And the previous panel, baseball, football, basketball, I 
think they made great strides, I think they are doing a pretty 
good job, but they talked about the necessity of random 
testing, the necessity of a hotline for tips. And particularly 
when you have a situation where an animal, a horse has no say-
so in this whatsoever, and there is so much money involved in 
winning these races, we can understand people wanting to get an 
advantage.
    But is there random testing in the industry like before a 
race while horses are at the stable getting ready to race? Is 
there random testing in any jurisdiction that you know of?
    Mr. Waldrop. There is out of competition testing performed. 
There was extensive out of competition testing conducted this 
year prior to the Breeders Cup. In fact, I believe most all 
horses that were entered in the Breeders Cup were required to 
submit to or agree to submit to random testing. That is not the 
norm. It is expensive. Our horses travel a great deal. They are 
hard to locate. And we believe that post-race testing has 
proven to be--and for the most part has proven to be very 
accurate. Now, out of competition testing would help with EPO, 
and we acknowledge that. There is more work to be done.
    Mr. Whitfield. But there is a problem with just the expense 
of testing. That is a problem. I mean the cost of doing it, I 
am sure.
    Mr. Waldrop. Well, there is.
    Mr. Whitfield. Now, let me ask you, do you all have a 
hotline for tips of people who may be taking advantage of the 
system that is in existence?
    Mr. Waldrop. That is done on a State by State basis. I 
suspect there are States. I can't answer that for sure. I don't 
know. I can find out for sure. Yeah, I believe the USTA and the 
Thoroughbred Racing Protective Bureau, which is a security 
group that overlooks--
    Mr. Whitfield. They have a hotline?
    Mr. Waldrop. They do have a hotline, yes, sir.
    Mr. Whitfield. Okay. I wasn't aware of that. Okay. Well, 
thank you very much for your testimony. Mr. Chairman, thank you 
for allowing me to ask those few.
    Mr. Rush. I have one additional question that I would like 
to ask the panel in its entirety. This is again, we will return 
to the ``yes'' or ``no'' format. Do you support saving samples 
of athletes for retroactive testing? And if you would just 
along with the ``yes'' or ``no'' just take a couple of seconds 
to explain or to hit upon the accuracy of such retroactive 
testing? Starting with Mr. Scherr.
    Mr. Scherr. Yes, we do support that. We believe that 
currently and in the future there will be accurate ability to 
store those samples and to have effective tests of those 
samples.
    Mr. Tygart. We do. We currently have a policy in place 
developed in conjunction with our athletes. They support it 
wholeheartedly. It depends solely on what you are looking for 
when you retest it after the fact, or a retesting situation. If 
it is a steroid it is relatively stable and you can do it--as 
long as that sample is frozen, you can do it years down the 
road. Human growth hormone, you save it, freeze it, you can do 
it down the road. They are relatively stable. Some compounds 
aren't so stable. So it really depends on what you are going to 
reanalyze it for later. We have the policy. Big deterrent 
effect. And we also do it in practice, so it has a detection 
ability as well.
    Mr. Rush. Dr. Brand?
    Mr. Brand. The NCAA does save samples. We tend to follow 
the WADA approach as much as possible. We still have the same 
kinds of questions that were asked. We are looking forward for 
more research to know how long and how best to store those 
samples.
    Mr. Rush. Mr. Kanaby?
    Mr. Kanaby. Again, in the previous responses and our 
relationships with these groups here at this panel level table, 
I see no reason why not to support that.
    Mr. Rush. Mr. Waldrop?
    Mr. Waldrop. We would absolutely support that. In fact, 
some States are already doing that in our business.
    Mr. Rush. This concludes our hearing for this day. I 
certainly again want to thank this panel, Panel II, for your 
patience, for your participation. You have really done this 
committee and the American people a great service by your being 
here and by your great and open testimony. We thank you so very 
much. And now the committee stands adjourned.
    [Whereupon, at 2:25 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                   Statement of Hon. John D. Dingell

    I commend Chairman Rush and Ranking Member Whitfield for 
their leadership in bringing this important issue before us 
today. I also extend special thanks to our distinguished 
witnesses who will present testimony about what they have done 
and what remains to be done to address the problem of drug use 
in competitive sports.
    In the 109th Congress, this Subcommittee held careful 
hearings and wrote the Drug Free Sports Act, legislation that 
was favorably reported by the Committee on Energy and Commerce. 
We deferred further action on that bill in order to give the 
professional sports leagues and players associations an 
opportunity to act decisively. We look forward to their 
testimony this morning on the progress that they have achieved. 
The professional league's anti-doping programs have 
significantly improved in recent years, but the testimony of 
the United States Anti-Doping Agency states, ``they still fail 
to fully implement all the basic elements of the most effective 
programs.'' What remains to be done, and what is the most 
effective means of achieving it?
    The Subcommittee also will hear today from the 
organizations representing college and high school sports. What 
special challenges do they face, and how can we help them 
establish and maintain effective drug-testing and education 
programs?
    Using steroids, human growth hormone, and other performance 
enhancing drugs to gain a competitive edge is cheating, plain 
and simple. It undermines the integrity of the game, unfairly 
disadvantages honest athletes who refuse to use them, and calls 
into question outcomes and records. The use of these substances 
carries with it potentially serious negative side effects for 
the human body. Adolescents place themselves at risk of more 
serious physical harm than adults. Along with the health risks, 
there is the risk of going to jail. Last year, disgraced 
Olympian Marion Jones pleaded guilty to three counts of lying 
to Federal agents about her steroid use, and she was sentenced 
to prison. Home run king Barry Bonds was indicted on charges of 
lying to a Federal grand jury about his own alleged use of 
illegal steroids. Sometimes the outcome is incomprehensively 
tragic, such as the tragic event last summer when World 
Wrestling Entertainment (WWE) wrestler Chris Benoit killed his 
wife and 7 year old son, and then committed suicide. Shortly 
thereafter, WWE suspended 10 WWE performers tied to an alleged 
steroid ring. This has to stop.
    I look forward to working with all parties to see to it 
that this country has the most effective testing and 
educational programs possible. While all of us recognize that 
someone is always going to try to beat the system, we have an 
obligation to continually reassess what we have, and to provide 
the necessary tools to prevent as many as possible from risking 
their health and undermining the integrity of athletic 
competition.

                                 <all>

</pre></body></html>
